   THE UNITED STATES
NATIONAL CENTRAL BUREAU
     OF INTERPOL


      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 09-35
          September 2009
                    THE UNITED STATES NATIONAL
                    CENTRAL BUREAU OF INTERPOL

                            EXECUTIVE SUMMARY

      The International Criminal Police Organization (INTERPOL) facilitates
the exchange of information to assist law enforcement agencies in the
United States and throughout the world in detecting and deterring
international crime and terrorism through a network of 187 member
countries. 1 Each INTERPOL member country establishes a National Central
Bureau (NCB) to serve as its liaison between the member country's law
enforcement agencies and INTERPOL. NCBs work with the police authorities
in their countries to transmit, respond to, and execute requests for
information and assistance in criminal investigations and police matters to
and from other countries’ NCBs via the INTERPOL communications network.

       The United States National Central Bureau (USNCB) is the entity
through which the United States functions as an INTERPOL member and
serves as a point of contact for U.S. federal, state, local, and tribal law
enforcement for the international exchange of information. The USNCB has
a fiscal year (FY) 2009 budget of approximately $24.5 million and
65 full-time equivalent employees. In addition, as of December 2008 the
USNCB had 24 staff members detailed to it from federal, state, and local law
enforcement agencies.

      To facilitate the exchange of information between international law
enforcement agencies, INTERPOL has developed a secure, Internet-based,
virtual private network known as I-24/7 through which: (1) NCBs can
instantly communicate with other NCBs and the INTERPOL General
Secretariat, and (2) INTERPOL member countries can instantly access a wide
range of criminal information located in INTERPOL’s databases – including
terrorism-related information and information on stolen and lost travel
documents. This information comes from queries, messages, intelligence,
and submissions from law enforcement officials in member countries.

      INTERPOL also utilizes a system of color-coded international notices
and “diffusions” that share crime-related information with each member




     1
         A listing of all INTERPOL member countries can be found in Appendix IV.
country. 2 This information concerns individuals wanted for serious crimes,
missing persons, unidentified bodies, possible threats to public safety, and
criminals’ modus operandi, as described in the following table. As of
February 2009, INTERPOL had nearly 25,000 active notices, of which most
were red.

                       Types of INTERPOL Notices 3

                     Red Notice - Requests to seek the location and
                     arrest of a wanted person with a view to extradition
                     based on an arrest warrant or court decision.

                     Blue Notice - Collects information about, locates, or
                     identifies a person of interest in a criminal
                     investigation.

                     Green Notice - Provides warnings about persons
                     who have committed criminal offenses and are likely
                     to repeat these crimes in other countries.
                     Yellow Notice – Provides information to help locate
                     missing persons, especially minors, or to help
                     identify persons who are not able to identify
                     themselves.

                     Black Notice - Requests information about
                     unidentified bodies.

                     INTERPOL-United Nations Security Council
                     Special Notice - Alerts police of groups and
                     individuals who are the targets of U.N. sanctions
                     against Al Qaeda and the Taliban.
                     Orange Notice - Warns police, public entities, and
                     other international organizations of dangerous
                     materials, criminal acts, or events that pose a
                     potential threat to public safety.
Source: INTERPOL


       2
         A diffusion is a message sent by a member country to other member countries
without a formal review conducted by INTERPOL. Frequently, the diffusion is sent to
immediately disseminate information pending submission and approval of the more formal
notice. A diffusion contains information similar to a notice. However, member countries
also use diffusions to request assistance.

       3
          Notices are published in the organization’s four working languages: Arabic,
English, French, and Spanish.

                                             ii
Background of INTERPOL

      Established in 1923 and currently located in Lyon, France, INTERPOL is
an international police organization that seeks to facilitate cross-border
police cooperation and support and seeks to assist organizations whose
mission is to prevent or combat international crime. INTERPOL provides
secure global police communication services, operational police support
services, and police training and development.

      INTERPOL is governed by a General Assembly, consisting of delegates
appointed by member countries, which meets once a year to make all major
decisions affecting general policy. 4 An Executive Committee oversees the
execution of the decisions of the General Assembly, as well as the work of
the Secretary General. 5 The Secretary General oversees INTERPOL’s day-to-
day work of international police cooperation. 6

       INTERPOL is funded primarily by member country annual statutory
contributions. To assess each member countries’ dues contribution,
INTERPOL uses a formula based on the countries’ economic well being. This
formula was renegotiated in the late 1990s and incorporated a gradual
increase in the percentage share paid by the wealthiest nations. The United
States’ share of the annual INTERPOL budget increased from 5 percent in
fiscal year (FY) 2003 to the current rate of 13.26 percent in FY 2006. In
2008, INTERPOL’s total statutory budget was approximately $64.1 million
and the United States’ contribution to INTERPOL was $8.5 million. According
to USNCB officials, INTERPOL is again proposing an adjustment to the dues
formula and it is expected that the United States’ contribution will gradually
increase from 13.26 percent in 2009 to 17.385 percent in 2014.

      In FY 2008, INTERPOL had a staff of 588, representing 84 countries.
In addition to 398 contract employees, INTERPOL also had 190 seconded




       4
           Each country has one vote and all votes carry equal weight.
       5
        The INTERPOL Executive Committee has 13 members elected by the General
Assembly.
       6
         The Secretary General is nominated by the Executive Committee, confirmed by at
least two-thirds of the General Assembly, and serves a 5-year term. Ronald K. Noble, the
current Secretary General, was initially elected in 2000 and currently is serving a second
term. Secretary Noble is a national of the United States and served as a former
Undersecretary for Enforcement with the U.S. Department of Treasury.

                                              iii
staff from member countries. 7 As of May 2009, the United States had seven
individuals detailed to INTERPOL.

Background of the USNCB

       The responsibility for management of the USNCB has varied since the
USNCB became operational in 1968. It was initially placed under the
direction of the Department of the Treasury (Treasury). In 1977, the
Department of Justice (DOJ) and Treasury signed a Memorandum of
Understanding (MOU) that established joint DOJ and Treasury management
of the USNCB. In 1981, an amendment to the MOU placed the USNCB
within DOJ, reporting to the Deputy Attorney General, but still under the co-
management of Treasury and DOJ. A May 2003 MOU transferred
responsibility for the management of the USNCB to DOJ and the Department
of Homeland Security (DHS). 8 The MOU also established senior
management positions in the USNCB, which rotate between the two
departments every 3 years. 9

OIG Audit Approach

       Our objectives for this audit were to: (1) evaluate the USNCB’s efforts
to ensure sharing of INTERPOL information among federal, state, local, and
tribal law enforcement agencies; (2) review the USNCB’s processes for the
exchange of INTERPOL information to ensure that requests for assistance
and information were handled in an appropriate, efficient, and timely
manner; (3) review the USNCB’s controls over INTERPOL case information;
and (4) examine the USNCB’s organizational role and strategic priorities to
ensure that they are in line with DOJ priorities.

      To accomplish these objectives we interviewed the USNCB Director,
Deputy Director, and Assistant Directors; participating agency
representatives at the USNCB; DOJ officials in the Office of the Deputy
Attorney General, Federal Bureau of Investigation (FBI), and Drug
Enforcement Administration (DEA); the INTERPOL Secretary General;


       7
          Seconded staff are individuals who are temporarily assigned to INTERPOL by their
national administrations and compensated by their national administrations or by
INTERPOL.
       8
           DOJ is responsible for the administrative costs of operating the USNCB.

       9
         The USNCB Director and Deputy Director must serve a term of at least 2 years,
but not more than 3 years. The current USNCB Director is a Supervisory Special Agent with
DHS’s U.S. Immigration and Customs Enforcement, and the Deputy Director is a Chief
Inspector with DOJ’s U.S. Marshals Service.

                                              iv
officials at the INTERPOL General Secretariat in Lyon, France; and law
enforcement officials from the Bundeskriminalamt (BKA) located in
Wiesbaden, Germany. 10

       During the audit, we attended a training session presented by the
USNCB for state, local, and tribal liaisons to understand its working
relationships, the assistance it provides, and its communication with local
offices. 11 We also distributed a questionnaire to 66 state and local liaison
officers across the United States to assess the level of cooperation and
satisfaction among the USNCB and its domestic partners.

      To evaluate the USNCB’s processes and controls over the exchange
and integration of information, we reviewed the USNCB’s policies and
procedures for maintaining data within its case management system, and we
performed various tests on domestic and foreign law enforcement agency
notices and diffusions. We also reviewed records from automated domestic
data systems to determine if INTERPOL information was included in the
databases in a timely manner and whether the information was accurate,
complete, and consistent.

      Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.

Results in Brief

      We identified several weaknesses in the USNCB’s operations that need
improvement. We found that the USNCB has not fully made critical
international criminal information, such as information regarding
international fugitives and habitual criminals, available to appropriate law
enforcement agencies in the United States. For example, the USNCB has
not provided domestic law enforcement agencies with information about
travel documents that have been reported lost or stolen. This has increased
the potential that high-risk, violent criminals can enter undetected and move
about freely in the United States.

      The USNCB also has not implemented adequate controls or processes
to ensure that the INTERPOL information it has made available to domestic

       10
            The BKA is the German national police force, which also serves as the NCB for
Germany.
       11
          To facilitate information sharing with law enforcement agencies, the USNCB has
established a liaison office in each state, as well as in American Samoa, Guam, the Northern
Mariana Islands, Puerto Rico, the U.S. Virgin Islands, and in 11 major cities in the United
States. For a list of the 66 state and local liaisons, please see Appendix V.

                                               v
law enforcement agencies is current, accurate, complete, and timely. For
example, when we examined the USNCB’s processing of 52 foreign-issued
notices and diffusions that met USNCB guidelines for entering a lookout
record into the FBI’s National Crime Information Center (NCIC), we found
that approximately 87 percent did not have a corresponding lookout record
in NCIC. 12 In addition, within 92 foreign-issued notices and diffusions we
reviewed, we identified 53 inconsistencies in the information contained in the
domestic system records. 13 Consequently, domestic law enforcement data
systems likely contain out-of-date or incomplete data and include
information on individuals for whom no law enforcement agency has a
current investigative interest.

       We also identified several weaknesses with the USNCB’s internal case
management system called ENVOY. When we reviewed a sample of
216 cases selected from notices and diffusions active from October 1, 2005,
through May 29, 2008, we found that the USNCB case files in ENVOY were
disorganized and inconsistently assembled, and we identified transposition
errors, missing data, duplicate entries, and improper classification. We also
found documents that were filed in the wrong case file and identified three
instances in which information pertaining to two unrelated individuals
appeared to have been erroneously combined into a single case file. 14 In
addition, we found poor record retention and disposal, including boxes of
non-archived paper case files located in the hallways of the USNCB,
inadequate management reporting and statistics, a lack of audit trails, and
inadequate standardized correspondence. As a result, without better
management of its case-related information, the USNCB cannot ensure that
accurate information is easily and readily available throughout the USNCB.
Additionally, if the USNCB does not properly control access to its
information, there is a risk of loss, as well as the possibility the privacy of
individuals on whom the information is maintained will be violated.

      According to INTERPOL, as of December 31, 2008, the United States
was the source of the highest number of active red notices among member
countries. However, we reviewed the public websites of the FBI, DEA, and
Immigration and Customs Enforcement (ICE), and found 14 of


       12
           The National Crime Information Center (NCIC) is a computerized index of criminal
justice information (i.e., fugitives, stolen properties, missing persons) maintained by the
FBI. NCIC is available to federal, state, local, and tribal law enforcement and other criminal
justice agency users and is operational 24 hours a day, 365 days a year.
       13
          Not all of the 92 records we reviewed contained inconsistencies. Some records
contained multiple inconsistencies.
       14
            For a detailed description of our methodology, see Appendix I.

                                              vi
32 international “most-wanted” fugitives on these sites for whom red notices
had not been issued. Information related to these types of cases should be
shared with appropriate foreign counterparts through the INTERPOL network
because this information can reach places where U.S. law enforcement
agencies do not have a physical presence and increase the likelihood that
fugitives are captured.

      We also found that the USNCB is not able to consistently coordinate
the sharing of case-related information because it is often not informed of
actions taken by its U.S. law enforcement partners on INTERPOL-related
cases. For example, we identified a February 2005 wanted person diffusion
issued by another country’s NCB for an individual wanted for homicide and
attempted homicide. When the other NCB inquired of the USNCB as to
reasons why the subject was allowed to remain free when the individual was
encountered, the USNCB was unaware that at least three U.S. federal law
enforcement agencies were simultaneously working the case.

       As a result of this inadequate communication and coordination, an
individual wanted for homicide and attempted homicide was allowed to
evade prosecution in another country. We believe better communication and
coordination between all of these agencies would have prevented this
subject from evading apprehension.

       In addition, the USNCB has faced challenges in maintaining reliable
communications with its state and local liaisons. Although the USNCB
believed that it had established secure electronic communications with these
liaisons, we found that several of these connections were not functional.
Specifically, when we distributed a questionnaire to each of the USNCB’s
66 liaison offices through the USNCB’s secure electronic connections, only
one-third of the offices responded. When we contacted the liaison offices by
telephone, we found that 25 of the 66 offices had not received the
questionnaire. Subsequently, we determined that some liaisons did not
receive the questionnaire because the e-mail messages addressed to them
were undeliverable or because there may have been a technical problem
with the network used to send the messages. Ultimately, we learned that
the USNCB had to send some of our questionnaires via facsimile.




                                     vii
       Despite its attempts to ensure that it has an adequate method to
communicate with its liaisons, we found that the USNCB does not have a
reliable and complete network of connectivity with its liaisons. The USNCB
must ensure that these connections are functioning adequately so that it has
the ability to communicate important information to its state and local liaison
offices.

      We also identified weaknesses in the oversight and supervision of the
USNCB by DOJ and DHS. We found that the USNCB Executive Committee,
which is composed of senior DOJ and DHS officials and is supposed to
provide guidance to the USNCB, has not met in more than 5 years. This lack
of oversight has prevented the USNCB from developing a comprehensive
strategic vision for moving the organization forward.

      In addition, we identified weaknesses in the leadership structure of the
USNCB, which is co-managed by DOJ and DHS through a Director and
Deputy Director who are rotated between the departments every 3 years.
This current rotational structure creates problems in compensation and
career advancement for USNCB leadership. Under the present format, the
Director is a term appointment at the Senior Executive Service (SES) level,
while the Deputy Director must be “SES-eligible.” As a result, the Deputy
Director must spend at least 3 years at the top of the General Schedule
(GS-15) level before being considered for the Director appointment at the
SES level. This causes the individuals to spend 6 years at two different
grades and salaries, only to revert back to the lower GS-15 level at the
completion of their service at the USNCB. In addition, this disparity in rank
between the USNCB Director and executives at other federal law
enforcement agencies may cause these other executives to perceive that the
USNCB is less important than an agency headed by a career SES employee.

      Our report contains detailed information on the full results of our
review of the USNCB. The remaining sections of this Executive Summary
summarize our audit findings.

Federal Agency Participation in INTERPOL

       The United States’ level of participation in INTERPOL depends on the
USNCB’s relationships with U.S. law enforcement agencies. We found,
however, that some federal law enforcement agencies do not fully
participate in INTERPOL’s red notice program for a variety of reasons.
Moreover, the USNCB is often not informed of actions taken by its federal
domestic law enforcement partners on INTERPOL-related cases, and as a
result the USNCB is hindered in its coordination with other member
countries.

                                      viii
Red Notice Program

       Not every federal law enforcement agency participates fully in
INTERPOL’s red notice program. When we reviewed public websites of the
DEA, the FBI, and ICE, we noted that 14 out of 32 international fugitives
listed on the agencies’ websites did not have INTERPOL red notices issued on
them. Information related to these types of cases should be shared with
appropriate foreign counterparts through the INTERPOL network because it
can allow U.S. law enforcement agencies to reach places where they do not
have a physical presence and increase the likelihood that fugitives are
captured.

      We talked to various officials about why no red notices had been
issued for these fugitives. The USNCB Director, who is also a DHS ICE
employee, attributed ICE’s failure to coordinate with the USNCB and obtain
INTERPOL red notices in these instances to insufficient numbers of
experienced personnel being detailed from DHS to the USNCB.

       We also spoke with the FBI Assistant Director for International
Operations, who stated that all 10 FBI most-wanted fugitives should have a
red notice and he did not know why they did not. He also stated that the
FBI has directed its agents to issue INTERPOL notices for all outstanding FBI
fugitives believed to be in a foreign country and that the FBI special agent in
charge of the case or the FBI representative at the USNCB should be
responsible for publishing the notice.

      When we spoke with the Assistant Director for the USNCB Drug
Division, a DEA employee, she said that she has been working to improve
the DEA’s participation in INTERPOL by conducting training sessions for DEA
agents. A DEA headquarters official told us, however, that the agency does
not issue INTERPOL notices because of the sensitivity of DEA drug cases and
concerns regarding security of case information. While we understand the
DEA’s desire to protect sensitive information, the information listed on the
DEA’s public website is accessible to anyone with an Internet connection and
therefore cannot be considered sensitive.

      The current process for issuing a red notice involves an extensive
paper-based application form that must be completed by the nominating law
enforcement agent. It is then assigned to and reviewed by a USNCB case
agent, reviewed by the USNCB General Counsel, and then submitted to
INTERPOL for a secondary review and publishing. The USNCB General
Counsel said that an on-line process for the submission of red notice
applications and diffusion requests might encourage U.S. law enforcement
agencies to increase their participation in the program. He also said that the

                                      ix
FBI has developed its own capability for submitting the applications
electronically. However, he stated that he doubted the USNCB has sufficient
current resources to develop such a capability.

      We agree that that an on-line procedure would streamline the process
and make it easier for domestic law enforcement agencies to seek the
issuance of red notices, and we believe that the USNCB should plan and
budget for this initiative.

Case Resolution Information

       We found that the USNCB’s ability to adequately coordinate the
sharing of case-related information is hindered because it is often not
informed of actions taken by its U.S. law enforcement partners on
INTERPOL-related cases. For example, officials at both the FBI and DEA said
their agents often deal directly with their foreign counterparts when they
need information about a case with an international nexus, bypassing the
USNCB. According to a USNCB official, this lack of communication with the
USNCB significantly impacts the USNCB’s ability to coordinate the exchange
of information and the United States’ response to inquiries from domestic
and foreign law enforcement agencies. Additionally, while this flow of
information directly between agencies may meet the immediate needs of the
agencies involved, the information passed remains “stovepiped” within these
agencies instead of being shared with other law enforcement entities that
also may have a need for it. Moreover, the USNCB is not informed about the
final outcome of INTERPOL investigations, and it thus cannot accurately
measure the impact of its efforts and compile meaningful management
statistics.

State and Local Law Enforcement Coordination

      As the U.S. point of contact for INTERPOL matters, the USNCB must
maintain a close relationship with domestic law enforcement agencies. To
promote relationships with domestic agencies, the USNCB established
66 state and local liaisons in each U.S. state and territory, as well as in
11 major U.S. cities, who serve as the point of contact for USNCB-related
interactions. The USNCB forwards to one or more of the liaisons foreign
government requests that require action by a state or local law enforcement
agency. The liaisons then forward the requests to the appropriate law
enforcement agency in their jurisdiction for processing and response.
Additionally, domestic law enforcement agencies that need criminal
investigative assistance on cases with an international nexus may forward a
request through the appropriate liaison or contact the USNCB directly.


                                     x
      The liaisons and the USNCB communicate using a secure e-mail
network. However, when we submitted a survey questionnaire to each of
these liaison offices through the secure e-mail network, we found that 25 of
the 66 offices had not received it. USNCB officials said they were surprised,
and after further inquiry determined that some of the e-mail messages were
undeliverable and there may have been a technical problem with the
network used to send the messages. Eventually, the USNCB had to send
some of our questionnaires to its liaisons via facsimile.

       Our concern is that the USNCB was unaware that its connection to its
liaisons was unreliable and it had not implemented easily activated controls
(such as e-mail receipt confirmations) to ensure that its messages were
received. We believe that the USNCB must ensure that these connections
are functioning adequately so that it can be certain that it can communicate
important information to its state and local liaisons.

       In short, we found that the USNCB has not developed, implemented,
or maintained a reliable communications network with its liaisons. This
deficiency means that critical law enforcement information or requests for
assistance are not being effectively disseminated. For example, the USNCB
could issue a diffusion to a liaison in a city police agency that a known
international fugitive is traveling to that city. But because of the unreliable
nature of the communication network, the police agency may not receive the
message, no action may be taken on the fugitive, and the USNCB would not
know that the message has not been received and no action has been taken.
Therefore, it is imperative that the USNCB ensure that its connections to
state and local liaison officers are functioning so that criminal and law
enforcement information gets conveyed to the appropriate agencies and
requests can be responded to in a timely manner.

INTERPOL Database Direct Connectivity

       At the beginning of our audit, the USNCB told us that it had made
significant progress in providing all state and local law enforcement agencies
with the ability to independently query INTERPOL databases through the
International Justice and Public Safety Information Sharing Network
(Nlets). 15 Specifically, the Assistant Director for the USNCB’s State and
Local Liaison Division stated that a majority of the 50 State Terminal Control
agencies had signed Memoranda of Understanding (MOU) that are required
by the USNCB for organizations to gain access to the INTERPOL databases.

       15
           Nlets State Terminal Control agencies are law enforcement agencies in each state
that are assigned the responsibility for managing access to the Nlets network and ensuring
that Nlets’s system security and operational policies and procedures are carried out within
the state.

                                            xi
Having this connection would provide these agencies with the ability to
query INTERPOL’s databases and obtain criminal justice-related information,
such as information on known and suspected international criminals, wanted
international fugitives, and stolen and lost travel documents. 16

      We found that although the USNCB had established an Internet
connection between INTERPOL and each state through Nlets, each state
must first make modifications to its local system before being able to access
INTERPOL databases. We determined that as of September 2008 only a
limited number of states had fully implemented the necessary modifications
to their systems. According to the USNCB Assistant Director for the State
and Local Liaison Division, some states were reluctant to make the
necessary modifications because of budget and other resource constraints.

       We also found that Nlets requires that state or local law enforcement
generate separate queries, in addition to a standard query to NCIC, to
access the INTERPOL databases. Standard queries made by law
enforcement officers to NCIC return information contained in NCIC’s files,
such as its wanted person and gang files. After law enforcement officers run
an NCIC query, unless they have additional information or a reason to
believe that an individual may be a person of interest to another country,
there is no way for them to know whether they should perform an additional
query of INTERPOL’s databases to obtain additional information. We believe
that requiring officers to perform multiple queries increases the risk that
information on these subjects does not reach frontline law enforcement
officers who encounter them.

       When we informed the USNCB of these findings, the USNCB Director
initiated discussions with the FBI to develop a method for state and local law
enforcement agencies to directly query the INTERPOL databases via NCIC.
The FBI and USNCB made an agreement in October 2008 to conduct a study
to determine if NCIC can provide a viable environment for delivering to state
and local law enforcement officers increased access to INTERPOL data,
including notice, stolen motor vehicle, and lost and stolen travel document
information. In April 2009, the USNCB reported that it was in the final
stages of testing the requisite infrastructure upgrades for the study and had
requested sample data from the FBI’s Criminal Justice Information Services
(CJIS) component to begin testing the process. 17 The USNCB anticipated
that it would begin this testing in May 2009.


       16
            A description of all 11 INTERPOL databases can be found on page 8 of the report.
       17
         Established in February 1992, the FBI’s Criminal Justice Information Services
(CJIS) component manages NCIC.

                                              xii
International Criminal Information Sharing Processes

       USNCB analysts review information received from foreign law
enforcement agencies and enter a “lookout record” in or provide appropriate
international criminal data from INTERPOL to domestic agencies or related
domestic systems, such as the FBI’s Foreign Fugitive File and Missing Person
File within its NCIC system, DHS’s Traveler Enforcement Compliance System
(TECS) and United States Visitor and Immigrant Status Indicator Technology
(US-VISIT) program, the U.S. Department of State’s (State Department)
Consular Lookout and Support System (CLASS), and the National
Counterterrorism Center’s (NCTC) Terrorist Identities Datamart Environment
(TIDE). 18 The information in these databases is regularly used in various
screening processes. For example, DHS Customs and Border Protection
(CBP) agents encounter individuals at various U.S. ports-of-entry and search
TECS to determine if a person can be granted access to the United States.
When an individual who appears to match the subject of an INTERPOL notice
or diffusion is identified, foreign or domestic law enforcement agencies
receive a return message through the agency database informing them of the
preliminary match and directing them to call the USNCB. Staff at the
USNCB’s 24-hour call center verify with the originating law enforcement
agency that the information is current, accurate, and reliable.

Information Not Shared with U.S. Agencies

      It is critical that international criminal information is appropriately and
timely disseminated to domestic law enforcement officers and to U.S.
government personnel deciding on the admissibility of individuals attempting
to cross a U.S. border. We found that although the USNCB has made some
INTERPOL information accessible to these law enforcement agencies, it has
not done so for all of the information that it receives.

        For example, the USNCB assists with border protection by entering or
facilitating the entry of foreign notices and diffusions into border screening
systems such as TECS and CLASS. However, the USNCB does not fully
share INTERPOL information with NCIC and therefore complete information
is not always available to domestic law enforcement personnel who might
encounter notice or diffusion subjects who have already entered the United
States. Specifically, we found that the USNCB does not enter a record into
NCIC for the subjects of foreign-issued green notices. These individuals
(including habitual criminal offenders, child molesters, and child
pornographers) are considered career criminals who have committed, or are

      18
         A description of each of the aforementioned data systems is contained in
Appendix VIII.

                                           xiii
likely to commit, offenses in several countries. We therefore believe that the
subjects of green notices should be entered into NCIC. If this is done,
although the individuals may be allowed to enter the country, if the
individuals commit criminal acts in the United States, law enforcement
officers investigating those acts will have more information as they attempt
to solve the crimes.

      According to the USNCB Compliance Officer, the USNCB has not
sought, nor has the FBI authorized, the USNCB to enter information into
NCIC files other than the Foreign Fugitive and Missing Person Files. Because
the career criminals identified in green notices are neither foreign fugitives
nor missing persons they are not entered into NCIC. USNCB officials stated
that they have not sought approval from the FBI to enter information into
other NCIC files, such as the Sexual Offender or the Violent Gang and
Terrorist Organization File. When we asked the USNCB Director about
entering the subjects of green notices into NCIC, he said that doing so would
be a good idea.

      We believe that the potential threat to the U.S. posed by individuals
who are the subject of foreign-issued green notices makes it essential that
information about them be shared with domestic law enforcement agencies.
We therefore recommend that the USNCB explore options to ensure that
information on the types of foreign criminals identified in green notices is
available to all law enforcement agencies.

       In addition, the USNCB stated that although it could enter lookout
records into NCIC for subjects of foreign-issued diffusions, it does not
because INTERPOL-member countries often do not update diffusion
information. While we recognize that some member countries do not ensure
that the information contained in its diffusions remains accurate and current,
the USNCB maintains a 24-hours per day, 7 days per week call center that
the USNCB directs domestic law enforcement agencies to contact before
taking any law enforcement action based upon INTERPOL information. The
call center verifies with the originating law enforcement agency that the
information is current, accurate, and reliable. With the existence of the call
center and given the risk inherent with allowing dangerous criminals to enter
or remain in the country, we believe that the USNCB should explore options
for including foreign diffusions in NCIC.

      We also found that the USNCB has not pursued including in NCIC
important information contained in the INTERPOL Stolen and Lost Travel
Documents database (SLTD), such as lost or stolen passports. According to
the USNCB, INTERPOL rules do not allow for the downloading of SLTD data
into national databases because this would impede INTERPOL member

                                     xiv
countries’ ability to automatically update the data and receive automatically
generated notifications when their records are viewed. Notwithstanding this
requirement, we believe it is important that the USNCB develop an
acceptable method to provide domestic law enforcement agencies with
access to the information in the SLTD because inadmissible aliens may enter
the United States using a stolen or lost passport from a visa waiver
country. 19

       In short, in our judgment the USNCB does not ensure that certain
critical information from INTERPOL is made available to frontline U.S.
screening agencies. By not entering important information into available
databases or sharing it with other law enforcement agencies, the United
States misses opportunities to capture foreign career criminals or prevent
them from entering the country.

Data Quality Deficiencies

      To examine the USNCB’s sharing of INTERPOL information with
domestic law enforcement agencies, we judgmentally selected 216 foreign
and domestic notices and diffusions that were active between October 1,
2005, and May 29, 2008. 20 Our examination showed that the USNCB has
not implemented adequate controls or processes to ensure INTERPOL
information is being made available to U.S. agency systems in an accurate,
current, and timely manner. In addition, we found that the U.S. agency
systems likely contain out-of-date or incomplete data, include information in
which law enforcement agencies have no current interest, and may include
information that violates INTERPOL’s guidelines for handling information.
These guidelines establish record-purging requirements and take into
consideration member countries’ privacy laws to help ensure that data is not
improperly retained or utilized.

       We found that the USNCB did not enter eligible foreign notices and
diffusions into U.S. databases, as required by USNCB guidelines. Specifically,
we examined the USNCB’s processing of 115 foreign-issued notices and
diffusions and found that 92 met the criteria for entry of a lookout into TECS.
However, we found that 21 of the 92 cases, or approximately 23 percent, did

       19
          The Visa Waiver Program was created to facilitate international travel and is a
substitute entry mechanism for non-immigrant, short-term business and tourism visas only;
it does not apply to students, temporary workers, and others who require visas to enter the
United States.
       20
          Our sample consisted of 42 domestic notices, 59 domestic diffusions, 62 foreign
notices, and 53 foreign diffusions. The complete methodology of our analysis can be found
in Appendix I.

                                            xv
not have a lookout record entered in TECS. In addition, although 52 of the
115 cases met the criteria for entry into NCIC, our analysis revealed that
45 of the 52 cases, or approximately 87 percent, did not have a lookout
record entered in NCIC.

       USNCB officials were unable to provide an explanation for the
21 records missing from TECS. However, for the 45 records missing from
NCIC, the officials said the USNCB was erroneously applying a restrictive set
of criteria for including the records in NCIC. They believed that the subject’s
height, weight, and hair color were required for entry, but the FBI does not
require the USNCB to enter these fields if either the subject’s photograph or
fingerprints are available.

       We also assessed whether the USNCB entered records into these
systems in a timely manner. According to USNCB internal policies, if a
foreign notice or diffusion contains sufficient information and meets the
criteria for entry into TECS and NCIC, USNCB analysts are required to enter
a lookout record immediately upon receipt of the foreign communication.
We found that of 71 lookout records entered into TECS by the USNCB that
we reviewed, only 31 percent were entered within 1 day, while more than
40 percent were entered more than 30 days after initial receipt. USNCB
officials attributed these delays to an increasing workload, limited resources,
and the necessity of translating some INTERPOL documents into English.

      Using our sample of 92 foreign-issued notices and diffusions that met
the criteria for entry in TECS or NCIC, we examined the corresponding
domestic system records to determine if the USNCB entered basic
information such as name, date of birth, gender, passport number and
country, warrant information, additional identification numbers, and physical
characteristics in the databases. We compared the information contained in
the foreign-issued notice or diffusion to data entered by the USNCB into
TECS, NCIC, or ENVOY. Out of 92 records we reviewed, we identified
53 inconsistencies in the information contained in the domestic system
records. 21 When we discussed our findings with USNCB officials, they were
unable to provide an explanation for the inconsistencies. Additionally,
although USNCB internal case management policies require supervisory
review within 48 hours of entry, we found that most case files had no
evidence of any supervisory review.




      21
          Not all of the 92 records we reviewed contained inconsistencies. Some records
contained multiple inconsistencies.

                                           xvi
Inadequate Message Handling

      During our discussions with USNCB officials regarding the deficiencies
in the USNCB’s handling of INTERPOL data, the officials attributed many of
the problems and delays to the need to translate documents, increasing
workload, and limited personnel and financial resources. However, during
our review of the USNCB’s procedures, we noted that many of the problems
were attributable to the USNCB’s manual data entry processes, which were
overly labor-intensive, time-consuming, and prone to errors, transpositions,
and omissions.

      The notices and diffusions that the USNCB receives from INTERPOL
and other member countries generally consist of electronic messages with
attached documents. To share this information electronically with domestic
law enforcement agencies, USNCB analysts manually copy or enter the data
from the message or document – field-by-field – and paste it in the
appropriate databases. Conversely, when sending a notice or diffusion to
INTERPOL or other member countries, the USNCB must first extract the
electronic data from its databases and then convert the information into an
electronic message or document.

       When we discussed this issue with INTERPOL officials in Lyon, France,
they acknowledged that this manual process was inefficient. INTERPOL
officials indicated that they had experienced problems similar to those at the
USNCB, including issues related to notice and diffusion translation, workload,
and limited resources. INTERPOL officials also told us that to address these
issues, they had developed an international standard for the transmission of
law enforcement information and implemented a new software messaging
application that will completely automate the notice and diffusion process.
Officials said this new system, called I-Link, should eliminate the manual
entry and manipulation of data by both INTERPOL and USNCB analysts.

      During our audit, I-Link was launched on January 19, 2009, and
underwent a 2-month trial during which the USNCB tested the red notice
form application. Although a few of the NCBs are using I-Link, the USNCB
stated that as of May 2009 most of the NCBs were still testing the I-Link
system.

      However, during the testing period the USNCB found that the program
was not easy to use and it identified several legal issues related to the
wording of the notices. In addition, the USNCB identified significant
problems with data integrity and accuracy. The USNCB stated that it has
reported these issues to the INTERPOL I-Link project manager. The USNCB
continues to attend the I-Link advisory group meetings and is working with

                                     xvii
INTERPOL to attempt to resolve the issues. However, the USNCB did not
provide an estimated date that it would fully implement the I-Link system.

Deficient Internal Case Management System

       ENVOY is the computer database that the USNCB uses to maintain and
organize all documentation – including notices and diffusions – related to
assistance or information requests from international law enforcement
agencies. ENVOY is intended to provide the USNCB with records
management, workflow management, automated workflow processes, and
records search and reporting capabilities. However, according to the USNCB
Chief Information Officer (CIO), the USNCB experienced significant
operational issues with the initial version of ENVOY, including system
instability, a lack of software documentation, and limited reporting
capability. 22 Although some of its issues have been resolved, ENVOY still
lacks reporting capability, and the USNCB has significant problems tracking
basic workload statistics, including the number of active notices and
diffusions. The USNCB CIO also stated that because of a lack of funding, the
USNCB has adopted a phased approach and has made incremental
improvements to ENVOY.

       During our review of ENVOY, we found three areas needing attention:

   •   Record Retention and Disposal. USNCB policy requires that
       records be retained on-site for 2 years after a case closing. After
       2 years, the records are to be archived and stored at an off-site
       facility. If there is no case activity within 5 years after transfer to an
       off-site facility, the documents can be destroyed. However, we found
       that records not transferred off-site after 2 years and boxes of paper
       case files were still being held at the USNCB. Additionally, the USNCB
       Compliance Officer told us that none of the electronic case files in
       ENVOY have ever been archived. Because the USNCB does not archive
       or restrict access to outdated information in its case management
       system, it has not ensured that the obsolete data is not accessed by
       USNCB analysts and agents. Therefore, personal data on individuals
       for whom there is no active law enforcement investigative interest may
       still be accessed, contrary to INTERPOL policies.

   •   Management Reporting and Statistics. The USNCB needs a case
       management system that can compile basic workload statistics, such
       as the number of cases opened for notices and diffusions. However,

       22
       ENVOY was initially implemented in 1999 to replace the USNCB’s previous case
management system, the INTERPOL Case Tracking System.

                                        xviii
      ENVOY cannot track the number of notices and diffusions opened or
      the time elapsed between key events in its case processing, such as
      when the USNCB receives a notice or diffusion, when the case is
      opened, and when lookout records are entered in U.S. agency
      databases. This deficiency hampers the USNCB’s ability to accurately
      measure its performance, determine resource needs, and set
      benchmarks for improvement. The USNCB CIO said there is no way to
      track this information because ENVOY has limited reporting
      capabilities. As a result, the USNCB has developed workaround
      processes to generate and compile its management statistics.
      However, we found that these ad-hoc processes are often inaccurate
      and unreliable.

  •   Audit Trails and Standardized Correspondence. During our
      review of ENVOY, we noted that the system does not maintain
      information on historical transactions within the database. As a result,
      the USNCB is unable to determine what actions were performed by
      which analyst or supervisor. Without knowing who created or modified
      a record, there is no way to go back and determine why a particular
      action was taken (or not taken) or a modification was made to a
      record. Additionally, the USNCB would be unable to identify an
      individual who made repeated mistakes and provide them training.
      The USNCB has designed standardized templates for its analysts to
      use when preparing routine correspondence and the electronic process
      saves a copy of the correspondence to the case file. However, several
      analysts stated that they do not use the electronic processes and have
      developed their own templates for routine correspondence. As a
      result, the diffusions generated by some of the USNCB analysts may
      not contain the information necessary to conduct an investigation, as
      well as not comply with statutes of the INTERPOL Constitution, U.S.
      laws, and the provisions of the Freedom of Information and Privacy
      Acts. We also noted that the electronic process frequently created
      multiple copies of the same USNCB-prepared correspondence, all of
      which were saved in the case file. Saving multiple copies of the same
      or similar documents to the case file can result in delayed
      investigations while analysts attempt to determine which version of
      the document contains the most accurate and current information.
      Further, the process also overstates the number of diffusions
      generated and therefore overstates the USNCB’s reporting of the total
      number of diffusions processed in a given period.

     Although the USNCB hoped to deploy a new case management system
by December 2008, the CIO informed us that as of January 2009 the new
case management system had been delayed because of other information

                                     xix
technology priorities. In April 2009 the USNCB stated that it had resolved
several technical difficulties that were encountered during development, and
after hiring an additional developer to help expedite the delivery schedule,
officials said they anticipate that the upgrade will be completed by mid to
late August 2009.

New Quality Assurance Program

        In February 2008 the USNCB implemented a new quality assurance
program that we believe is an important first step to enhancing the accuracy
of its information. The new program requires a more thorough review of
cases and more documentation of the reviews completed. It also requires
more involvement in the review process by division supervisors and assistant
directors. The inaccuracies that we identified in the USNCB’s case files
underscore the need for these additional reviews to ensure that the
information provided by the USNCB is reliable.

Department’s Lack of Support and Oversight

     The May 2003 MOU, which gave DOJ and DHS joint responsibility for
managing the USNCB, also established an Executive Committee for
overseeing the USNCB consisting of the Deputy Attorney General, Deputy
Secretary of DHS, and the USNCB Director. The Executive Committee was
to meet semi-annually and make all USNCB policy and personnel decisions,
except those delegated to the Director.

      However, according to an Office of the Deputy Attorney General
(ODAG) official responsible for USNCB matters, the Executive Committee has
not met for at least 5 years. As a result, we believe that the USNCB has not
received sufficient guidance and oversight to ensure that it effectively
discharges it responsibilities. We identified four areas that we believe need
DOJ and DHS oversight.

Leadership

      The USNCB is co-managed by DOJ and the DHS through a Director and
Deputy Director who are rotated between the departments every 3 years.
This current rotational structure creates problems in compensation and
career advancement for USNCB leadership. Under the present format, the
Director is a term appointment at the Senior Executive Service (SES) level,
while the Deputy Director must be “SES-eligible.” As a result, the Deputy
Director must spend at least 3 years at the top of the General Schedule
(GS-15) level before being considered for the Director appointment at the
SES level. This causes the individuals to spend 6 years at two different

                                     xx
grades and salaries, only to revert back to the lower GS-15 level at the
completion of their service at the USNCB. In addition, we were told that this
disparity in rank between the USNCB Director and executives at other
federal law enforcement agencies may cause executives in other agencies to
perceive that the USNCB is less important than an agency headed by a
career SES employee. The structure may also affect those candidates who
apply for the position. For example, the FBI official who was a
representative to the INTERPOL Executive Committee said the leadership
structure of the USNCB makes FBI employees reluctant to apply for the
Director’s position.

Strategic Planning and Alignment with DOJ Priorities

       The USNCB has a strategic plan that covers fiscal years (FY) 2005
through 2010. However, although we found that the USNCB strategic plan
includes some of the essential components of a standard strategic plan, such
as strategic objectives, the plan lacks a comprehensive vision or a strategic
direction for the USNCB.

      In addition, the USNCB’s current strategic plan does not clearly link to
DOJ’s overall strategic priorities. The USNCB’s present functions most
closely align with DOJ’s Strategic Goal II to “prevent crime, enforce the
federal laws, and represent the rights and interests of the American people.”
However, because transnational crime has been linked increasingly with
terrorism and INTERPOL has expanded its role in sharing terrorism-related
information, we believe the USNCB strategic plan should also address the
relevant aspects of DOJ’s Strategic Goal I to “prevent terrorism and promote
the nation’s security.”

       We believe the USNCB needs a comprehensive vision or a strategic
direction that takes into account an expanding mission in sharing
transnational criminal information and the increased importance of sharing
terrorism-related information, as well as changes in technology and the
global uses of information.

      Senior USNCB officials agreed with the need for a more comprehensive
strategic plan, but stated that they lack sufficient resources to develop it.
However, we believe a formal strategic plan that addresses organizational
and resource planning, management, and performance measurement is an
important step that the USNCB should pursue.




                                     xxi
Information Technology

       The USNCB has struggled to adequately plan for information
technology (IT) development. According to a 2004 Justice Management
Division report, the USNCB’s budget requests for FYs 2000 through 2004
failed to “make the case for how its IT enhancement request supported its
own or DOJ’s program goals.” 23

      We believe that the USNCB needs to anticipate its future IT needs by
developing a formal, written requirements documents that addresses current
and future IT needs.

Funding and Staffing

      In FY 2009, the USNCB’s overall budget was approximately
$24.5 million, of which $8.2 million went to pay the United States’
membership dues to INTERPOL. However, we found that several factors
have impacted the USNCB’s operational budget and the USNCB’s ability to
perform critical functions.

       Specifically, as a result of a change in the formula used by INTERPOL
to calculate each member country’s dues, the U.S. commitment for
INTERPOL dues (as a percentage of its overall budget) increased from
$1.7 million in FY 2001 to $8.2 million in FY 2009. 24 In addition, INTERPOL
requires that member countries pay their dues in euros. Since 2002, the
dollar has generally declined in value relative to the euro, resulting in an
effective increase in the United States’ contribution to INTERPOL. As a result
of the INTERPOL dues increases, the conversion from dollars to euros, and
the decline in value between the dollar and euro, the USNCB’s budget for
operations, as a percentage of its total budget, has declined from 77 percent
in FY 2001 to 67 percent in FY 2009.

       The decline in its operational budget has resulted in the USNCB
becoming more dependent on staff with specialized skills detailed from
participating domestic agencies to assist with USNCB operations. However,

       23
          U.S. Department of Justice, Justice Management Division, Management Review of
INTERPOL – USNCB August 2004 – Draft, (2004) 12. Although labeled as a draft report,
according to an official at the Justice Management Division, this is the final report.
       24
          INTERPOL’s operations are primarily financed by member-country annual
statutory contributions. To assess each member country’s dues contribution, INTERPOL
uses a formula based on each country’s economic well being. This formula was
renegotiated in the late 1990s and incorporated a gradual increase in the percentage share
paid by the wealthiest nations. The U.S. share of the annual INTERPOL budget increased
from 5 percent in FY 2002 to 13.26 percent in FY 2006.

                                           xxii
we found that the participating agencies do not provide detailees on a
consistent basis and that number of staff and length of assignment vary
widely. In addition, according to the USNCB Director, these agencies have not
entered into agreements with the USNCB regarding staffing commitments. As
a result, the USNCB is unable to ensure that it has a sufficient number of
skilled staff to accomplish its mission. The USNCB Director said he believes
that these federal agencies are reluctant to sign agreements because they are
also facing budgetary restrictions and want to retain the flexibility to recall
staff back to their agencies as needed. USNCB officials told us that they are
working to establish formal agreements with federal law enforcement agencies
regarding staff commitments and length of assignments.

Conclusion and Recommendations

      We found weaknesses in how the USNCB shares INTERPOL information
with U.S. law enforcement agencies, and we determined that the USNCB has
not implemented procedures to ensure that the INTERPOL information it
makes available to domestic law enforcement agencies is current, accurate,
and timely. In addition, we identified a lack of participation in INTERPOL
from some U.S. federal law enforcement agencies.

      We also identified significant operational deficiencies in the USNCB’s
internal case management system, ENVOY, including problems with record
retention and disposal, management reporting and statistics, and
maintaining audit trails.

     In addition, senior DOJ and DHS officials have not provided sufficient
guidance and support to the USNCB. This has led to a lack of vision for the
USNCB’s role and mission. We believe that the USNCB needs such oversight
and guidance to develop comprehensive strategic and IT plans.

     Our audit work and findings resulted in 4 recommendations to the
Department and 23 recommendations to the USNCB to assist the USNCB in
improving its planning and operations, and to maximize the sharing of
INTERPOL information among U.S. law enforcement agencies.




                                     xxiii
This page intentionally left blank.
                      THE UNITED STATES NATIONAL
                      CENTRAL BUREAU OF INTERPOL

                                TABLE OF CONTENTS

INTRODUCTION              ............................................................................. 1

  INTERPOL – United States National Central Bureau ................................ 3
  International Criminal Information Data Flow and Data Uses ................... 6
  Overview of Notices and Diffusions ...................................................... 9
  Prior Reviews .................................................................................. 13
  Audit Approach ................................................................................ 14

FINDINGS AND RECOMMENDATIONS.............................................. 16

I. FEDERAL, STATE, AND LOCAL LAW ENFORCEMENT COOPERATION
               AND PARTICIPATION ........................................... 16

  Federal Law Enforcement Agency Participation .................................... 16
  State and Local Law Enforcement Coordination .................................... 24
  Conclusion ...................................................................................... 31
  Recommendations ........................................................................... 32

II. EXCHANGE OF INTERPOL INFORMATION ................................... 34

  Overview of the USNCB’s Information Sharing Processes ...................... 34
  Information Not Shared with U.S. Law Enforcement Agencies ................ 36
  USNCB Processing of INTERPOL Information ....................................... 45
  INTERPOL Rules for Processing Information ........................................ 53
  INTERPOL Enhancements to Information Exchange Efforts .................... 54
  USNCB Quality Assurance Efforts ....................................................... 57
  Conclusion ...................................................................................... 59
  Recommendations ........................................................................... 60

III. CONTROLS OVER USNCB CASE INFORMATION ......................... 62

  USNCB Internal Case Management .................................................... 62
  Records Management ....................................................................... 66
  New Electronic Case Management System .......................................... 71
  Conclusion ...................................................................................... 72
  Recommendations ........................................................................... 73
IV. USNCB MISSION AND PRIORITIES ............................................ 74

  Strategic Needs of the USNCB ........................................................... 74
  Conclusion ...................................................................................... 83
  Recommendations ........................................................................... 83

APPENDIX I - AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY .... 85

APPENDIX II - STATEMENT ON COMPLIANCE WITH LAWS AND
               REGULATIONS ...................................................... 93

APPENDIX III - STATEMENT ON INTERNAL CONTROLS................... 94

APPENDIX IV - INTERPOL MEMBER COUNTRIES ............................. 95

APPENDIX V - USNCB STATE & LOCAL LIAISONS ............................ 98

APPENDIX VI - USNCB QUESTIONNAIRE AND RESPONSES ........... 100

APPENDIX VII - INTERPOL NOTICES ............................................ 111

APPENDIX VIII - DATABASES USED IN DOMESTIC INTERNATIONAL
               CRIMINAL INFORMATION SHARING ................... 115

APPENDIX IX - UNITED STATES NATIONAL CENTRAL BUREAU
               RESPONSE .......................................................... 117

APPENDIX X - DEPARTMENT OF JUSTICE RESPONSE .................... 129

APPENDIX XI - OFFICE OF THE INSPECTOR GENERAL
               ANALYSIS AND ACTIONS NECESSARY
               TO CLOSE THE REPORT ....................................... 132
                                    INTRODUCTION

      The International Criminal Police Organization (INTERPOL) is a
worldwide network that facilitates the exchange of information to assist law
enforcement agencies to detect and deter international crime and
terrorism. 25 As of May 2009, 187 countries participated in INTERPOL.

Overview of INTERPOL

       Established in 1923 and currently located in Lyon, France, INTERPOL is
an international police organization that seeks to facilitate cross-border
police cooperation and support and to assist all organizations whose mission
is to prevent or combat international crime. INTERPOL provides secure
global police communication services, operational police support services,
and police training and development.

      INTERPOL is funded primarily by member country annual statutory
contributions. To assess each member countries’ dues contribution,
INTERPOL uses a formula based on the countries’ economic well being. This
formula was renegotiated in the late 1990s and incorporated a gradual
increase in the percentage share paid by the wealthiest nations. The United
States’ share of the annual INTERPOL budget increased from 5 percent to
13.26 percent over 4 years, reaching the full negotiated dues contribution
rate of 13.26 percent in Fiscal Year (FY) 2006. In 2009 INTERPOL’s total
statutory budget was approximately $64.1 million and the United States’
contribution to INTERPOL was $8.2 million.

       In FY 2008, INTERPOL had a staff of 588, representing 84 countries.
In addition to 398 contract employees, INTERPOL also had 190 seconded
staff from member countries. 26 As of May 2009, the United States had
seven individuals detailed to the INTERPOL General Secretariat.

     INTERPOL is governed by its General Assembly, which consists of
delegates appointed by member countries. The General Assembly meets

       25
           Article 3 of the INTERPOL constitution prohibits member countries from
intervening in or investigating matters considered to be racial, military, political, or religious
in nature. Until 1984, INTERPOL interpreted this article as excluding most acts of terrorism
from its jurisdiction. At its 1984 general assembly meeting, the INTERPOL membership
categorized international terrorist acts as law enforcement matters not covered by Article 3.
This allowed INTERPOL member countries to exchange information and provide assistance
to combat terrorism.
       26
          Seconded staff are individuals who are temporarily assigned to INTERPOL by their
national administrations and compensated by their national administrations or by
INTERPOL.
once a year to make all major decisions affecting general policy. 27 The
Executive Committee oversees the execution of the decisions of the General
Assembly, as well as the work of the Secretary General. 28 The Secretary
General is responsible for overseeing INTERPOL’s day-to-day work of
international police cooperation. 29 INTERPOL has seven sub-regional
bureaus, which are located in Abidjan, Côte d'Ivoire (West Africa); Buenos
Aires, Argentina (South America); Harare, Zimbabwe (Southern Africa);
Nairobi, Kenya (East Africa); San Salvador, El Salvador (Central America);
and Yaoundé, Cameroon. In addition, there are liaison offices in Bangkok,
Thailand, the World Health Organization, Europol, and the United Nations in
New York. 30

      Each member country of INTERPOL establishes a National Central
Bureau (NCB) to serve as its liaison between the member country's law
enforcement agencies and INTERPOL. NCB’s transmit, respond to, and
execute requests for information and assistance in criminal investigations
and police matters to and from other countries’ NCBs via the INTERPOL
communications network. “Advisers” are experts in a purely advisory
capacity, who may be appointed by the Executive Committee and confirmed
by the General Assembly. An overview of INTERPOL’s organizational
structure is found in Exhibit 1-1.




       27
            Each country has one vote.
       28
           The INTERPOL Executive Committee has 13 members elected by the General
Assembly. Currently, a senior Federal Bureau of Investigation (FBI) official – although
retired from the FBI – serves as the representative to the Executive Committee for the
Americas. This position expires in October 2009, and elections to fill this position will be
held by INTERPOL at the next meeting of the General Assembly.
       29
           The Secretary General is nominated by the Executive Committee, approved by
the General Assembly, and serves a 5-year term. Ronald K. Noble, the current Secretary
General, was initially elected in 2000 and currently is serving a second term. Secretary
Noble is a national of the United States and served as a former Undersecretary for
Enforcement with the U.S. Department of Treasury.

       30
          The World Health Organization is the directing and coordinating authority for
health matters within the United Nations system. The European Police Office (Europol) was
set up to help the law enforcement services of the European Union (EU) combat serious
organized crime that affects two or more EU countries.


                                             -2-
                              EXHIBIT 1-1
                     INTERPOL Organizational Structure




Source: INTERPOL

United States National Central Bureau of INTERPOL

        The United States National Central Bureau (USNCB) is the entity
through which the United States functions as a member of INTERPOL.
Located in Washington, D.C., the USNCB is co-managed by DOJ and the
Department of Homeland Security (DHS). 31 The USNCB’s mission is to
facilitate international law enforcement cooperation by acting as the U.S.
representative to INTERPOL. The USNCB receives and disseminates law
enforcement-related information between other INTERPOL NCBs and U.S.
law enforcement agencies, responds to requests for information or
assistance by law enforcement agencies and other entities that coordinate
with INTERPOL, and coordinates information for investigations of an
international nature.

       The responsibility for management of the USNCB has varied since the
USNCB became operational in 1968. It initially was placed under the
direction of the Department of the Treasury (Treasury). In 1977, the
Department of Justice (DOJ) and Treasury signed a Memorandum of
Understanding (MOU) that established joint DOJ and Treasury management
of the USNCB. In 1981, an amendment to the MOU placed the USNCB
within DOJ, reporting to the Deputy Attorney General, but still under the co-

      31
          In 1938, Congress designated the FBI as the official U.S. representative to
INTERPOL. During World War II, INTERPOL’s activities were disrupted. The United States
rejoined the organization and became an official member in 1947. The USNCB was created
in 1968 under the direction of the U.S. Department of the Treasury (Treasury). In 1977,
Treasury and the U.S. Department of Justice (DOJ) signed a Memorandum of Understanding
(MOU) to establish joint management of the USNCB. A subsequent amendment to the MOU
signed in 1981 placed the USNCB within DOJ, reporting to the Deputy Attorney General,
under the co-management of Treasury and DOJ. Following the creation of DHS, DOJ and
DHS signed an MOU in May 2003 that established the USNCB as a separate component of
DOJ under the supervision of the Deputy Attorney General. DOJ is responsible for the
administrative costs of operating the USNCB.


                                         -3-
management of Treasury and DOJ. A May 2003 MOU transferred
responsibility for the management of the USNCB to DOJ and the Department
of Homeland Security (DHS). 32

Budget and Staffing

     The USNCB’s FY 2009 budget is approximately $24.5 million.
Approximately one third of the USNCB’s total budget goes to pay INTERPOL
dues. For 2009, the U.S. commitment for INTERPOL dues was almost
$8.2 million.

      The USNCB has an authorized staffing level of 65 permanent, full-time
equivalent positions. The USNCB is also heavily dependent upon staff
detailed from participating agencies. The detailees serve as their home
agencies’ liaisons and provide valuable agency-specific expertise. As of
December 2008, the USNCB staff was supplemented by 24 detailed
employees from other federal agencies, including DOJ’s United States
Marshals Service (USMS) and DHS’s Immigration and Customs Enforcement
(ICE), as well as one local agency. 33

Organizational Structure

     The USNCB is co-managed by DOJ and DHS, with two senior
management positions – the Director and Deputy Director – rotating
between DOJ and DHS every 3 years. 34 As a result, the USNCB Director
must be from a different department than his or her predecessor and the
Deputy Director. For example, if the Director is from a DOJ agency, then the
Deputy Director must be from a DHS agency.

       As shown in Exhibit 1-2, the USNCB is divided into five operational
divisions and a command center, which are responsible for handling
domestic and foreign requests for assistance. These requests generally
involve the location and arrest of known fugitives and criminals, criminal
record checks on subjects of interest to law enforcement and applicants for
various types of licenses and employment that involve a public security or

       32
          DOJ is responsible for the administrative costs of operating the USNCB, with the
exception of costs associated with detailed employees and their travel.

       33
         As of December 2008, the White Plains, New York, Police Department had one
person detailed to the USNCB. It was the only non-federal agency with a USNCB detailee.
       34
          The Director and Deputy Director serve a term of at least 2 years, but not more
than 3 years. The current Director is a Supervisory Special Agent with DHS’s
U.S. Immigration and Customs Enforcement, and the Deputy Director is a Chief Inspector
with DOJ’s U.S. Marshals Service.


                                           -4-
safety nexus, as well as requests to obtain evidence or conduct interviews
for judicial and law enforcement purposes.

                                   EXHIBIT 1-2
                           USNCB Organizational Structure




                                                Director


                         General                                  Executive
                         Counsel                                   Officer
                                                Deputy
                                                Director




   Economic                                                                              INTERPOL
                                   Terrorism and                   State and Local
                  Alien/Fugitive                           Drug                       Operations and
    Crimes                         Violent Crimes                      Liaison       C ommand C enter

Source: USNCB



      The Economic Crimes, Alien/Fugitive, Terrorism and Violent Crimes,
and Drug divisions focus on specific crime areas and are staffed primarily by
USNCB analysts and law enforcement agents with subject matter expertise
temporarily detailed to the USNCB from DOJ, DHS, and other federal, state,
and local agencies.

      The State and Local Liaison Division performs coordination and
outreach to state and local law enforcement agencies and oversees the
INTERPOL State and Local Police Liaison Program, which consists of an
INTERPOL liaison office in each state, U.S. territory, and an increasing
number of major cities in the United States. 35 The Division conducts training
for U.S. state and local officials on international investigative assistance and
new developments in international law enforcement.

      The USNCB’s INTERPOL Operations and Command Center (IOCC)
coordinates the receipt and dissemination of correspondence from foreign
NCBs, the INTERPOL General Secretariat, and domestic law enforcement
agencies. The IOCC operates 24 hours a day, 7 days a week.


      35
           See Appendix V for a complete list of the USNCB state and local liaison offices.


                                                -5-
International Criminal Information Data Flow and Data Uses

      INTERPOL has developed a secure, Internet-based, virtual private
network known as I-24/7 that serves as the conduit for INTERPOL-related
communications. Through I-24/7, INTERPOL provides its 187 member
countries with direct access to a wide range of criminal information
contained in a variety of databases managed by INTERPOL. The information
in the databases comes from queries, messages, intelligence, and
submissions from law enforcement officials in member countries. Member
countries also use I-24/7 to request assistance with locating wanted,
missing, or lost individuals.

      As shown in Exhibit 1-3, INTERPOL’s data flow is a two-way process.
Data flows from domestic law enforcement agencies to international partners
and from international partners to domestic law enforcement agencies.

                               EXHIBIT 1-3
               Overview of the INTERPOL Data Flow Process

              U.S.
              Law
          Enforcement
            Agencies


            Federal                                              Foreign Law
                                                                 Enforcement
                             U.S.                      Other       Agencies
                           National                   National
                                        INTERPOL
                           Central                    Central
                           Bureau                     Bureaus
             State




             Local




             Tribal




Source: OIG depiction of information obtained from the USNCB

       According to INTERPOL, member countries use INTERPOL’s databases
to share international criminal- and terrorism-related information for use in
investigations and to request assistance in locating fugitives, witnesses, and
missing or lost persons, including parental abduction cases and missing
children. In addition, member countries use INTERPOL databases to collect
additional information about a person’s identity or activities in relation to a
crime or to provide information on career criminals who have committed, or
are likely to commit, offenses in several countries, such as child molesters.


                                         -6-
Finally, the databases assist member countries to identify dead bodies, and
recover lost and stolen property, such as vehicles and art.

     Exhibit 1-4 contains summary descriptions for each of the INTERPOL
databases.




                                    -7-
                                EXHIBIT 1-4
                    INTERPOL Databases as of February 2009
    Database                                      Description
                       Information about known international criminals, missing
Nominal data           persons, and unidentified bodies; includes criminal history,
                       photographs, and fingerprints.
                       INTERPOL uses a system of notices to alert police to fugitives,
Notices                suspected terrorists, dangerous criminals, missing persons or
                       weapons threats.
                       The SLTD database contains information on more than
Stolen and Lost
                       16.7 million travel documents reported lost or stolen by
Travel Documents
                       145 countries and is used to determine the validity of a suspect
(SLTD)
                       travel document.
Stolen Motor           This system contains identification details on approximately
Vehicles               4.7 million vehicles reported stolen around the world.
                       This system contains 83,000 DNA profiles from 48 countries,
                       that can be used to make person-to-person, person-to-scene,
                       or scene-to-scene matches with no previous connections, or
DNA Profiles           help identify missing persons and unidentified bodies. To
                       preserve privacy, the records do not contain nominal
                       information such as names, and member countries control their
                       own data.
                       INTERPOL’s automated fingerprint identification database
Fingerprints
                       contains 86,000 fingerprints and 1,800 crime scene marks.

                       This database includes information on more than 33,000 pieces
Stolen Works of Art
                       of artwork and cultural heritage reported stolen worldwide.
INTERPOL Child
                       The ICAID system contains more than 550,000 child abuse
Abuse Image
                       images submitted by member countries. 36
Database (ICAID)
                       Created in September 2002, this database contains information
Fusion Task Force      about over 13,000 known or suspected terrorists from
                       120 countries. Approximately 120 countries contribute.
Stolen                 This database contains information on almost 190,000 official
Administrative         documents that identify objects, such as vehicle registration
Documents              documents and clearance certificates for import or export.
                       Implemented in 2000, this database contains images of
Counterfeit Payment    counterfeit payment cards and corresponding data. Seized
Cards                  cards are categorized and form a standard reference library
                       against which suspect cards can be checked.
Source: INTERPOL

       36
         The INTERPOL Child Abuse Image Database information is strictly controlled by
INTERPOL and may only be accessed by law enforcement personnel once permission is
granted by INTERPOL.


                                         -8-
Overview of Notices and Diffusions 37

       INTERPOL utilizes a system of color-coded international notices and
diffusions to share critical crime-related information with the 187 member
countries. 38 Generally, notices and diffusions provide information on
individuals wanted for serious crimes, missing persons, unidentified bodies,
possible threats, and criminals’ modus operandi. 39 As of February 2009,
INTERPOL had nearly 25,000 active notices, of which most were red. The
color signifies the purpose of the notice, as noted below.

       Red Notice – These messages provide information about and request
searches for the location and arrest of subjects for whom an arrest warrant
has been issued and where extradition will be requested. For example, the
United States may issue a Red Notice if a case meets all of the following
criteria: (1) a crime has been committed; (2) an arrest warrant has been
issued; (3) there is reason to believe the subject has fled the United States;
and (4) the responsible prosecutor having jurisdiction in the matter confirms
that extradition will be sought.

      Blue Notice – These messages seek to obtain information about,
locate, or identify a person of interest in a criminal investigation.

     Green Notice – These messages provide warnings about criminals who
have committed, or are likely to commit, offenses in several countries, such
as habitual offenders, child molesters, and pornographers. 40

       37
           At the meeting of the INTERPOL General Assembly in October 2008, the member
countries adopted a new framework for the issuance of notices, including revised criteria for
the issuance of a Green, Orange, and Purple Notices. (A Purple Notice provides information
on methods, objects, and hiding places used by criminals.). See Appendix VII for the new
definitions and criteria.

       38
           A diffusion is a message sent by a member country to one or more member
countries without the formal review conducted by INTERPOL. Frequently, the diffusion
message is sent to immediately disseminate information pending submission and approval
of the more formal notice. A diffusion message contains information similar to a notice, but
member countries also use diffusions to request assistance. After 1 year, one of three
actions must occur on all diffusions: (1) a notice must be issued for the subject; (2) a
message must be sent to INTERPOL confirming the wanted status of the subject; or (3) the
diffusion must be cancelled.

       39
           Notices are published in all of the organization’s working languages: Arabic,
English, French, and Spanish.
       40
          According to the USNCB General Counsel, prior to the adoption of the new criteria
in October 2008 many of the member countries were reluctant to issue Green Notices
because of confusion over the requirements for issuance and privacy concerns.


                                            -9-
      Yellow Notice – These messages provide information to help locate
missing persons, especially minors, or to help identify persons who are not
able to identify themselves.

       Black Notice – These messages provide information about unidentified
bodies or deceased persons and request assistance in obtaining the correct
identification.

      Orange Notice – These messages provide information and warn police,
public entities, and other international organizations of dangerous materials,
criminal acts, or events that pose a potential threat to public safety.

      INTERPOL-United Nations (U.N.) Security Council Special Notice –
These notices are issued by INTERPOL on behalf of the United Nations
Security Council to alert police of groups and individuals who are the targets
of U.N. sanctions against Al Qaeda and the Taliban.

      The INTERPOL General Secretariat, NCBs, and international
organizations and entities with which INTERPOL have special agreements
can apply for the issuance of a notice. 41 For example, when U.S. officials
suspect that a fugitive has fled the country, they may request that a Red
Notice regarding the fugitive be issued internationally to all NCBs.

       These notices contain two basic types of information – identity and
judicial. Information pertaining to an individual’s identity can include name,
date of birth, physical description, photograph, fingerprints, occupation,
languages spoken, and identity document numbers. Judicial information can
include the offense with which the person is charged, references to the laws
under which the charge is made or conviction was obtained, the maximum
penalty that has been or can be imposed and, in the case of the Red Notice,
references to the arrest warrant or sentence imposed by a court and details
about the conditions under which the requesting country will request
extradition from other countries.

      As shown in Exhibit 1-5, the notice process generally begins with a
request from a domestic or foreign law enforcement agency. The request is
forwarded to the source law enforcement agency’s NCB for review and
submission to the INTERPOL General Secretariat in Lyon, France, for
additional review and approval.



       41
          The General Secretariat is the entity that performs INTERPOL’s administrative and
operational functions. The Secretary General is the individual who directs the staff,
administers the budget, and organizes and directs the permanent departments.


                                          - 10 -
       According to INTERPOL, all applications for notices should be reviewed
by the originating member country for accuracy, completeness, legal
sufficiency, and compliance with INTERPOL regulations. However, this
review is especially important for applications for a Red Notice. All Red
Notice applications also receive a quality assurance review by INTERPOL
staff members to ensure that the Red Notice application is not based on a
prohibited matter, including acts of a racial, military, political, or religious
nature. According to the USNCB General Counsel, this review is essential
because for approximately one-third of the member countries a Red Notice
serves as a provisional arrest warrant. 42

     Following the review by INTERPOL, the notices are distributed to the
member country NCBs. 43 Upon receipt of the notices, each member country
NCB can distribute the information to its law enforcement officers.




       42
           The United States does not recognize the Red Notice as an official arrest warrant.
If the subject of another member country’s Red Notice is located in the United States,
federal officials will notify the member country of the individual’s possible location. Once
the foreign country provides sufficient documentation, a provisional arrest warrant is issued,
the subject of the Red Notice is detained, and extradition through diplomatic channels is
arranged.
       43
          Each member country may restrict another member country’s access to its
information.


                                           - 11 -
                                   EXHIBIT 1-5
                     Overview of the INTERPOL Notice Process




    Source Law
    Enforcement
      Agency




                                                                                   Foreign and
                              INTERPOL                                              Domestic
  National Central                                    National Central
                               General                                                 Law
      Bureau                                              Bureaus
                              Secretariat                                          Enforcement
                                                                                     Officers




Source: OIG depiction of information obtained from the USNCB

       Notices are cancelled by INTERPOL at the request of an NCB. 44 NCBs
request that notices be removed for a variety of reasons, including location
of the missing person, apprehension of a fugitive, identification of a body, or
if a fugitive is no longer wanted. Member countries regularly receive
notifications from INTERPOL that list the cancelled notices. Similarly, as
additional information is obtained that enhances or modifies the notice,
INTERPOL issues an addendum.

       As shown in Exhibit 1-6, the United States accounts for 20 percent of
all active INTERPOL notices.




       44
          INTERPOL policies require that each notice be reviewed every 5 years to ensure
that the notice is still accurate and, in the case of the Red Notice, that the warrant is valid
and extradition will be pursued.


                                             - 12 -
                                    EXHIBIT 1-6
                             Active INTERPOL Notices
                             (as of February 28, 2009)
                                                                            Attributable
                                                                           to the United
                                                            United             States
            Type                      INTERPOL              States           (by type)
Red – Wanted Persons                      15,836                1,798               11%
Blue – Trace/locate                        2,074                  167                 8%
Green – Career Criminals                   3,389                2,524               74%
Yellow – Missing Persons                   2,127                  299               14%
Black – Unidentified Bodies                  861                   38                 4%
Orange – Warning                              48                     8              17%
U.N. Special                                 333                    --                 --
Total                                    24,668                 4,834               20%
Source: INTERPOL and the USNCB

Prior Reviews

      DOJ and the Government Accountability Office (GAO) previously
reviewed various programs that relate to USNCB and INTERPOL
operations. 45 In July 2006, the GAO issued a report on the border security
and Visa Waiver Program. 46 The report identified INTERPOL’s Stolen and
Lost Travel Documents (SLTD) database as a means through which DHS was
attempting to mitigate the risks of the Visa Waiver Program. 47 The GAO
recommended that the DHS Secretary, along with appropriate agencies,
require all visa waiver countries to provide the United States and INTERPOL
with non-biographical data from lost, stolen, or blank passports. The GAO
also recommended that DHS develop a plan to make INTERPOL’s lost or
stolen travel document database automatically accessible to border
personnel at U.S. ports of entry.



       45
         The USNCB was the subject of several reviews conducted by DOJ and the GAO in
1986, 1987, and 1993. However, given the length of time since these reviews were
performed and the significant changes in the environment and technology over the last
two decades, we considered these reviews only for historical content.

       46
          U.S. Government Accountability Office, Border Security Stronger Actions Needed
to Assess and Mitigate Risks of the Visa Waiver Program, GAO-06-854 (July 2006).

       47
           The Visa Waiver Program was created to facilitate international travel and is a
substitute entry mechanism for non-immigrant, short-term, business, and tourism visas
only; it does not apply to students, temporary workers, and others who require visas to
enter the United States.


                                           - 13 -
      In August 2004, DOJ’s Justice Management Division (JMD) conducted a
review of the USNCB’s organizational structure, role, and mission to identify
potential management and operational improvements. 48 JMD recommended
changes to the USNCB’s organizational structure and procedures to improve
its administrative capability, strengthen career advancement for its
employees, maximize detailee value to the USNCB by instituting minimum
tours of duty, and improve its maintenance of case files. Further, JMD
recommended moving funds for INTERPOL dues into an account separate
from operational funds. According to the USNCB Director, while the USNCB
began implementing changes as a result of the JMD review, several of the
matters raised by JMD, such as case management and the budgeting for
INTERPOL dues, have not been fully addressed. We discuss these issues in
our report.

OIG Audit Approach

       The objectives of this audit were to: (1) evaluate the USNCB’s efforts
to ensure the sharing of INTERPOL information among federal, state, local,
and tribal law enforcement agencies; (2) review the USNCB’s processes for
the exchange of INTERPOL information to ensure that requests for
assistance and information were handled in an appropriate, efficient, and
timely manner; (3) review the USNCB’s controls over INTERPOL case
information; and (4) examine the USNCB’s organizational role and strategic
priorities to ensure that they are in line with DOJ priorities.

       To accomplish these objectives, we conducted more than 60 interviews
of USNCB officials and participating agency representatives, including the
Director, Deputy Director, and Assistant Directors of the USNCB. We also
attended a training session presented by the USNCB for state, local, and
tribal liaisons to understand its working relationships, the assistance it
provides, and its communication with local offices. In addition, we
interviewed officials in the Office of the Deputy Attorney General, Federal
Bureau of Investigation (FBI), and Drug Enforcement Administration (DEA).
We also interviewed the INTERPOL Secretary General, officials at the
INTERPOL General Secretariat in Lyon, France, and law enforcement officials
from the Bundeskriminalamt (BKA) located in Wiesbaden, Germany. 49




       48
          U.S. Department of Justice, Justice Management Division, Management Review of
INTERPOL – USNCB August 2004 – Draft, (2004). Although labeled as a draft report,
according to an official at the Justice Management Division, this is the final report.
       49
          The BKA is the German national police force. Among its other duties, it functions
as the National Central Bureau for Germany.


                                          - 14 -
       Findings I through IV present an overview of our audit results. In
Finding I, we attempted to evaluate the level of cooperation and
participation between the USNCB and its partner agencies. We also checked
whether information about high-profile U.S. fugitive criminals and terrorists
had been shared with foreign counterparts through the red notice system.
In addition, we distributed a questionnaire to all 66 state and local USNCB
liaison offices to assess the level of cooperation and satisfaction among the
USNCB partners.

      Finding II focuses on the USNCB’s efforts and ability to accurately
integrate and maintain data from a variety of countries. In addition, we
reviewed the USNCB’s efforts to ensure that domestic law enforcement
agencies have access to INTERPOL databases. We also reviewed the
USNCB’s efforts to ensure INTERPOL information is being made available to
U.S. agencies and placed in U.S agency databases in an accurate, current,
and timely manner.

      Finding III focuses on the USNCB’s internal case management,
including its efforts to utilize INTERPOL information to enhance U.S.
investigations. In addition, we assessed the USNCB’s capability to identify
potential patterns and evolving trends in criminal activities, such as
transnational organized crime.

      Finding IV examines the USNCB’s role, mission, and organizational
structure. We also assessed the USNCB’s ability to adequately address its
strategic needs.

     The audit scope and methodology are presented in Appendix I.




                                   - 15 -
              FINDINGS AND RECOMMENDATIONS

I.   FEDERAL, STATE, AND LOCAL LAW ENFORCEMENT
     COOPERATION AND PARTICIPATION

     The USNCB’s relationships with and the level of
     participation provided by U.S. law enforcement agencies
     are key elements to the USNCB’s effectiveness in carrying
     out its mission. However, federal law enforcement
     agencies do not fully participate in INTERPOL’s red notice
     program to apprehend fugitives. In addition, we found
     that poor communication between the USNCB and federal
     law enforcement agencies leads to incomplete information
     being shared with the international law enforcement
     community. Further, the USNCB has not adequately
     maintained communication channels for interacting with its
     state and local liaisons. As a result, there is a risk that
     critical law enforcement information or requests for
     assistance are not reaching the intended recipients.

Federal Law Enforcement Agency Participation

      The United States’ participation in INTERPOL depends on the USNCB’s
coordination with U.S. law enforcement agencies. However, some federal
law enforcement agencies do not fully participate in INTERPOL’s red notice
program. Moreover, the USNCB is often not informed of actions taken by its
federal domestic law enforcement partners on INTERPOL-related cases and
as a result the USNCB is hindered in its coordination with other member
countries. Further, the United States does not contribute information to
INTERPOL’s stolen motor vehicle database.

Red Notice Program

      According to INTERPOL, as of December 31, 2008, among INTERPOL
member countries the United States had the highest number of active red
notices seeking the location and arrest of a wanted person with a view to
extradition based on an arrest warrant or court decision. However, not
every federal law enforcement agency fully participates in the red notice
program.

     We reviewed the public websites of the DEA, FBI, and ICE to
determine if their most wanted fugitives had red notices issued through
INTERPOL. As shown in Exhibit 2-1, we found that 14 of these 32 “most
wanted” criminals (44 percent) did not have red notices issued. A red notice


                                   - 16 –
provides wide distribution of information about wanted criminals to all
INTERPOL member countries. By not using this program, U.S. law
enforcement fails to take advantage of a relatively easy method of
communicating this information to the widest possible audience, which can
increase the opportunity to locate and apprehend the criminal or obtain
related intelligence.

                                EXHIBIT 2-1
                         DEA, FBI, and ICE Fugitives
                                                                  Number
                                                 Number of       without a
     Component                                   Fugitives       Red Notice
     DEA – International Fugitives                  14                6
     FBI – 10 Most Wanted Fugitives                 10                3
     ICE – International Fugitives                   8                5
     Total                                          32               14
     Source: As listed by each component on its public website

       We discussed this issue with the USNCB Director, who is also a DHS
ICE employee. He attributed ICE’s failure to pursue red notices in these
instances to insufficient numbers of experienced personnel being detailed
from DHS to the USNCB. The USNCB Director stated that prior to the
creation of DHS, two staff with experience in customs and two other staff
with experience in immigration matters were detailed to the USNCB.
However, after the creation of DHS, the agency detailed just one or two
employees to the USNCB to handle cases involving both customs and
immigration issues. The USNCB Director stated that he believed that the
workload related to immigration issues was too large for one person to
effectively manage and ensure that ICE pursued red notices.

       We also discussed this issue with the FBI Assistant Director (since
retired) for International Operations, who is also a delegate to the INTERPOL
Executive Committee. He agreed that all of the FBI’s 10 Most Wanted
Fugitives should have red notices issued. He was unable to explain the FBI’s
failure to pursue red notices in these cases because the FBI has directed its
agents to issue INTERPOL notices for all outstanding FBI fugitives believed to
be in a foreign country. Moreover, he said that the FBI special agent in
charge of the case or the FBI representative at the USNCB should be
responsible for publishing the notice. He also acknowledged that the FBI is
not utilizing the USNCB and INTERPOL as it should and said he is trying to
educate FBI agents on how to utilize USNCB and INTERPOL resources more
fully.




                                       - 17 –
       In addition, we discussed this issue with the Assistant Director for the
USNCB Drug Division, a DEA employee, who stated that she was working to
improve the DEA’s participation in the INTERPOL notice program. She
identified the six DEA divisions that had the lowest red notice activity and
said that she wants to train the divisions on the uses of INTERPOL, especially
on preparing red notice requests. However, when we spoke with a DEA
headquarters official about this issue, he stated that the DEA frequently does
not issue INTERPOL notices because of the sensitivity of its drug cases and
concerns regarding security of the information. This DEA official also stated
that some countries in which the DEA has sensitive cases experience high
levels of public corruption, and as a result, the DEA may not want to publish
a red notice that can be used by a corrupt law enforcement official to inform
criminals that the DEA is investigating them.

       Both FBI and DEA officials stated that their agencies have many
agents working abroad that share information about sensitive cases directly
with their law enforcement counterparts within foreign governments.
Consequently, the FBI and DEA agents can control the use and distribution
of information rather than use INTERPOL to share information.

      While we understand the FBI’s and DEA’s need to control the use and
dissemination of highly sensitive, non-public information, the fugitives that
we reviewed were listed on the FBI, DEA, and ICE public websites accessible
to anyone with a computer and Internet connection. Information related to
these types of cases should be shared with appropriate foreign counterparts
through the INTERPOL network because it can allow U.S. law enforcement
agencies to reach places where they do not have a physical presence and
increase the likelihood that fugitives are captured.

       Officials at both the FBI and DEA told us that they are working to
improve their agency’s participation in INTERPOL and provide additional
training for their agents regarding the INTERPOL program. We believe it is
essential that domestic law enforcement agencies receive information and
training regarding the uses and benefits of the INTERPOL network and
coordination with the USNCB.

       We discussed the underutilization of the red notice program with
USNCB officials. They believed that the USNCB’s current paper-based
process that domestic agencies use to apply for a notice is time-consuming,
inefficient, and may have contributed to agencies’ lack of participation.
USNCB officials suggested that adopting an on-line process for submitting
notice applications and diffusion requests could improve the use of the
INTERPOL network.



                                    - 18 –
      The USNCB General Counsel said that the FBI had developed an
internal, on-line application for its agents to use when submitting a notice
application to the USNCB. However, he stated that he doubted the USNCB
has sufficient current resources to develop such a capability. We agree that
an electronic, on-line procedure would streamline the notice application
process and make it easier for all domestic law enforcement agents to use
the INTERPOL notice program, and we believe that the USNCB and the
Department should make this a priority to implement.

      In addition, we recommend that DOJ, the USNCB, and the USNCB
Executive Committee should consider pursuing formal agreements with
federal law enforcement agencies to clarify the extent and type of case
information that should be shared with the USNCB and INTERPOL.

Case Resolution Information

       We found that the USNCB cannot adequately coordinate the sharing of
case-related information because it is often not informed of actions taken by
its U.S. law enforcement partners on INTERPOL-related cases. For example,
we identified a February 2005 wanted person diffusion issued by another
country’s NCB for an individual wanted for homicide and attempted
homicide. During our review of the USNCB case file, we noted that the
USNCB had identified that the subject of the notice had potentially entered
the United States on numerous occasions. In January 2008 the USNCB
informed the other NCB that the subject was attempting to re-enter the
United States and was being detained by DHS. The other NCB responded
that the foreign arrest warrant remained in force and that the subject would
be extradited. The final document in the USNCB case file contained a
communication from the other NCB inquiring why the subject was not
detained for extradition.

      Because the case file did not contain a USNCB communication
indicating that it had responded to the other NCB, we asked the USNCB to
review the case and provide us with an explanation. The USNCB responded
that a USNCB detailee had contacted DHS and determined that the subject
was permitted to enter the United States. However, the Deputy did not
document in the USNCB case file his discussion with DHS.

       While reviewing the case in response to our request, the USNCB also
learned that another DOJ agency had previously opened a case related to
this same individual and that an extradition package had been received
through diplomatic channels. However, the extradition package did not
meet DOJ criteria because the package did not contain a photograph of the
subject. In 2007, DOJ informed the State Department that the case would


                                   - 19 –
be closed. The USNCB reviewed the other agency’s case file and found that
the agency may have reopened its case in September 2008. In addition, the
USNCB determined that the investigator had attempted to locate this subject
within the United States. However, the investigator closed the investigation
in December 2008.

       Without our review and inquiry, the USNCB would not have known
about the actions being taken by the other DOJ agency regarding the subject
of the INTERPOL wanted person diffusion. Further, while the other agency’s
case file indicated that the foreign government’s application for extradition
was closed because it did not contain a photograph of the subject, we
identified a photograph of the subject in the USNCB’s case files. As a result
of this lack of communication and coordination, an individual wanted by a
foreign government for homicide and attempted homicide was allowed to
evade prosecution for these crimes.

       We discussed this issue with officials at other DOJ agencies, such as
the FBI and DEA. Although the FBI and DEA officials said that their agency
works closely with the USNCB, they also said that their agencies often
bypass the USNCB and deal directly with their foreign counterparts or
through diplomatic channels when they need information about a particular
case with an international nexus. According to a USNCB official, this lack of
communication with the USNCB significantly impacts the USNCB’s ability to
coordinate the exchange of information and the United States’ response to
inquiries from domestic and foreign law enforcement agencies. Additionally,
while this flow of information directly between agencies may meet the
immediate needs of the agencies involved, the information passed remains
“stovepiped” within these agencies instead of being shared with other law
enforcement entities that also may have a need for it. Moreover, the USNCB
is not informed about the final outcome of INTERPOL investigations, and it
thus cannot accurately measure the impact of its efforts, rate its
performance, and compile meaningful management statistics.

       We met in September 2008 with the official in the Office of the Deputy
Attorney General (ODAG) who serves as the DOJ official responsible for
USNCB matters. We discussed the challenges the USNCB faces in its
attempts to effectively communicate and coordinate with domestic and
international law enforcement agencies. The ODAG official stated that the
USNCB serves as a valuable partner with domestic law enforcement agencies
to share INTERPOL information on international criminals, and he
acknowledged that domestic law enforcement agencies needed to increase
their use of and participation in the USNCB. He also said that there is a lack
of awareness among law enforcement agencies about the mission of the
USNCB and that training and outreach to these agencies would be


                                   - 20 –
worthwhile. The ODAG official stated that it makes sense to keep USNCB
oversight with the ODAG, but that it might be worth considering having the
day-to-day operations more closely aligned with the Department’s Criminal
Division or the OIA.

      We believe that DOJ, the USNCB, and the USNCB Executive Committee
should work to establish formal agreements between federal law
enforcement agencies that describe the type of case information these
agencies will share with foreign counterparts through the INTERPOL
network.

Stolen Motor Vehicles

      INTERPOL has developed a stolen motor vehicle (SMV) database to
support efforts in member countries to combat international vehicle theft
and trafficking. According to INTERPOL records, the SMV database contains
approximately 4.6 million records of reported stolen motor vehicles. At the
end of 2008, approximately 158 countries used the database regularly,
122 of which share their national stolen vehicle database records with
INTERPOL. As a result of searches of the SMV database, more than
31,000 stolen motor vehicles were recovered worldwide in 2008. However,
INTERPOL officials stated that as of August 2008 the United States had
entered just five vehicles into the SMV database.

      When we discussed these issues with USNCB officials, they were aware
that the United States did not provide INTERPOL with information about
motor vehicles stolen in the United States. The FBI maintains information in
the National Crime Information Center’s (NCIC) Vehicle File about stolen
U.S. motor vehicles and determines what information will be shared and with
whom in accordance with 28 U.S.C § 534. 50 According to the USNCB, rather
than including the NCIC information in the INTERPOL database, the FBI
provides certain countries with the ability to directly search NCIC’s Vehicle
File. Currently, only a limited number of INTERPOL member countries have
the ability to search NCIC for information on vehicles reported stolen in the
United States.



       50
           The National Crime Information Center (NCIC) is a computerized index of criminal
justice information such as fugitives, stolen properties, and missing persons maintained by
the FBI. NCIC is available to federal, state, local, and tribal law enforcement and other
criminal justice agency users and is operational 24 hours a day, 365 days a year. According
to the NCIC 2000 Operating Manual for the Vehicle File, a vehicle is any motor-driven
conveyance (except a boat) designed to carry its operator. In addition to conveyances
meeting this definition, aircraft and trailers are also entered in the Vehicle File. Additional
information about NCIC can be found in Appendix VIII.


                                           - 21 –
       However, the USNCB Chief Information Officer (CIO) explained that a
foreign law enforcement officer attempting to identify one of those stolen
vehicles would need to conduct two separate queries. In one query, the
officer would search the INTERPOL SMV records of 122 countries. Then the
officer would have to run a second query in NCIC to search the records of
the United States. To reduce the number of searches that law enforcement
officers need to perform, the USNCB stated in its August 2005 information
technology strategic plan that it intended to work with the FBI to develop a
link between the INTERPOL SMV database and NCIC. This link would allow
foreign law enforcement officers querying the INTERPOL SMV to
simultaneously query NCIC without requiring a separate search. But the
USNCB CIO stated that the USNCB had not implemented the initiative
because the FBI and USNCB would need to improve their information
technology systems to build and maintain such a link and stolen vehicles are
not considered as high a priority as other information sharing projects,
including lost and stolen travel documents.

        We acknowledge that improving the efficiency of sharing stolen vehicle
information may not be as high a priority as other information technology
initiatives related to international crime. However, we believe that the
USNCB should move forward on linking the INTERPOL SMV and NCIC or
explore alternative solutions to assist foreign law enforcement counterparts
to investigate and solve crimes associated with stolen motor vehicles.

Fingerprints

      Our audit revealed a recent USNCB initiative that we believe is a
noteworthy accomplishment for enhancing international information sharing.
Specifically, the USNCB has established a proactive initiative with the FBI to
foster the exchange of fingerprints of the subjects of interest in the
international law enforcement community.

      According to the USNCB CIO, the FBI and USNCB have worked closely
to ensure that the fingerprint records for the subjects of foreign INTERPOL
notices were available to domestic law enforcement agencies through the
FBI’s Integrated Automated Fingerprint Identification System (IAFIS). 51 In
March 2007 the USNCB provided the FBI with a data file containing
fingerprints from all active notices that contained fingerprints as of

       51
           Deployed in 1999, IAFIS contains digitized records of latent fingerprints (e.g.,
fingerprints found at crime scenes) and a Criminal Master File of more than 64 million sets
of 10 rolled fingerprints. IAFIS provides automated fingerprint search capabilities, latent
searching capability, electronic image storage, and electronic exchange of fingerprints and
responses, 24 hours per day, 365 days a year.




                                          - 22 –
March 23, 2007.52 Of the fingerprints submitted, the FBI created new IAFIS
records for 3,960 fingerprints that were not found in the database. 53 The
FBI also matched 326 fingerprints to existing fingerprints in IAFIS. Through
the review of the 326 matches the USNCB identified:

       •        The subject of a foreign country’s red notice wanted for vehicle
                theft had been arrested for assault in New York in 2007. The
                individual was residing in the United States illegally and
                subsequently was deported.

       •        The subject of a foreign country’s red notice wanted for rape and
                identified as a U.S. resident had been arrested in Puerto Rico in
                2000 for kidnapping and attempted rape. The notice-issuing
                country has agreed to extradite the subject.

       •        The subject of a foreign country’s red notice wanted for armed
                robbery was found to be incarcerated in New York under a
                different name. The USNCB informed the other NCB of the
                projected date of the subject’s release.

       •        The subject of a foreign country’s black notice was deported
                previously from the United States after serving a sentence for
                drug trafficking. The USNCB assisted in confirming the identity
                of the remains.

       Following this one-time data match, the USNCB has continued to
submit to IAFIS the fingerprints of subjects of INTERPOL notices and
diffusions. The USNCB stated that it currently submits the fingerprints for
subjects of red, green, and blue notices and diffusions. 54 As notices are
updated or cancelled, the USNCB notifies the FBI so that the records can be
modified or deleted.



       52
            Notices and diffusions may be published without having the subject’s fingerprints.

       53
           During the matching process, 340 fingerprint records were rejected for data
quality errors.
       54
           Because of potential concerns for the privacy of juveniles, the USNCB does not
submit to IAFIS the fingerprints for the subjects of yellow notices and diffusions (missing or
abducted children). According to the USNCB General Counsel, since October 2008 the FBI
has been reviewing the possibility of allowing into IAFIS these types of fingerprints.
Further, the USNCB does not submit to IAFIS fingerprints for subjects of black notices
(unidentified bodies). However, for both yellow and black notices and diffusions, the USNCB
conducts a search of IAFIS for potential matches.


                                            - 23 –
      In April 2008, the USNCB installed a stand-alone IAFIS workstation at
the USNCB that gives the USNCB the ability to convert fingerprints
originating in the United States to the format used by the INTERPOL
database and vice versa. This allows the USNCB to take fingerprint records
received from INTERPOL member countries and electronically cross-check
them in IAFIS.

       In addition, the USNCB can better address fingerprint searches
requested by domestic law enforcement agencies because the USNCB can
use the IAFIS workstation to convert the fingerprints into the format used by
INTERPOL. The USNCB then uses the converted fingerprint file to cross-
check the records against the INTERPOL database. According to USNCB
officials, they are able to provide a response to domestic law enforcement
agencies in less than 20 minutes. 55

      According to the USNCB CIO, state and local law enforcement agencies
currently submit their fingerprint requests via e-mail or facsimile. The
USNCB manually uploads the fingerprint record using the IAFIS workstation
and electronically submits the converted record to INTERPOL. However, this
process is labor-intensive and time-consuming for the USNCB. As a result,
the USNCB and FBI are currently working to develop a method that would
allow state and local law enforcement agencies to directly query the
INTERPOL fingerprint database.

State and Local Law Enforcement Coordination

      As the U.S. point of contact for INTERPOL matters, the USNCB has to
not only maintain close relationships with federal law enforcement agencies,
but must also maintain close relationships with state and local law
enforcement agencies throughout the United States and its territories. The
USNCB has therefore established an INTERPOL liaison office in each state, as
well as in American Samoa, Guam, the Northern Mariana Islands, Puerto
Rico, the U.S. Virgin Islands, and in 11 major cities in the United States. 56
These 66 liaison offices are typically located within a state police agency,
state Attorney General's office, or the law enforcement agency of a city or
county. Each office has at least one liaison officer who has been designated
to serve as the point of contact for USNCB-related interaction.




       55
          During our observations of the USNCB’s operation of its IAFIS workstation, the
processing time for fingerprint requests of INTERPOL records averaged approximately
5 minutes.
       56
            The list of all 66 State and Local Liaison Offices can be found in Appendix V.


                                             - 24 –
       The USNCB Assistant Director of the State & Local Law Enforcement
Division explained that foreign government requests that require action by a
state or local law enforcement agency are forwarded from the USNCB to one
or more of the 66 liaisons. The liaisons then forward the requests to the
appropriate law enforcement agency in their jurisdiction for processing and
response. Conversely, domestic law enforcement agencies that need
criminal investigative assistance on cases with an international nexus may
forward a request through the appropriate liaison or contact the USNCB
directly.

Secure Electronic Connectivity

      At the beginning of our audit, USNCB officials informed us that they
had established a secure e-mail network that the USNCB uses to
communicate directly with each of its 66 liaison offices. However, during our
audit we found significant problems with the USNCB’s ability to reliably
communicate with its state and local liaisons.

       To assess the relationships between the USNCB and the state and local
liaisons, we developed a questionnaire to be completed by the liaisons. We
discussed our plans with USNCB officials, who agreed to send our
questionnaire to the state and local liaisons via their secure e-mail
connections. The questionnaires were sent out by the USNCB on
July 24, 2008, with a requested return date of August 22, 2008.

      Only one-third of the liaisons responded by the deadline, a response
rate significantly lower than we expected. Using telephone numbers
obtained from the USNCB, we attempted to contact the liaison officers who
had not replied and discovered that 25 of 66 had not received the
questionnaire that was e-mailed to them by the USNCB. 57

      When we discussed this issue with USNCB officials, they were
surprised that so many liaisons did not receive the questionnaire via the
USNCB’s e-mail and the USNCB Director directed USNCB staff to resolve the
problem. Subsequently, we were informed that some liaisons did not
receive the questionnaire because the e-mail messages addressed to them
were undeliverable or because there may have been a technical problem



       57
           We re-sent the questionnaire to those liaison offices we were able to contact via
an alternate e-mail address or facsimile. In total, we received 58 completed questionnaires
from 57 liaison offices (one office provided two questionnaires, each completed by a
different individual), which resulted in a response rate of 86 percent. Five liaison officers
verbally promised to send the questionnaire but never did. The four remaining liaison
officers never responded to our telephone calls and facsimiles.


                                           - 25 –
with the network used to send the messages. Ultimately, we learned that
the USNCB had to send some of our questionnaires via facsimile.

       According to our questionnaire results, many of the state and local
liaisons stated that they interacted with the USNCB on a regular basis. For
example, of the 58 state and local liaisons that responded to our
questionnaire, 50 (or 86 percent) indicated that they interacted with the
USNCB via telephone or e-mail on at least a monthly basis. However, we
believe that the problems that the USNCB experienced in sending out our
questionnaire call into question the USNCB’s ability to effectively
communicate with its liaison officers.

      We discussed with USNCB officials the problems encountered during
the dissemination of our questionnaire. In response, in January 2009 the
Assistant Director for the USNCB’s State and Local Liaison Division provided
us with documentation that indicated that the USNCB had, as of that date,
four methods for electronic communication with its liaison offices.
Specifically, the USNCB communicated with the 66 liaison offices via the
Regional Information Sharing Systems (RISS) network (47 liaison offices),
USNCB virtual private network (12 liaison offices), International Justice and
Public Safety Information Sharing Network (Nlets) (6 liaison offices), and
direct connection to the INTERPOL network (1 liaison office). 58 Additionally,
the USNCB identified several initiatives it has undertaken to determine
whether the e-mail accounts within RISS were functioning properly.

      Despite these actions, the USNCB still has not adequately ensured that
connections through RISS are effective. Specifically, the USNCB sent out a
test e-mail message to its liaison offices with RISS e-mail accounts, but
could not document that all of these e-mails had been received. Further,
while the USNCB has attempted to verify its RISS communication channel, it
has not conducted similar processes to ensure that its liaison offices using
other electronic applications receive its messages.

    Despite its attempts to ensure that it has an adequate method to
communicate with its liaisons, we found that the USNCB does not have a

       58
           The RISS network is a national program of regional services designed to enhance
the ability of local, state, federal, and tribal criminal justice agencies to: (1) identify,
target, and remove criminal conspiracies and activities spanning multijurisdictional,
multistate, and sometimes international boundaries; (2) facilitate rapid exchange and
sharing of information among the agencies pertaining to known suspected criminals or
criminal activity; and (3) enhance coordination and communication among agencies that are
in pursuit of criminal conspiracies determined to be interjurisdictional in nature. The USNCB
virtual private network is a grouping of computers that uses the Internet to connect remote
sites or users together. Nlets links state, local, federal, and international law enforcement,
justice, and public safety agencies for the exchange of critical data.


                                           - 26 –
reliable and complete network of connectivity with its liaisons. This
deficiency could result in critical law enforcement information or requests for
assistance not being disseminated. For example, the USNCB could issue a
diffusion to a liaison in a city police agency that a known international
fugitive is traveling to that city’s jurisdiction. But because of the unreliable
nature of the network, the police agency does not receive the message, no
action is taken on the fugitive, and the USNCB does not know that the
message has not been received and no action has been taken. Therefore, it
is imperative that the USNCB ensure that it maintains a secure method of
communication with its state and local liaison officers.

Liaison Evaluation of USNCB Services

      In our questionnaire to the 66 state and local liaisons, we requested
specific information on feedback they had received about the USNCB from
the law enforcement officers in their jurisdictions, along with how helpful
USNCB-provided information was in investigations. We also provided
respondents the opportunity to comment at the end of the questionnaire. 59

       According to the questionnaire results, many of the state and local
liaisons believe the information they received from the USNCB was timely
and complete. For example, as shown in Exhibit 2-2, of the 52 state and
local liaisons that responded to questions regarding the timeliness of the
USNCB, 65 percent indicated that the USNCB was often or always timely.




      59
           The complete questionnaire and responses can be found in Appendix VI.


                                          - 27 –
                            EXHIBIT 2-2
      State and Local Liaison Evaluation of USNCB Timeliness




                                    38%


                 27%                                27%




                                                                       8%




             Always timely      Often timely   Sometimes timely   Rarely timely




Source: OIG analysis of questionnaire data

      In addition, 67 percent of the 52 state and local liaisons that
responded to questions regarding the completeness of the information
provided by the USNCB indicated that the information was complete. Our
results are displayed in Exhibit 2-3.

                             EXHIBIT 2-3
       State and Local Liaison Evaluation of the Completeness
               of Information Provided by the USNCB


                              67%




                                                          33%




                             Complete              Somewhat Complete




Source: OIG analysis of questionnaire data




                                               - 28 –
      Further, of the 54 state and local liaisons that responded to our
question about the usefulness of the INTERPOL information, 98 percent
indicated that the information they received from the USNCB was at least
somewhat helpful when investigating cases. Our results are displayed in
Exhibit 2-4.

                             EXHIBIT 2-4
        State and Local Liaison Evaluation of the Helpfulness
               of Information Provided by the USNCB



                                      50%

                                                       37%




                     11%

                                                                      2%


               Extremely helpful   Very Helpful      Somewhat    A little or not
                                                       helpful       helpful




Source: OIG analysis of questionnaire data

       Although these responses were generally positive, many of the state
and local liaisons who responded to our questionnaire indicated that a
significant percentage of the law enforcement officers within their
jurisdictions were unaware of the INTERPOL databases. As shown in
Exhibit 2-5, of the 58 state and local liaisons that responded to our
questionnaire, only 26 percent indicated that either almost all or most of the
officers within their jurisdictions were aware that they could obtain access to
INTERPOL databases. Moreover, only 5 percent of the law enforcement
officers in their jurisdictions were more than somewhat knowledgeable about
the usefulness of the INTERPOL information.




                                                  - 29 –
                             Exhibit 2-5
        Percentage of Officers Aware of INTERPOL Databases



                                             50%




                                  21%                  22%



                     5%
                                                                  2%


                  Almost all    Most are   Some are   Few are   None are
                 officers are    aware      aware      aware     aware
                    aware


       Source: OIG analysis of questionnaire data

       We discussed these results with the USNCB Director and Deputy
Director. They acknowledged that many law enforcement agencies were
unaware of the role and mission of the USNCB and INTERPOL. The Assistant
Director for the State and Local Liaison Division stated that although they do
not have a formal, written outreach program, they have established a
training program for state and local liaisons, which consists of classroom-
style training sessions that are conducted at the USNCB twice a year for
4 days each. The training is voluntary and participants are responsible for
all expenses. The Assistant Director for the State and Local Liaison Division
estimated that approximately 20 participants attend each session. In
April 2008, we attended one of these training sessions. However, this
training reaches only a very limited audience and does little to expand the
understanding of domestic law enforcement officers about how INTERPOL
and the USNCB can assist in their investigations.

        USNCB officials also stated that they have established booths at
numerous law enforcement conferences and have recently implemented a new
initiative in which an FBI representative detailed to the USNCB conducts a
briefing for FBI Legal Attachés prior to their deployment overseas to inform




                                           - 30 –
them about the role and mission of the USNCB and INTERPOL. 60 Further, the
USNCB has developed and distributed informational pocket cards to law
enforcement agencies and has recently redesigned its website.

        The USNCB Deputy Director stated that the USNCB’s outreach efforts
have been hampered by limited resources. However, he stated that the
USNCB is exploring alternative methods to provide information to domestic
law enforcement. For example, USNCB officials told us that they were
working with the Department to produce an informational DVD/CD for
distribution to all domestic law enforcement agencies. While the project is
still in the development phase, one USNCB official stated that she believed
that the DVD/CD will help to reduce training costs and potentially reach a
wider audience.

       Our review found that the USNCB has implemented some elements of
an outreach program. However, despite the USNCB’s efforts, many
domestic law enforcement agencies remain unaware of the USNCB role and
mission, as well as the potential uses of INTERPOL information. We
recommend that the USNCB develop a more formal plan that identifies and
prioritizes outreach efforts to specific law enforcement organizations.

Conclusion

       It is critical that U.S. law enforcement information about international
criminals is appropriately disseminated to the 187 member countries of
INTERPOL. By sharing this information, the USNCB plays an important role
in the United States’ ability to identify, locate, and apprehend criminals that
have fled the U.S. and entered a foreign country. To effectively accomplish
this responsibility, the USNCB needs to encourage domestic law enforcement
agencies to provide information to INTERPOL through the USNCB.

       We believe that the USNCB has not adequately coordinated with
federal law enforcement agencies to solicit their full participation in
INTERPOL. As a result, we found that foreign law enforcement counterparts
have not been alerted about some of the United States’ most wanted
fugitives. In addition, we found that information on motor vehicles reported
stolen in the United States has not been efficiently shared through the
USNCB and INTERPOL with international partners. Moreover, information


       60
           The FBI has stationed agents and other personnel overseas to help build
relationships with law enforcement, intelligence, and services around the globe and facilitate
a prompt and continuous exchange of information. These Legal Attaché offices - commonly
known as LEGATS - are established through mutual agreement with the host country and
are generally located in the U.S. embassy or consulate in that nation.


                                           - 31 –
pertaining to the status of INTERPOL-related cases has not been fully shared
with all appropriate domestic law enforcement agencies.

      We attribute these deficiencies, in part, to a lack of formal agreements
between domestic law enforcement agencies regarding the extent and type
of case information that should be shared with the USNCB and INTERPOL.
In addition, we noted a lack of awareness among federal law enforcement
agents of the role of and appropriate uses for INTERPOL information.

       Additionally, despite the USNCB’s attempts to ensure that it has an
adequate method to communicate with domestic state, local, and tribal law
enforcement agencies, the USNCB has not implemented a reliable
communications network with its liaisons. As a result, we believe that
critical law enforcement information or requests for assistance is not
effectively disseminated.

       Finally, in response to our survey, many of the state and local liaisons
expressed satisfaction with the services of the USNCB. However, many of
the liaisons also stated that the law enforcement officers in their jurisdictions
were unaware of or unfamiliar with the USNCB and INTERPOL. While the
USNCB has implemented some elements of an outreach program, we believe
that the USNCB should develop a formal outreach plan that identifies and
prioritizes specific law enforcement organizations.

Recommendations

We recommend that the Office of the Deputy Attorney General:

   1.    Work with DHS, the USNCB, and the USNCB Executive Committee
         to establish formal agreements between federal law enforcement
         agencies that describe the type of case information these agencies
         should share with foreign counterparts through the INTERPOL
         network.

We recommend that the USNCB:

   2.    Work with its domestic law enforcement partners to ensure that the
         agencies issue INTERPOL notices for appropriate international
         fugitives, particularly those already publicly identified on the
         agencies’ websites or elsewhere.

   3.    Encourage federal law enforcement agencies to provide USNCB and
         INTERPOL-related training to their employees.




                                     - 32 –
4.   Develop a method for domestic law enforcement agencies to submit
     a notice application electronically.

5.   Implement information technology solutions to more broadly share
     U.S. stolen motor vehicle information with INTERPOL members.

6.   Ensure that a reliable communications network is maintained with
     all state and local liaison offices.

7.   Develop a formal outreach plan that identifies and prioritizes law
     enforcement organizations that would benefit from a better
     understanding of the USNCB and INTERPOL.




                                - 33 –
II.   EXCHANGE OF INTERPOL INFORMATION

      The USNCB has not made critical international criminal
      information available to appropriate law enforcement
      agencies in the United States, which increases the
      potential that high-risk, violent criminals may enter
      undetected and move about freely in the United States.
      The USNCB also has not implemented adequate controls or
      processes to ensure that the INTERPOL information it has
      made available to domestic law enforcement agencies is
      current, accurate, complete, and timely. Consequently,
      domestic law enforcement data systems likely contain out-
      of-date or incomplete data and include information on
      individuals for whom no law enforcement agency has a
      current investigative interest.

Overview of the USNCB’s Information Sharing Processes

       The USNCB assists domestic law enforcement agencies in obtaining
direct access to criminal and terrorist-related information in INTERPOL
databases. In addition, as shown in Exhibit 3-1, the USNCB enters a
“lookout record” in or provides appropriate international criminal data from
INTERPOL to domestic agencies or related domestic systems, such as the
FBI’s Foreign Fugitive File and Missing Person File within its NCIC system,
DHS’s Traveler Enforcement Compliance System (TECS) and United States
Visitor and Immigrant Status Indicator Technology (US-VISIT) program. 61




      61
           A description of each of these data systems is contained in Appendix VIII.


                                           - 34 –
                            EXHIBIT 3-1
          USNCB International Criminal Information Data Flow


                                                               Domestic Screening
                                                                  Databases

      Source
   Information
                                                               NCIC


                                                                          US-VISIT

                               U.S. National
     Foreign
                              Central Bureau                   TIDE



                                                                           CLASS


                                                               TECS




Source: OIG depiction of information obtained from the USNCB

    The information in these data systems is used by personnel working for
domestic law enforcement organizations as part of their regular duties. For
example:

          •      DHS U.S. Customs and Border Protection (CBP) agents encounter
                 individuals at U.S. ports-of-entry and search TECS to determine if
                 a person should be granted access to the United States.

          •      State Department officials process visa applications from non-U.S.
                 citizens wanting to visit the United States and search CLASS to
                 determine if the individual should be granted a U.S. visa.

          •      Federal, state, local, and tribal law enforcement officers query
                 NCIC for information on individuals they encounter.

          •      Officials at regulating agencies request criminal history
                 information prior to issuing licenses to handle hazardous
                 materials and financial securities. Similarly, human resource
                 officials request criminal history information during pre-
                 employment background investigations for various posts in the
                 federal government.



                                          - 35 –
Information Not Shared with U.S. Law Enforcement Agencies

      It is critical that international criminal information is appropriately and
timely disseminated to domestic law enforcement officers and to U.S.
government personnel deciding on the admissibility of individuals attempting
to cross a U.S. border. We determined that though the USNCB has made
some INTERPOL information accessible to these domestic law enforcement
agencies, it has not done so for all of the information that it receives. In the
sections that follow, we discuss the deficiencies in the sharing of INTERPOL
information and improvements that could be made.

Foreign Notices and Diffusions Not Included in U.S. Agency Databases

      USNCB analysts manually enter information on subjects of foreign-
issued notices and diffusions into TECS, which are then electronically sent to
CLASS. However, the USNCB does not fully share INTERPOL information with
NCIC, resulting in inadequate information sharing with domestic law
enforcement agencies.

      Foreign Green Notices Not Included in NCIC

       We found that the USNCB does not enter a lookout record in NCIC for
the subjects of foreign-issued green notices. These individuals (including
habitual criminal offenders, child molesters, and child pornographers) are
considered career criminals who have committed, or are likely to commit,
offenses in several countries. We therefore believe that the subjects of
green notices should be entered into NCIC. That way although the
individuals may be allowed to enter the country, if the individuals commit
criminal acts in the United States law enforcement officers investigating
those acts will have more information in attempting to solve the crimes.

      However, according to the USNCB Compliance Officer, the USNCB has
not sought nor has the FBI authorized the USNCB to enter information into
NCIC files other than the Foreign Fugitive and Missing Person Files. Because
the career criminals identified in green notices are neither foreign fugitives
nor missing persons, they are not entered into NCIC. USNCB officials stated
that they have not sought approval from the FBI to enter information into
other NCIC files, such as the Sexual Offender or the Violent Gang and
Terrorist Organization File. When we asked the USNCB Director about
entering the subjects of green notices into NCIC, he said that doing so would
be a good idea.

       We believe that the potential threat to the United States posed by
individuals who are the subject of foreign-issued green notices makes it



                                     - 36 –
essential that information about them be shared with domestic law
enforcement agencies. We recognize, however, that because INTERPOL
green notices cover a variety of criminal types, the criteria for creation of a
green notice may not be identical to the criteria for entry into any specific
NCIC file. Therefore, we believe that the USNCB should: (1) review foreign-
issued green notices and determine if they are appropriate for inclusion in an
NCIC file, and (2) work with the FBI to obtain approval to enter green notice
subjects into other NCIC files and thereby increase the amount of INTERPOL
information available to law enforcement personnel in the United States. 62

       Foreign Diffusions Not Included in NCIC

       The USNCB also does not enter a lookout record into NCIC for the
subjects of foreign-issued diffusions. According to USNCB officials, the
USNCB enters subjects of foreign diffusions into TECS and CLASS to prevent
individuals from entering the country, but does not enter subjects of foreign
diffusions into NCIC because, in contrast to formal notices, other member
countries often do not ensure that the diffusion information remains accurate
and current. 63

       An INTERPOL official told us that notices have not always been
published in a timely manner and cited the lengthy review process, the need
to translate notices into the working languages used by INTERPOL, increased
workload, and limited resources. As a result, many countries send a
diffusion to immediately disseminate information pending submission and
approval of the more formal notice. For example, a member country may
send a diffusion that an inmate has escaped prison and there is reason to
believe the criminal may flee to the United States. In addition, a diffusion
may be sent when a child has been abducted. Diffusions can be issued
directly by INTERPOL member countries and do not undergo the extensive
review process that notices do.

      While INTERPOL has undertaken several initiatives to improve its
timeliness for notice publication, from June to December 2007 INTERPOL
took an average of 26 days from the date it received the notice application




       62
            As of February 28, 2009, there were 865 non-U.S. issued active green notices.
       63
           INTERPOL requires member countries to validate notices every 5 years and
publish updates and cancellations, but it does not require a similar formal review of
diffusions.




                                           - 37 –
to the date the notice was published. 64 In addition during our review of a
judgmental sample of 42 foreign diffusion messages, we noted that the
foreign country eventually obtained a formal notice in about one-third of the
cases. Moreover, the subjects of the wanted person diffusions were often
wanted for committing a violent crime and posed a threat to public safety if
they entered the United States.

       Not entering potentially dangerous criminals into NCIC reduces the
chance they will be detected should they try to enter the United States
illegally. Further, excluding crime victims (such as abducted children) from
NCIC reduces the likelihood that they will be located and returned safely.

       While we believe that entering such diffusion information only into
border screening systems is useful before a subject enters the country, it
does not help for subjects who may have already entered the country before
a diffusion could be issued or before the USNCB enters the information into
TECS and CLASS.

       We recognize that some member countries do not ensure that the
information contained in its diffusions remains accurate and current.
However, USNCB officials said they tell domestic law enforcement agencies
to immediately contact the USNCB before taking any law enforcement action
based upon INTERPOL information. Following this contact, the USNCB
verifies with the originating law enforcement agency that the information is
accurate and reliable. Given the risk inherent with allowing dangerous
criminals to enter or remain in the country, we believe that the USNCB
should ensure that appropriate data from diffusions are included in NCIC. In
doing so, the USNCB could consider entering the subjects of diffusions into
NCIC on a term basis and then removing the diffusion subject if a notice was
not forthcoming in a set amount of time.

Domestic Notices and Diffusions Not Included in U.S. Agency Databases

     When the USNCB becomes involved in a domestic case requiring an
INTERPOL notice or diffusion, USNCB analysts do not enter a lookout record




       64
           In January 2008, INTERPOL reported that it had reduced its average time to
process a notice to 10 days from the date they receive the notice application to the date the
notice is published.



                                           - 38 –
into NCIC. According to the USNCB Compliance Officer, domestic agencies
are responsible for entering their own lookout records into NCIC. 65

      The USNCB also does not create a lookout record in TECS or CLASS. 66
According to the USNCB Compliance Officer, the USNCB determined that it
did not need to enter a record into TECS because NCIC and TECS are
interconnected and when border control personnel submit a query in TECS,
that system automatically queries NCIC and should return a hit against the
record entered by the originating agency.

      When we asked a USNCB official how INTERPOL information was made
available to the State Department for use when reviewing visa and passport
applications, the USNCB official said that INTERPOL information was
exported from TECS to CLASS once a day. Further, the official said that if
the information was not in TECS, it was not in CLASS, and therefore, not
available to the State Department for visa and passport checks. 67
Subsequent to our exit conference, the USNCB official stated that the USNCB
had been unaware that its information was provided to the State
Department through NCIC.

      We recommend that the USNCB re-evaluate its policies and procedures
to ensure that information on subjects of domestic notices and diffusions are
made available to all domestic law enforcement and border screening
agencies.

Inadequate Access to Stolen and Lost Travel Document Information

    In July 2002 INTERPOL launched the Stolen and Lost Travel
Documents (SLTD) database to collect information on travel documents

       65
           In general, the FBI requires that the law enforcement agency enter records
immediately into NCIC when the conditions for entry are met. Records regarding federal
fugitives should be entered immediately (e.g., within 24 hours) into NCIC upon receipt of
information by the law enforcement agency after the decision to arrest or authorize to
arrest has been made.
       66
          Because identity records entered by the USNCB into TECS are electronically
disseminated to CLASS once a day, USNCB records that are not entered into TECS are not
included in CLASS.

       67
           The FBI told us that NCIC is available for visa and passport checks. According to
the FBI, the State Department conducts IAFIS fingerprint searches for all visa applicants.
These searches generate NCIC queries and INTERPOL would be notified of any matches to
its NCIC records. For passports, CJIS provides the State Department an extract of NCIC
records that contain offense codes specified by the State Department, including INTERPOL
records associated with those offenses.



                                           - 39 –
reported lost or stolen in member countries. 68 In a July 2006 report, the
GAO stated that passports from Visa Waiver Program countries had been
used illegally by travelers attempting to enter the United States. The GAO
recommended that DHS, along with appropriate agencies, require all visa
waiver countries to provide the United States and INTERPOL with non-
biographical data from lost, stolen, or blank passports. The GAO also
recommended that DHS develop a plan to make INTERPOL’s SLTD database
automatically accessible to law enforcement personnel at U.S. ports of entry.

      DHS has begun implementing the GAO’s recommendation. Utilizing
the pre-existing interface between TECS and the Advance Passenger
Information System (APIS), DHS, the State Department, the USNCB, and
INTERPOL implemented real-time, automated pre-screening of arriving
travelers against the SLTD. 69 When a passenger’s travel document
information potentially matches information in the SLTD system, a lookout
record is created in the TECS system. DHS then coordinates with the USNCB
to verify the validity of the document with the foreign country.

      In October 2007 DHS implemented a 30-day pilot program at John F.
Kennedy International Airport in New York City whereby inbound
international air passengers were pre-screened against the SLTD. During
the pilot period, the airport reported 129 instances in which a passenger’s
travel document information potentially matched information in the SLTD.
Of the 129 instances, 2 individuals were refused entry. In June 2008 the
USNCB reported that passengers aboard all inbound international flights
were being pre-screened against the SLTD. 70

       According to a State Department official detailed to the USNCB, the
USNCB is currently working with the State Department’s Bureau of Consular
Affairs to establish a direct interface between State Department components
and DOJ for access to the SLTD. This direct connection will provide State
Department personnel with critical information about lost and stolen travel

       68
        Information entered by the State Department into the SLTD about U.S. travel
documents reported lost or stolen is electronically updated three times per day.
       69
           APIS is the electronic data interchange system approved by DHS’s Customs and
Border Protection (CBP) agency for air and sea carrier transmissions to CBP for electronic
passenger, crew member, and non-crew member manifest data. APIS data includes
information that is routinely found on a passport, visa, or airline boarding pass, such as an
individual's name, birth date, country of residence, country of origin, and final destination.
       70
          The USNCB is coordinating with DHS to test the feasibility of expanded access to
the SLTD. The USNCB reported that the current plan is to initiate a pilot project at several
border points. However, various technical and resource issues have not been fully
addressed.


                                            - 40 –
documents and will be used in determining eligibility for a U.S. passport or
visa. However, the State Department official told us that this project is not
considered a high priority by the State Department, and he was unaware of
any specific plans to implement the initiative.

      State, local, and tribal law enforcement agencies do not have direct
access to INTERPOL’s stolen and lost travel document information. As a
result, these domestic law enforcement agencies may unknowingly
encounter a criminal who is fraudulently using a stolen or lost travel
document.

      According to the detailed State Department official, the USNCB has not
pursued including SLTD information directly into NCIC, thereby making the
information available to state and local law enforcement agencies. He
explained that INTERPOL rules do not allow for the downloading of SLTD
data into national databases because this would impede INTERPOL member
countries’ ability to automatically update the data and receive automatically
generated notifications when their records are viewed.

       We were also told by USNCB and INTERPOL officials that although
INTERPOL requires that member countries verify the accuracy of INTERPOL
information prior to taking any law enforcement action, some countries are
slow to respond to these verification efforts. Because of concerns over the
accuracy of the SLTD information and the unnecessary delay or potentially
adverse impact to an individual during an encounter with law enforcement
officers, the detailed State Department official said that the USNCB is
reluctant to include SLTD information in NCIC. 71

       We understand the need for SLTD information to be as current and
accurate as possible to avoid unnecessarily or adversely impacting innocent
individuals. However, as noted in the July 2006 GAO report, DHS officials
acknowledged that inadmissible aliens may enter the United States using a
stolen or lost passport from a visa waiver country. As a result, we believe
that the USNCB should develop an acceptable method to provide domestic
law enforcement agencies with access to the information in the SLTD. While
acknowledging the benefit of providing such access, USNCB officials said it is
essential that the information be updated in near-real time. Therefore, we
believe that the USNCB should explore options that provide a technological
solution to this issue, such as a direct connection between the INTERPOL
databases and NCIC. Using this configuration, when a law enforcement

       71
           The State Department official also informed us that some countries re-use and
re-issue passport numbers that have been reported as lost or stolen, and frequently the
originating foreign country does not update the SLTD to reflect that the passport number
has been re-issued.


                                          - 41 –
officer submitted a query to the NCIC database, the system would
automatically submit the query to the INTERPOL databases.

Identifying and Sharing New Information

       As a central access point for information from many law enforcement
sources, the USNCB is in a position to receive additional identifying
information on subjects of domestic notices and diffusions. For example, the
USNCB may have access to information provided by a foreign law
enforcement agency indicating that the subject of a domestic notice is using
additional aliases or fraudulent travel documents. This additional
information could augment the domestic agency’s records. For example, we
identified a U.S.-issued wanted person diffusion for an individual that is
wanted in New York for forcible rape. The wanted person diffusion indicated
that the subject had a foreign passport and provided the passport number.
The diffusion also reported that U.S. officials believed that the individual had
fled to the Middle East via an African nation. Another NCB responded to the
USNCB that the passport identified in the diffusion had expired and the NCB
provided the new passport number. However, the USNCB did not forward
the new passport number to the U.S. agency that submitted the diffusion
and did not update its electronic case file to include the new passport
number.

       Subsequently, two additional NCBs responded to the wanted person
diffusion that the subject had traveled through their countries. However,
because these responses referenced the fugitive’s new passport number and
the USNCB had not updated its records, the USNCB failed to respond to the
new information. As a result, opportunities for apprehending this criminal
may have been missed.

       Further, USNCB officials told us that when processing a domestic law
enforcement agency’s application for issuance of a notice or diffusion, they
verify that the domestic agency has appropriately entered a record into NCIC
for the subject. However, during our review of 101 domestic notices and
diffusions, we identified 7 instances in which the NCIC record contained
additional information about the subject that was not included on the
domestic-issued notice or diffusion. Although the domestic law enforcement
agencies did not always include the additional information in their
applications for issuance of the notice or diffusion, the USNCB should have
identified the information during its review of the NCIC record. As a result of
the USNCB’s failure, the information was not distributed to foreign law
enforcement.




                                    - 42 –
       We found that the USNCB has not developed processes for ensuring
that it identifies and shares additional information on subjects of domestic
notices and diffusions. As a result, additional information that could be used
to identify or apprehend criminals has not been shared with relevant law
enforcement agencies. Moreover, much of the information we identified
during our review of USNCB case files was easily obtained by the USNCB
through notice applications and searches of other law enforcement
databases.

       We recognize that identifying all such additional information currently
in the USNCB’s possession would be a time-consuming and labor-intensive
process for the USNCB. However, we believe that the USNCB must address
this issue to ensure that additional information it obtains that augments the
domestic law enforcement agency data should be made available to all
relevant agencies.

INTERPOL Database Direct Accessibility

      At the beginning of our audit, USNCB officials including the Director,
Deputy Director, and Assistant Director for the State and Local Liaison
Division informed us that the USNCB had made significant progress in
providing all domestic law enforcement officers with the ability to
independently query the INTERPOL databases through Nlets. Specifically,
the Assistant Director for the State and Local Liaison Division stated that a
majority of the 50 State Terminal Control agencies had signed Memoranda of
Understanding (MOU) that are required by the USNCB for organizations to
gain access to the INTERPOL databases. 72

      When we discussed this issue with the USNCB CIO, he clarified that
the USNCB had established an Internet connection between INTERPOL and
each state through Nlets. However, he said that each state must first
modify its local system before it can access the INTERPOL databases using
the Nlets connection. The USNCB Assistant Director for the State and Local
Liaison Division told us that some states were reluctant to make the
necessary modifications because of budget and other resource constraints.
In April 2008, the USNCB CIO stated that all 50 states were still in the
process of evaluating the initiative, modifying their systems, or testing the
connections, and therefore none of the states was able to directly access and
query the INTERPOL databases via Nlets. When we spoke to the Assistant
Director for the State and Local Liaison Division about this issue in

       72
           Nlets State Terminal Control agencies are law enforcement agencies in each state
that are assigned the responsibility for managing access to the Nlets network and ensuring
that Nlets’s system security and operational policies and procedures are carried out within
the state.


                                          - 43 –
June 2008, he stated that he believed that some states had implemented the
required system modification. However, he was unable to provide us with a
list of the states that had fully implemented the necessary system
modifications. After several attempts to confirm this information, the same
USNCB official stated in September 2008 that the USNCB had determined
that a limited number of states had fully implemented the system
modifications to permit law enforcement officers within these states to query
INTERPOL databases. Moreover, he stated that the Nlets connection
required state or local law enforcement officers to generate a separate query
for the INTERPOL databases in addition to a standard NCIC query. 73 The FBI
informed us that the Nlets configuration can provide access for tribal law
enforcement agencies that have been assigned an NCIC Originating Agency
Identifier (ORI). 74

       During the course of these meetings, we discussed an alternative
method for providing federal, state, local, and tribal law enforcement
agencies with access to INTERPOL information. Specifically, we asked if
USNCB officials had considered the feasibility of developing a direct
connection between the INTERPOL databases and NCIC. Using this
configuration, when a law enforcement officer submitted a query to the NCIC
database the system would automatically submit the query to the INTERPOL
databases. The USNCB CIO said that he believed that this would require
only relatively minor modifications to USNCB and NCIC systems and would
provide access to most law enforcement agencies that currently have the
ability to query NCIC, including many tribal law enforcement agencies.

       When we discussed these issues with officials at the FBI’s Criminal
Justice Information Services (CJIS), they initially expressed concern
regarding the logistics and potentially prohibitive cost of developing such an
interface. 75 However, the USNCB Director requested the FBI to coordinate
with the USNCB and establish a joint USNCB-FBI working group to evaluate

       73
            In April 2009, the USNCB reported that the Metropolitan Police Department of the
District of Columbia had provided its law enforcement officers with the ability to directly
query the INTERPOL databases. In addition, two states had modified their systems to allow
law enforcement officers to submit just one query to search NCIC and INTERPOL databases.
       74
           The USNCB reported that it has joined a DOJ working group on tribal issues to
evaluate the need and feasibility of providing tribal law enforcement agencies with access to
INTERPOL information. An NCIC ORI is a nine-character identifier assigned by the FBI NCIC
to an agency that has met the established qualifying criteria for an ORI assignment to
identify the agency in NCIC and Nlets transactions. An ORI identifies an agency by state
and location within a state.
       75
         Established in February 1992, the FBI’s Criminal Justice Information Services
(CJIS) manages NCIC.


                                           - 44 –
the feasibility of utilizing NCIC as a means to expand access to the
INTERPOL databases. In October 2008, the USNCB and CJIS agreed to
conduct a study to determine if NCIC provides a viable and useful
environment for delivering increased access to INTERPOL data, including
notice, stolen motor vehicle, and lost and stolen travel document
information.

       In April 2009, the USNCB reported that it was in the final stages of
testing the requisite infrastructure upgrades for the study and had requested
sample data from CJIS to begin testing the process. The USNCB said it
anticipated that it would begin the initial testing in May 2009, which would
consist of simulating 1 day’s worth of NCIC queries against the INTERPOL
databases. With an estimated 7 million NCIC transactions per day, the
USNCB, FBI, and INTERPOL General Secretariat will be evaluating
performance response times to ensure the process conforms to NCIC
criteria. In addition, the working group will measure the query-to-hit ratios
to evaluate the value or benefit of providing INTERPOL information to NCIC
users. Depending on the success of the initial data match exercise,
additional comparisons may be conducted to obtain a better statistical
baseline to justify full implementation.

       Standard queries made by law enforcement officers to NCIC return
information contained in NCIC’s files, such as its wanted person and gang
files. After law enforcement officers run an NCIC query, unless they have
additional information or a reason to believe that an individual may be a
person of interest to another country, there is no way for them to know that
they should perform an additional query of INTERPOL’s databases to
potentially obtain additional information. We believe that requiring officers
to perform multiple queries increases the risk that information on these
subjects will not reach frontline law enforcement officers. As a result, we
believe that the USNCB should either ensure that all INTERPOL information
is contained within NCIC or develop a method, such as a direct connectivity
through NCIC, to ensure that all domestic law enforcement have access to
the INTERPOL databases using one query. Therefore, while the USNCB
works with the FBI to assess the feasibility of a direct connection with
INTERPOL through NCIC, the USNCB should ensure that INTERPOL
information is entered into NCIC in a complete, timely, and accurate
manner.

USNCB Processing of INTERPOL Information

      We reviewed a judgmental sample of 216 cases consisting of
115 foreign and 101 domestic notices and diffusions that were active from




                                   - 45 –
October 1, 2005, to May 29, 2008. 76 We examined the notices and
diffusions to ensure that the USNCB entered the INTERPOL information into
the appropriate U.S. agency databases in a timely manner. Further, we
reviewed the cases to determine if basic information (name, date of birth,
passport number and country of issuance, other identification numbers such
as driver’s license number, warrant information, and physical characteristics)
was consistent in all of the affected databases. 77

      We found that, in general, the USNCB’s processing of domestic-issued
notices and diffusions ensured the accuracy of the data, and we identified
virtually no errors in the 101 domestic cases we tested. 78 However, our
examination of the USNCB’s processing of foreign notices and diffusions
revealed that the agency has not implemented adequate controls or
processes to ensure that the INTERPOL information it makes available to
domestic agencies is accurate, current, and timely. Consequently, the U.S.
agency systems likely contain out-of-date or incomplete data, include
information on individuals for whom no law enforcement agency has a
current investigative interest, and may violate INTERPOL’s guidelines for
handling information. Our results are discussed in detail below.

INTERPOL Information Not Shared

      The USNCB has established guidelines for the inclusion of foreign-
issued notice and diffusion information into TECS and NCIC.

      We examined whether the USNCB adequately entered the foreign-
issued notice and diffusion information into U.S. agency databases. We
assessed the USNCB’s processing of 92 foreign-issued notices and diffusions
that met the USNCB’s guidelines for entering a lookout record into DHS’s
TECS. 79 As shown in Exhibit 3-2, our analysis revealed that 21 of the
92 cases, or approximately 23 percent, did not have a corresponding lookout
record in TECS.


       76
          Our sample consisted of 42 domestic notices, 59 domestic diffusions, 62 foreign
notices, and 53 foreign diffusions.
       77
            For more a detailed description of our methodology, see Appendix I.
       78
          Because the USNCB does not enter the subjects of domestic notices into any U.S.
agency systems, our review of the USNCB’s processing of domestic notices and diffusions
was limited to entries into its internal case management system.
       79
          We originally selected 115 foreign-issued notices and diffusions, but 23 did not
meet the USNCB’s guidelines for entry into TECS. According to the USNCB, some specific
notices and diffusions contain information that may not be suitable for entry in screening
databases. For additional information on our methodology, see Appendix I.


                                           - 46 –
                                   EXHIBIT 3-2
                               USNCB Inclusion of
                      Foreign Notices and Diffusions in TECS
                          Number of Records Eligible for Entry in TECS = 92




                                        23%

                                                        77%




                                  TECS Record Entered   No TECS Record Entered

            Source: OIG analysis of USNCB data and TECS records

      As shown in Exhibit 3-3, we examined the USNCB’s processing of
52 foreign-issued notices and diffusions that met the USNCB’s current
guidelines for entering a lookout record into the FBI’s NCIC. 80 We found that
45 of the 52 cases, or approximately 87 percent, did not have a
corresponding lookout record in NCIC.




       80
          We originally selected 115 foreign-issued notices and diffusions, but 63 did not
meet the USNCB’s criteria for entry into NCIC. According to the USNCB, some specific
notices and diffusions contain information that may not be suitable for entry in screening
databases. For additional information on our methodology, see Appendix I.


                                                - 47 –
                               EXHIBIT 3-3
                           USNCB Inclusion of
                  Foreign Notices and Diffusions in NCIC
                     Number of Records Eligible for Entry in NCIC = 52




                                       87%

                                                       13%




                             NCIC Record Entered   No NCIC Record Entered

      Source: OIG analysis of USNCB data and NCIC records

      We also found that the USNCB had not entered a lookout record into
NCIC for 22 of the 24 foreign red notices in our sample of 115 cases. As a
result, in the cases we reviewed the USNCB had not entered lookout records
into NCIC for approximately 92 percent of the fugitives for whom extradition
was sought from a foreign country.

       We discussed these issues with USNCB officials, and they agreed with
our findings but were unable to provide an explanation for the 21 records
missing from TECS. However, for the 45 records missing from NCIC, the
officials said the USNCB was erroneously applying a too restrictive set of
criteria for including the records in NCIC. As a result, many records were not
entered into NCIC because the USNCB believed that the INTERPOL records
did not contain the necessary data. Specifically, the USNCB erroneously
believed that the subject’s height, weight, and hair color were required for
entry. In fact, the FBI does not require the USNCB to populate these fields if
either the subject’s photograph or fingerprints are available instead.

       As a result of our discussions with USNCB officials, the USNCB made
changes to its computer systems to ensure that all appropriate subjects
would be entered into NCIC in the future. In addition, the USNCB worked to
identify the subjects of foreign notices in its existing cases that had been
omitted from TECS and NCIC and made the necessary entries. The USNCB
reported that its initial review identified 2,650 files that required additional
review for possible entry of a record into TECS and NCIC. In August 2008,
the USNCB assigned staff to review the subjects and make the appropriate


                                           - 48 –
entries. According to the USNCB Director, the USNCB completed its review in
October 2008 and identified and corrected 688 and 481 records that required
entry in TECS and NCIC, respectively.

Untimely Entry of Information into U.S. Agency Databases

       According to USNCB internal policies, if a foreign notice or diffusion
contains sufficient information and meets the criteria for entry in TECS and
NCIC, USNCB analysts are required to enter a lookout record immediately
upon receipt of the foreign communication. To assess the USNCB’s efforts at
making these entries in a timely manner, we calculated the length of time
from the date that the notice or diffusion was first published or received by
the USNCB to the date the USNCB entered a lookout record into TECS or
NCIC. Based on our review of TECS and NCIC records concerning subjects
of foreign notices or diffusions, we found that the USNCB frequently entered
these records in an untimely manner.

      As shown in Exhibit 3-4, of the 71 lookout records entered in TECS by
the USNCB, 31 percent were entered within 1 day, while more than
40 percent were entered more than 30 days after initial receipt. In addition,
of the seven lookout records that the USNCB entered into NCIC, none were
entered within 1 day. In fact, the majority were entered over 30 days after
the USNCB first received the notice or diffusion.

                         EXHIBIT 3-4
     USNCB Inclusion of Foreign Notices and Diffusions from
                       Domestic Systems
                           TECS                    NCIC
                   Records Percentage      Records Percentage
1 day or less         22         31           0           0
2-5 days               6          8           0           0
6-10 days              4          6           0           0
11-30 days             8         11           2          28
31-90 days            18         25           3          43
Over 90 days          13         18           2          28
      81
Total                 71         99           7          99
Source: OIG analysis of USNCB, TECS, and NCIC records

      We discussed this issue with USNCB officials, who agreed with our
findings and attributed these delays to the USNCB’s increasing workload,
limited resources, and the need to translate notices and diffusions into
English. According to the USNCB Assistant Director for the INTERPOL

      81
           The percentages did not total 100 percent due to rounding differences.


                                           - 49 –
Operations and Command Center (IOCC), the number of notices processed
each month increased from an average of 230 per month in fiscal year
(FY) 2007 to an average of 309 per month in FY 2008 or 34 percent.
However, the USNCB did not receive additional permanent staff during this
time, which, according to the USNCB Assistant Director, caused delays in its
processing of notices and diffusions.

      According to a USNCB official, as of June 2008 the USNCB had a
backlog of 119 new foreign notices that required initial review for inclusion in
domestic systems. When we brought this situation to the attention of the
USNCB Director, he stated that he had been unaware of the backlog in
processing notices and diffusions. As a result, he said he would adjust staff
assignments, reassign staff from other sections, and hire two contractors.

Removal of Foreign Notice and Diffusion Information from U.S. Databases

       According to its internal policies, when the USNCB receives notification
of the cancellation of a notice or diffusion, a USNCB analyst is required to
immediately delete the corresponding lookout records in NCIC and TECS.
Using our sample of foreign notices and diffusions for which the USNCB
entered a lookout record in TECS or NCIC, we assessed the USNCB’s efforts
at ensuring the timely removal of INTERPOL information from the U.S.
systems. We reviewed the length of time from the date that the notice or
diffusion was cancelled to the date the USNCB removed the domestic lookout
records.

        We found that the USNCB frequently failed to remove records in a
timely manner regarding subjects of foreign notices or diffusions from these
systems, as detailed in Exhibit 3-5. 82 For 25 of the 71 cases the USNCB
entered into TECS, the originating government requested cancellation of the
initial notice or diffusion. Of these, the USNCB removed just five records
(20 percent) within 1 day. Further, it took the USNCB more than 5 days to
remove the majority, or approximately 44 percent, of the lookout records.
Of the seven lookout records that the USNCB entered into NCIC, two of the
originating notices or diffusions had been cancelled by the originating
government. The USNCB removed these two NCIC lookout records within
1 week.




      82
          Because the USNCB requires that its analysts remove a lookout record from U.S.
agency databases immediately upon receipt of the communication, we considered them to
be timely if the record was removed within 1 day.


                                         - 50 –
                        EXHIBIT 3-5
     USNCB Removal of Foreign Notices and Diffusions from
                   U.S. Agency Systems
                         TECS                     NCIC
                 Records Percentage      Records Percentage
1 day or less        5          20           0          0
2-5 days             9          36           2         100
6-10 days            7          28           0          0
11-30 days           2           8           0          0
31-90 days           1           4           0          0
Over 90 days         1           4           0          0
Total               25         100           2         100
Source: OIG analysis of USNCB, TECS, and NCIC records

       We discussed this issue with USNCB officials who agreed with our
findings and again attributed the delays in removing the records to a lack of
sufficient resources and increasing workload.

      However, it is essential that the USNCB ensure that the information it
provides to law enforcement agencies remains current. If the USNCB fails to
do this, domestic systems will contain out-of-date or incomplete data and
may include information on individuals for whom no law enforcement agency
has a current investigative interest. Retaining incomplete or out-of-date
data also increases the probability that the information may violate
INTERPOL’s guidelines for handling information. INTERPOL has established
record-purging requirements to help ensure that data is not improperly
retained or utilized. In addition, according to USNCB officials, INTERPOL’s
Rules for Processing Information (RPI) take into consideration member
countries’ privacy laws.

Inconsistent or Inaccurate Records

       Using our sample of 92 foreign-issued notices and diffusions that met
the criteria for entry in TECS or NCIC, we examined U.S. domestic system
records to determine if basic information, including name, date of birth,
gender, passport number and country, warrant information, additional
identification numbers, and physical characteristics, was shown consistently
in all of the affected databases. We compared the information contained in
the notice or diffusion to that entered in TECS, NCIC, or ENVOY records. As
shown in Exhibit 3-6, within the 92 records we reviewed we identified
53 inconsistencies in the information contained in the domestic system
records. 83
      83
          Not all of the 92 records we reviewed contained inconsistencies. Some records
contained multiple inconsistencies.


                                         - 51 –
                                    EXHIBIT 3-6
                          Foreign Notice and Diffusion
                         Sample Record Inconsistencies
                                                      Record
            Record Field                        Inconsistencies 84
            Name                                         0
            Date of Birth                                3
            Gender                                       2
            Passport Number and Country                  5
            Warrant Information                         22
            Additional Identification Numbers            7
            Physical Characteristics                    14
            Total                                       53
            Source: OIG analysis of USNCB data

      We discussed these inconsistencies with USNCB officials, who agreed
with our findings but were unable to provide an explanation for the errors.
USNCB internal case management policies require that a supervisor review
both the NCIC and TECS entries within 48 hours of the entry in the
respective systems. Further, upon completion of the review the supervisor
is required to document their review in the USNCB case file. During our
review of the USNCB case files, we noted that most of the case files did not
have the required documentation indicating a supervisory review. Moreover,
during our interviews of USNCB analysts and supervisors, some stated that
supervisory review was lacking.

       Errors and inconsistencies in database records that should contain
identical information can hamper investigations or delay law enforcement
agents in their efforts to determine if individuals they encounter are a
positive match for the subject of a notice or diffusion. In addition, errors
and inconsistencies can contribute to the misidentification and delay of an
innocent person or the inappropriate release or admittance of a dangerous
individual. Therefore, we recommend that the USNCB ensure that all of its
employees, including detailees, are properly trained on the supervisory
review process. In addition, the USNCB should ensure that necessary
supervisory reviews are conducted and documented.




       84
           Each entry in this column represents a notice or diffusion for which we determined
that the information contained within the notice or diffusion was not in agreement with
NCIC, TECS, or ENVOY. It is possible for one record to have more than one error. The
overall total is the number of field errors.


                                          - 52 –
INTERPOL Rules for Processing Information

      INTERPOL and its member countries have established rules for the
maintenance, retention, and deletion of INTERPOL information in INTERPOL
and domestic databases. INTERPOL permits the inclusion of INTERPOL data
in domestic data systems, such as DHS’s TECS and FBI’s NCIC. However,
INTERPOL requires the NCBs to control the use of data and ensure that any
shared data is accurate, current, and timely. 85 Moreover, INTERPOL has
established record-purging requirements to comply with its RPI and to help
ensure that obsolete data is not retained or improperly utilized. INTERPOL
requires that the NCBs review the systems to which they provide information
to verify compliance with the INTERPOL RPI.

      According to the INTERPOL RPI, NCBs are required to ensure that each
organization they designate to access or receive INTERPOL information is
aware of and able to comply with the INTERPOL rules, such as ensuring that
data is accurate, current, and timely. In addition, the NCBs are required to
verify, to the extent possible, compliance with the rules. The USNCB
General Counsel told us that the USNCB requires each organization that
accesses or receives INTERPOL data to sign an MOU in which they agree to
abide by the INTERPOL RPI. However, he stated that the USNCB does not
review these systems to verify that the information has been appropriately
maintained or deleted. As a result, the USNCB is unable to verify whether
the domestic organizations who have access to INTERPOL data comply with
the terms of the RPI.

       In one instance, USNCB officials told us that the USNCB had allowed
DHS to include biographical data and fingerprints from INTERPOL notices in
its Automated Biometric Identification System (IDENT). USNCB and DHS
officials discussed the conditions under which DHS may include INTERPOL
information in the IDENT system, as well as the requirements for the
information’s maintenance and retention. The USNCB and DHS documented
their agreement in an e-mail. According to the agreement, the USNCB
permitted DHS to retain the INTERPOL fingerprints and biographical
information if the information already matched an existing IDENT record
even if the notice was cancelled. 86 However, the agreement stipulated that
INTERPOL information for which there was no match in IDENT should be
deleted following the closure or cancellation of a notice.

      85
          According to INTERPOL’s rules, the NCBs must update information that has been
incorporated into other systems at least weekly.
      86
           When a notice is canceled, DHS annotates the IDENT record to document that the
individual is no longer wanted, but that the individual may have a criminal history in a
foreign country.


                                         - 53 –
       During our review, USNCB and DHS officials stated that regardless of
the existence of a pre-existing record, DHS was retaining all information on
all notices that indicated that the subject was violent. When we asked
USNCB officials if this practice complied with their agreement with DHS, they
were uncertain, although they said the practice did not appear to comport
with their electronic agreement with DHS or the RPI.

      According to USNCB officials, as a result of our findings they worked
with DHS to identify and update or remove those records that were not
consistent with the written agreement and INTERPOL’s rules. The USNCB
and DHS identified 265 records that had been retained in the IDENT system,
the majority of which should be removed. DHS has agreed to delete these
records and provide the USNCB with written confirmation of the deletion.

       USNCB officials also reported that they met with DHS and FBI officials
and recently designated the FBI’s IAFIS as the primary domestic database
for all INTERPOL fingerprints. To ensure that DHS retains access to
INTERPOL fingerprint information, the USNCB intends to use the pre-existing
interface between IAFIS and IDENT to facilitate the exchange of INTERPOL
fingerprints. Further, the USNCB indicated that it has expanded the number
and types of fingerprints that will be shared and will allow DHS to access
INTERPOL criminal history data. The USNCB anticipates that this
information will be used by law enforcement agents at U.S. borders to
determine admissibility of individuals.

      During our review of the USNCB’s case files, we also noted that the
USNCB requested that the FBI remove the USNCB-provided fingerprints from
IAFIS when a notice or diffusion was cancelled. However, there is no policy
that requires the FBI to provide the USNCB with written confirmation of
record removals, and the USNCB is not receiving this information. As a
result, the USNCB is unable to verify that the INTERPOL information it
provided for entry into IAFIS remains current and accurate. When we
discussed this with the USNCB Compliance Officer, she acknowledged this
weakness and stated that the USNCB had not established a formal process
to confirm that fingerprint records have been removed from IAFIS.
However, the USNCB agreed to work with the FBI to establish a formal
process to add and remove fingerprints from IAFIS that included a written
confirmation of removal.

INTERPOL Enhancements to Information Exchange Efforts

      As noted above, during our discussions with USNCB officials regarding
the deficiencies in USNCB management and control of INTERPOL data, these


                                   - 54 –
officials attributed many of the problems and delays to the need to translate
documents, increasing workloads, and limited resources, including personnel
and funding. However, during our review of the USNCB’s procedures we
found that its manual data entry processes were overly labor-intensive,
time-consuming, and prone to errors and that these issues contributed to
the USNCB’s deficiencies.

      According to USNCB officials, the notices and diffusions that it receives
are often electronic messages with documents attached. To share the
information electronically with domestic law enforcement agencies, USNCB
analysts must copy or enter the data from the message or document – field-
by-field –into the appropriate databases. When the USNCB needs to send a
notice or diffusion to INTERPOL or any member countries, it must extract the
data from its databases and convert the information into an electronic
message or document.

      When we discussed this issue with INTERPOL officials in Lyon, France,
they acknowledged that this process was inefficient and prone to errors.
INTERPOL officials said that they had problems similar to those experienced
at the USNCB, including issues related to notice and diffusion translation,
workload, and limited resources. As a result, INTERPOL has experienced
delays and has a significant backlog in publishing notices and disseminating
information. According to INTERPOL data, as of August 2008 the time
required for publishing a notice in at least one of the official INTERPOL
languages was approximately 2 weeks. The delay to publish the notice in
the other official languages was 60 days. INTERPOL officials also stated that
from 2001 to 2007 there was more than a 200-percent increase in the
number of message requests that contributed to the backlog and
overwhelmed INTERPOL resources.

      According to INTERPOL General Secretariat officials, redundant data
entry processes have been necessary because there is no accepted standard
within the international law enforcement community for the structure and
transmission of electronic police information. INTERPOL officials stated that
they worked with member countries and in 2008 defined such a standard for
INTERPOL. In addition, INTERPOL has designed a new messaging system
for member countries based on the new standard. 87 When implemented,
this new system, I-Link, will replace INTERPOL’s current system, the
INTERPOL Criminal Information System. According to INTERPOL officials,
because all member country transmissions will use the new standard, the


      87
          Once the new system is implemented by each member country, they will be
required to use the new standard for all communication concerning INTERPOL information.



                                         - 55 –
I-Link system will automate the notice and diffusion process. As a result,
I-Link should eliminate the manual entry and manipulation of data by both
INTERPOL and USNCB analysts.

       Further, INTERPOL officials anticipate that the I-Link system should
improve data quality because the new system will use a computer program
to analyze incoming information against a set of business rules. 88 INTERPOL
officials believe the business rules will help to ensure data integrity for
information regarding the subject of the notice, including physical
characteristics, name, and date of birth. For example, if a field should
contain only numeric data, the system will reject a record that contains
letters or any symbol other than numerals. Moreover, to reduce the need
for human translation services, INTERPOL anticipates incorporating software
technology to facilitate the conversion of various non-INTERPOL languages
into one of the four languages used by INTERPOL.

      INTERPOL officials also stated that the new I-Link system will provide
member countries with the ability to obtain a master list of the notices that
are current and available for them to view. In contrast, the current data
system does not provide member countries with a comprehensive and
current list of all active notices and diffusions to which they have been
granted access. 89 As a result, the USNCB is unable to ensure that it has
shared with law enforcement agencies all information to which it has been
granted access by member countries.

      INTERPOL officials anticipate that each of these improvements should
dramatically reduce the time it takes for INTERPOL and member countries to
process and share law enforcement information. As a result, they expect to
reduce the need to translate documents, thereby saving personnel and other
resources. Moreover, INTERPOL officials reported that once the I-Link
system is implemented, they anticipate that staff currently performing
manual data entry may be reassigned to perform more critical, higher-level
analysis such as criminal trend analysis.

      According to the USNCB, I-Link was launched on January 19, 2009,
and underwent a 2-month trial during which the USNCB tested the red
notice form application. Although a few of the NCBs are using I-Link, the
USNCB stated that most of the NCBs were still testing the I-Link system.

       88
           A business rule is an automated information technology function in which the
record is analyzed for specific deficiencies and compliance with established criteria.
       89
          Each member country may designate which countries may access the law
enforcement information it shares with INTERPOL. As a result, none of the member
countries have identical access to INTERPOL information.


                                          - 56 –
      However, during the USNCB’s testing period, the USNCB found that
the program was not easy to use and it identified several legal issues related
to the wording of the notices. In addition, the USNCB identified significant
problems with data integrity and accuracy. The USNCB stated that it has
reported these issues to the INTERPOL I-Link project manager. The USNCB
continues to attend the I-Link advisory group meetings and is working with
INTERPOL to resolve the issues. However, the USNCB did not provide an
estimated date that it would implement the I-Link system.

USNCB Quality Assurance Efforts

      Beginning in 1994, INTERPOL implemented a program to review the
operations of each member country’s National Central Bureau. These “Good
Practices” reviews are conducted by a team of representatives from other
NCBs, the INTERPOL General Secretariat, and the relevant sub-regional
bureau. During each review, the subject NCB is evaluated against
24 agreed-upon service standards. 90

      The USNCB was last evaluated in January 2006. During this review,
the INTERPOL review team made eight recommendations, including
recommendations related to the quality of USNCB messages sent to other
INTERPOL members and the USNCB’s internal monitoring of the progress of
ongoing cases.

       For example, the INTERPOL review team recommended that USNCB
supervisors conduct regular reviews of a sample of outgoing messages
regarding notices and diffusions to ensure that the messages are correctly
classified and worded, and provide all the pertinent information. The USNCB
senior management team agreed with the findings and implemented an
updated internal quality control process in February 2008. According to the
USNCB Compliance Officer, the USNCB had not conducted an internal quality
assurance review during the prior 3 to 4 years because of a lack of
resources.

      Under the USNCB’s quality assurance program implemented as a result
of the INTERPOL review, each USNCB division is responsible for preparing
and submitting a self-evaluation package once a year. The self-evaluation
package consists of a questionnaire completed by senior management and a
Quality Assurance Review checklist completed by each caseworker in the

       90
            These service standards are designed to evaluate each member country’s NCB
ability to perform the functions as a representative of INTERPOL, including adequate
governmental support for operations, translation capability, and sufficient staffing levels. In
addition, the service standards address INTERPOL notice and diffusion messaging
requirements, including timeliness, accuracy, and responsiveness.


                                           - 57 –
division. In addition, the evaluation includes a review of the opened cases
assigned to the division in the previous 12 months. The USNCB’s process
reviews 1 percent or, at a minimum, two to three cases from each
caseworker.91 The supervisor reviews each selected case to ensure
compliance with USNCB guidelines and to ensure that standard case
management practices are being followed. If any inaccuracies or errors are
identified during the file review, the supervisor must ensure that the errors
are corrected. The USNCB believes that through this review it will be able to
recognize and correct errors and inaccuracies and identify potential
employee training needs.

       According to the USNCB, following the first cycle of quality assurance
reviews, which occurred during the last half of FY 2008, the USNCB identified
several weaknesses in its processing of INTERPOL information and made
modifications to its procedures, including requiring supervisory approval
prior to the closure of a case. In addition, in February 2009, the USNCB
implemented an additional monthly review of its caseworkers.

       According to the NCIC operating manual, the USNCB is required to be
audited at least once every 3 years by the FBI to verify compliance with FBI
policies and regulations. The USNCB was last audited in August 2008 by the
FBI and was found to be out of compliance in three areas, including the
untimely entry of NCIC records and a lack of a required user agreement with
one of its liaison offices.

      We believe that the USNCB’s implementation of a new quality
assurance program is an important step to enhancing the accuracy of its
information. The new processes require a more thorough review of cases
and more documentation of the reviews completed. They also require more
involvement in the review process by division supervisors and assistant
directors. The inaccuracies that we identified in USNCB’s case files
underscore the need for these additional actions to ensure that the
information provided by the USNCB is reliable. Therefore, we recommend
that the USNCB to continue to conduct the monthly and annual reviews of its
caseworkers. In addition, we recommend that the USNCB continue to
require ongoing supervisory review of its caseworkers’ work products,
including supervisory approval of NCIC and TECS records.




      91
          The USNCB reported that it opened 24,345 new cases in FY 2008. Therefore, it
anticipates that approximately 243 cases will be reviewed during the FY 2009 quality
assurance review process.


                                        - 58 –
Conclusion

       It is essential that the USNCB make international law enforcement
information available in a timely and accurate way to law enforcement
personnel and to officials who make decisions about the admissibility of
individuals into the United States. We found that the USNCB has not made
critical international criminal information available to all appropriate law
enforcement agencies, thereby increasing the risk of international criminals
entering the United States.

      The USNCB relies on manual data entry processes to add, modify, or
delete information from each of the U.S. agency databases. This manual
data entry process creates delays in entry of information and is susceptible
to transposition errors, missed data, and data inaccuracies. During our
review, we found that the USNCB has not instituted controls or processes to
ensure that the information it has made available to domestic agencies is
accurate, complete, or current. Consequently, these systems often contain
out-of-date or incomplete data, include information on individuals for whom
no law enforcement agency has a current investigative interest, and may
violate the other member countries’ privacy laws.

       While USNCB officials attribute many of the problems and delays in
processing INTERPOL information to the need to translate documents,
increasing workload, and limited resources, the manual data entry processes
they use are overly labor intensive, time-consuming, and prone to errors.
The USNCB implemented the manual processes because of the format of the
information it receives from INTERPOL and other member countries. To
address this weakness, INTERPOL officials in Lyon, France, are working to
implement a new standard for the transmission of international law
enforcement information. In addition, INTERPOL is in the process of
developing a new messaging system for member countries’ use that it
anticipates will dramatically enhance INTERPOL’s and member countries’
ability to process and share law enforcement information.

      Because the USNCB currently relies on manual data entry processes,
the USNCB should ensure that international criminal information, including
notices and diffusions, are entered in a timely and accurate manner into
appropriate domestic systems such as TECS, NCIC, and CLASS.
Additionally, the USNCB should continue to work with the FBI to assess the
feasibility of providing all domestic law enforcement officers with access to
INTERPOL information through a direct connection with INTERPOL through
NCIC using one query.




                                    - 59 –
        In addition, to reduce its dependence on manual data entry processes,
the USNCB should continue to work with INTERPOL to develop and
implement an effective information technology system such as I-Link that
will allow the USNCB to electronically add, modify, and delete INTERPOL
information from domestic data systems. Pending the results of the
feasibility assessment of a direct connection between INTERPOL and NCIC
using a single query, the USNCB should assess the feasibility of developing
the capability for electronically adding, modifying, and deleting INTERPOL
information from domestic systems, including TECS, NCIC, and CLASS.

Recommendations

We recommend that the USNCB:

  8.    Review current and incoming green notices and determine if they
        are appropriate for inclusion in NCIC.

  9.    Modify its policies and procedures regarding notice and diffusion
        information to ensure that the appropriate data is shared with U.S.
        agency databases and is made available to domestic law
        enforcement personnel in a timely manner.

  10.   Develop procedures to ensure that any additional information the
        USNCB obtains that augments previously provided domestic law
        enforcement agency data is made available to all relevant agencies.

  11.   Provide domestic law enforcement agencies with access to
        INTERPOL information on stolen and lost travel documents.

  12.   Work with the FBI to assess the feasibility of developing and
        implementing a direct connection between the INTERPOL databases
        and NCIC.

  13.   Review existing USNCB-generated lookout records to ensure that
        the notice and diffusion information is accurate and consistent,
        including those identified by the OIG in this review as being
        inaccurate or inconsistent.




                                   - 60 –
14.   Ensure that the notice and diffusion information retained in DHS’s
      IDENT system and the FBI’s IAFIS is compliant with the INTERPOL
      Rules for Processing Information. The USNCB should also
      coordinate with DHS and the FBI to implement an agreement
      regarding the inclusion of fingerprints and photographs in their
      internal databases. This agreement should describe the type of
      information to be shared, appropriate uses, retention period,
      removal requirements, and written confirmation of removal.

15.   Develop and implement automated processes to transmit INTERPOL
      information to U.S. agency systems.

16.   Eliminate the backlog of notices and diffusions and develop
      procedures to regularly monitor the timeliness of workflow
      processes.




                                - 61 –
III. CONTROLS OVER USNCB CASE INFORMATION

       The USNCB has not developed processes to ensure that
       subjects of foreign notices or diffusions have not entered
       the United States subsequent to the receipt of the notice
       or diffusion. Additionally, the USNCB has not fully
       developed the capability to identify patterns and evolving
       trends in criminal activities, such as transnational
       organized crime. As a result, the USNCB does not use
       INTERPOL information to its fullest extent. We also
       identified weaknesses with ENVOY, the USNCB’s internal
       case management system, such as poor record retention
       and disposal, inappropriate case mergers, inadequate
       management reporting and statistics, and a lack of audit
       trails.

USNCB Internal Case Management

      As previously discussed, when the USNCB receives domestic and foreign
law enforcement agency requests, USNCB analysts are responsible for
ensuring that the request is entered into ENVOY, the USNCB’s case
management system; the necessary entries are made into the other domestic
lookout systems; and the case is assigned to the appropriate USNCB division
or section. Case workers conduct additional, more extensive queries of
domestic databases to provide the analysts with additional information,
including:

            •   immigration status information, such as information on lawful
                permanent residents, naturalized citizens, violators of
                immigration laws, and deportees; and

            •   criminal history, such as prior arrests and convictions.

      In addition, if the foreign request or notice relates to drug trafficking
or drug seizures, the USNCB analyst may request that a DEA agent detailed
to the USNCB query the DEA’s Narcotics and Dangerous Drugs Information
System (NADDIS). 92 The analyst also has access to commercial databases
to review additional information, including employment history and financial
records. If these additional database searches reveal information on the
subject that might assist in the investigation or generate a “lead,” the case

       92
          The Narcotics and Dangerous Drugs Information System (NADDIS) is a
centralized automated file of summaries of reports on 5.9 million subjects of interest to the
DEA, including individuals, businesses, vessels, aircraft and selected airfields identified
through the DEA investigative reporting system, and related investigative records.


                                           - 62 –
is assigned to an agent within the appropriate USNCB division who will
coordinate with the appropriate law enforcement agency for investigation.

       According to the USNCB’s internal guidance, analysts are required to
conduct these additional searches on most foreign-issued notices and
diffusions, including red, green, blue, yellow, black, and the U.N. Special
notice. 93 During our review of a judgmental sample of 115 foreign notices
and diffusions active from October 1, 2005, through May 29, 2008, we
identified 106 that required additional searches of the databases. Of these
106, we noted that 55 did not have evidence of all of the required queries.
In addition, we were told by the supervisor of the Notice Section that as of
June 4, 2008, the USNCB had a backlog of more than 2,600 foreign notices
and diffusions that required additional searches. We brought these backlogs
to the attention of the USNCB Director, who stated that he had been
unaware of the backlogs. In response to our inquiry, he adjusted staff
assignments, reassigned staff from other sections, and hired two
contractors.

       USNCB officials also told us that they do not have a process by which
they continue to conduct searches of the databases to ensure that the
subjects of the foreign notices or diffusions have not entered the United
States subsequent to the receipt of the notice or diffusion. The USNCB
Director agreed that continuing to attempt to locate these individuals through
ongoing investigation was important, but that the USNCB did not have
sufficient resources to address this issue.

      We believe that these additional queries and searches could provide
valuable information for U.S. law enforcement agencies and potentially assist
them in identifying, locating, and apprehending these criminals. For
example, the subject of a red notice issued by a foreign country could be
using a stolen travel document, enter the United States undetected, and
establish permanent residency. If the USNCB continued to conduct searches
of the databases, the subject might be located once the travel document is
reported as stolen.

     We agree that conducting individual queries and searches is a time-
consuming and labor-intensive endeavor. However, we believe that the
USNCB should explore alternative methods that incorporate technology such



       93
          USNCB analysts do not perform additional queries and searches for orange
notices. If a black notice or diffusion contains names, fingerprints, or numbers, such as a
passport, which might be used to identify human remains, the USNCB analysts are required
to perform additional searches of databases.


                                          - 63 –
as batch queries to ensure these additional queries and searches are
performed. 94

Domestic Case Enhancement

       Part of the USNCB’s mission is to coordinate and integrate information
for investigations of an international nature and attempt to identify
international criminal patterns and trends to be more prepared for emergent
illegal activities. However, during interviews with USNCB officials, they
stated that while the identification of criminal patterns and trends is part of
the USNCB’s mission, the organization currently does not have sufficient
resources to address it. We believe that these are essential functions of the
USNCB, and that by not conducting these analyses, significant opportunities
are being missed to enhance the usefulness of INTERPOL information.

      During our review, we discussed with USNCB officials the potential
benefits associated with attempting to determine if the subject of a foreign
notice or diffusion is also a person of interest in another domestic law
enforcement agency’s investigation. For example, the subject of a foreign
red notice who is wanted for drug trafficking may also be a person of
interest in a money laundering investigation being conducted by the FBI.

      USNCB officials agreed that it would be beneficial to query other
agency databases (such as the FBI’s or DEA’s case systems) to determine if
other U.S. law enforcement agencies had an interest in the subject of a
notice or diffusion. However, they stated that with just 4 analysts assigned
to the Notice Section, and with each analyst managing approximately
7,000 notices and diffusions, the USNCB did not have sufficient resources to
perform such queries. Moreover, the USNCB Deputy Director stated that the
USNCB would need increased access to other agency databases, including
those operated by the FBI and DEA. 95

       In addition, USNCB officials stated that they believed that analyzing
INTERPOL information for potential patterns and trends in criminal activities
could provide valuable insight into evolving patterns of transnational
organized crime. In turn, this information could be shared with law
enforcement agencies in the United States to better prepare them to address
emerging trends in transnational crime, including gang activity and human
trafficking. However, the USNCB officials told us that they have not

      94
           A batch query is a method by which electronic records are searched automatically.
      95
         Currently, access to each agency’s database is restricted to employees of the
agency. For example, only FBI employees stationed at the USNCB may access the FBI’s
case management system.


                                          - 64 –
attempted to develop the capability to accomplish this portion of the USNCB
mission because they lack sufficient resources.

       We discussed these issues with the Office of the Deputy Attorney
General (ODAG) official responsible for overseeing USNCB matters. He
agreed with our assessment and acknowledged the potential value of
determining if other U.S. law enforcement agencies have an interest in the
subject of a notice or diffusion. The ODAG official stated that he believed
that the USNCB should have access to other agency systems, including FBI
and DEA systems, to determine whether individuals who are the subject of a
foreign notice or diffusion also are identified in a U.S. case. Moreover, this
official stated that he believed that the USNCB should work to develop the
capability to use the INTERPOL information to identify international criminal
activity trends and that it made sense to “connect the dots.” However, he
said he was uncertain as to whether the Department had any plans to
develop such a capability.

Combining Case Information

       USNCB analysts told us that they close cases in ENVOY when a notice
or diffusion is cancelled. If a new notice or diffusion is issued that appears
to match the subject of a closed case (name, date of birth, and country of
origin), the analysts re-open the original case and append the new
information to the re-opened case. However, the new information could
potentially pertain to an unrelated individual who possesses similar
identifying information, such as the name, date of birth, and country of
origin. As a result, the analyst could unknowingly associate the criminal
information from one individual with a completely unrelated person.
Further, a USNCB official told us that once the documentation is combined
into one case file it is extremely difficult to separate.

      When we discussed with the USNCB Deputy Director the USNCB
analysts’ practice of re-opening closed cases, he acknowledged that the
practice is a significant weakness. He expressed concern that this practice
could result in a domestic law enforcement agent attempting to support a
warrant request based on a conviction associated with another individual.

      The USNCB Compliance Officer told us that they have the ability to
create multiple cases on the same individual in ENVOY and link them
together, but they do not do so because they believe that matching the
name, date of birth, and country of origin is sufficient to ensure that it is the
same individual. We believe that these three pieces of information provide
the basis for determining that the cases might potentially be related.
However, we believe that additional information such as fingerprints and


                                     - 65 –
photographs should be used to make a definitive determination. Therefore,
we believe that the USNCB should only add information to an existing case if
additional information confirming the identity of the subject, such as
fingerprints and photographs, is available. In the absence of this additional
information, we believe the USNCB should open a new case on the subject
and establish a link to the original case.

Records Management

      The USNCB uses ENVOY, a computer database, to maintain and
organize documents related to requests from law enforcement agencies for
assistance or information from the international community, including
notices and diffusions. ENVOY is intended to provide the USNCB with
records management, workflow management, automated workflow
processes, and records search and reporting capabilities.

       ENVOY was initially implemented in 1999 to replace the USNCB’s
previous case management system - the INTERPOL Case Tracking System.
According to the USNCB CIO, the initial deployment of ENVOY did not
provide the full functionality required by the USNCB. As a result, the USNCB
experienced significant operational issues with the initial version of ENVOY,
including system instability, a lack of software documentation, and limited
reporting capability. In addition, because of the lack of reporting capability,
USNCB officials said they have experienced significant problems tracking
basic workload statistics, including the number of active notices and
diffusions. When the USNCB sought to correct these issues, the original
developer was no longer in business, so the USNCB hired a second
contractor.

      According to the USNCB CIO, the second developer prepared system
documentation that conformed to industry standards, as well as identified
and addressed some system weaknesses, including instability and reporting.
However, the USNCB CIO stated that the USNCB has not been able to
address all of the ENVOY issues at one time because of limited funding. He
said that as a result, the USNCB has adopted a phased approach and has
made incremental improvements to ENVOY. In addition, because of the lack
of funding available to create a more enhanced automated reporting
capability, the USNCB CIO stated that he has developed several
management reports. However, he stated that he has been unable to
develop all of the required reports because of limited IT staff resources.

     During our review, we observed the operation of ENVOY and examined
a sample of 216 cases selected from notices and diffusions active from




                                    - 66 –
October 1, 2005, through May 29, 2008. 96 In general, we noted the USNCB
case files in ENVOY were disorganized and inconsistently assembled, and we
identified a transposition error, missing data, and duplicate entries. We also
found documents that were filed in the wrong case file. We identified three
instances in which information pertaining to two unrelated individuals
appeared to have been erroneously combined into a single case file. We
also identified instances in which cases were improperly classified within
ENVOY. Most importantly, we identified poor record retention and disposal,
inappropriate case mergers, inadequate management reporting and
statistics, a lack of audit trails, and inadequate standardized
correspondence, as discussed below.

Record Retention and Disposal

       In compliance with the Privacy Act of 1974, the USNCB has published
a Systems of Records Notices (SORN) in the Federal Register. 97 The SORN
outlines the USNCB’s policy for the types of individuals reflected in its
records, data collected, reason for data collection and safeguards of the
data, rules and purposes for which the data may be shared, and guidelines
for data retention and disposal. 98 The USNCB’s SORN for its internal case
information states that it will retain on-site paper and electronic records of
case files for 2 years after closing the case. 99 After 2 years, the SORN states
that records will be archived and stored at an off-site facility. The
documents can be destroyed if there has been no case activity 5 years after
the transfer, for a total retention period of 7 years following closure of a
case. The SORN also states that any automated information will be
identified as an archived case and maintained on the USNCB local area
network (LAN) server for an indefinite period.

      The USNCB Compliance Officer said that some USNCB files have been
archived and stored off site. However, she could not recall the last time the
USNCB sent paper records to the off-site facility. Further, the Compliance
Officer stated that there were numerous boxes of paper case files currently
located in the USNCB hallways. In addition, she could not recall the date

      96
           For a detailed description of our methodology, see Appendix I.
      97
           Privacy Act of 1974 (5 U.S.C. § 552a).
      98
          According to its Privacy Threshold Assessment, the USNCB’s systems were not
subject to the requirement under the E-Government Act of 2002 (Act) to conduct a Privacy
Impact Assessment because its systems were developed prior to the Act’s effective date and
its systems had not undergone significant changes since then.
      99
           The USNCB’s SORN provides retention and disposal guidelines for cases closed on
or after April 5, 1982.


                                           - 67 –
that a USNCB case was last destroyed at the off-site facility and stated that
the USNCB had not archived any of the electronic information contained
within ENVOY. As a result, ENVOY contains information from all USNCB
cases dating back to when the USNCB first automated its case files in 1979.

      The USNCB needs to manage its case-related information to ensure
that the information is easily and readily available throughout the USNCB.
Leaving boxes of paper records lying unattended in uncontrolled hallways
leaves the records vulnerable to loss, damage, and review by unauthorized
personnel. These paper records should be adequately maintained,
controlled, and disposed of when appropriate.

       We believe it is also important that electronic records are protected
from loss and unauthorized review. However, the USNCB CIO told us that
all authorized users of ENVOY have unrestricted access to all case files.

       We discussed the USNCB record retention and disposal issues with a
USNCB official, who stated that they have not archived paper records in
recent years because of a lack of personnel. According to the USNCB
Director, as the United States’ obligation for INTERPOL dues increased, the
USNCB was forced to reduce the number of administrative personnel. The
USNCB Director stated that the USNCB had hired a new administrative
officer in August 2007 to assist with records management and other
administration functions.

       According to the USNCB CIO, the USNCB has not archived its
electronic records because the current version of ENVOY is not designed to
perform case archiving. The USNCB CIO stated that the USNCB recognizes
that its case management system should facilitate the ability to archive its
outdated or obsolete electronic case information. He said that he anticipates
that the USNCB will incorporate this functionality into future versions of its
case management system.

       We recommend that the USNCB develop a case management system
that ensures that its case-related information is easily and readily accessible
to authorized personnel throughout the USNCB. In doing so, the USNCB
should implement procedures to control access to the information to prevent
loss, as well as to preserve the privacy of individuals on whom the
information is maintained. Further, the USNCB should develop policies for
the routine archiving and destruction of its cases as outlined in its SORN. In
addition, it should review its paper case files and electronic cases in ENVOY
to determine whether they need to be archived, stored, or destroyed.




                                    - 68 –
Management Reporting and Statistics

       According to the USNCB CIO, when a new case is opened in ENVOY the
software application assigns a sequential case number, as well as the date
and time the case was opened. During our review of a judgmental sample of
notices and diffusions active from October 1, 2005, through May 29, 2008,
we identified several anomalies related to the system dates recorded for key
events of the cases, including the date the case was opened. Specifically, of
the 216 cases we examined, 6 cases appeared to have been opened before
the USNCB received the notice or diffusion leading to it opening a case. For
example, we noted that the date that the USNCB received and processed
one notice was December 9, 2007. The date that the system recorded that
particular notice was 2 days earlier – December 7, 2007. Although the
difference of 2 days in this example may seem insignificant, the fact that
this can occur in the USNCB’s primary recordkeeping system may indicate
that there are other cases with significantly longer gaps of the same nature.
We discussed this issue with the USNCB Compliance Officer and CIO who
stated that they believed these anomalies occurred because of the USNCB’s
practice of reusing case numbers.

      The reuse of case numbers also affects the USNCB’s ability to track the
number of new cases opened and closed each year. According to the CIO,
ENVOY has limited reporting capabilities and the system cannot generate
accurate information on the number of new cases opened and closed by the
USNCB each year. As a result, the USNCB developed an alternative process
by which it counted the number of new cases by utilizing the sequential
system case number.

      However, to ensure effective management the USNCB needs a case
management system that allows it to compile basic workload statistics, such
as the number of cases opened. In addition, the system should track the time
elapsed between key events in its case processing, such as when the USNCB
receives a notice or diffusion, when the case is opened, and when lookout
records are entered.

      We believe that the USNCB would benefit from regularly tracking and
monitoring the time elapsed between these key events to ensure that it is
processing information in a timely manner. Further, by tracking and analyzing
these statistics, the USNCB would be able to measure its progress against pre-
determined performance objectives and identify potential process weaknesses.
Therefore, we recommend that the USNCB design and implement a case
management system that is capable of providing reliable workload statistics.




                                   - 69 –
Audit Trails

      ENVOY does not provide for tracking and retaining historical
transactions within its database. As a result, the USNCB is unable to
determine which actions were performed by which analyst or supervisor. We
believe that these audit trails, including historical data and detailed
transactions by users, could help ensure that the information is properly
used in conformance with INTERPOL and USNCB policies.

Standardized Correspondence

      To ensure that the information it provides to foreign and domestic law
enforcement agencies is consistent with the statutes of the INTERPOL
Constitution, U.S. laws, and the provisions of the Freedom of Information
and Privacy Acts, the USNCB has provided guidance to its personnel on what
information may be released and under what circumstances. In addition,
the USNCB has designed standardized templates for its analysts to use when
preparing routine correspondence. According to the USNCB Compliance
Officer and the CIO, USNCB analysts can automatically generate this
standardized correspondence. In addition, the electronic process saves a
copy of the correspondence to the case file.

       During our review of the 216 USNCB notices and diffusions, we noted
that frequently the case file contained multiple copies of the same USNCB-
prepared correspondence. We identified numerous instances in which the
case files contained three similar versions of a USNCB-prepared diffusion.
When we discussed this issue with the USNCB Compliance Officer, she stated
that the USNCB was aware that the electronic process generated and saved
three similar, but not identical, versions of the diffusion correspondence to
the case file.

       Saving multiple copies of the same or similar documents to the case
file can be confusing to USNCB investigators and analysts and may result in
delays during investigations. For example, investigations may be delayed
while analysts attempt to determine which version of the document contains
the most accurate and current information. The USNCB Compliance Officer
stated that the process also hampers her ability to obtain accurate
management statistics regarding the total number of diffusions processed in
a given period. 100


      100
           Because the electronic process generates three versions of a diffusion, it
overstates the total number of diffusions processed in a given period. To compensate for
the overstatement of diffusion correspondence, the USNCB Compliance Officer stated that
she divides by three the total number of diffusions processed in a given period.


                                         - 70 –
      Further, USNCB officials said that the analysts are not required to use
the standardized templates. Several analysts stated that they do not use
the electronic processes and have developed their own templates for routine
correspondence. As a result, the diffusions generated by the USNCB
analysts are not in a consistent and standardized format and therefore may
not contain the information necessary to conduct an investigation or to
comply with statutes of the INTERPOL Constitution, U.S. laws, and the
provisions of the Freedom of Information and Privacy Acts.

New Electronic Case Management System

       In FY 2007 the USNCB began to explore alternative software
applications to manage its case information, and in 2008 selected a
commercial off-the-shelf application. The USNCB CIO said that the new
application will be relatively easy for USNCB employees to learn because it
uses the same operating system and programming as the one currently used
for other functions. The USNCB CIO wanted also to minimize the USNCB’s
cost for initial software, upgrades, and software maintenance by utilizing an
existing DOJ contract with the vendor.

      In May 2008 the USNCB received an initial planning document for the
implementation of the new case management software. This document
contained the USNCB’s general vision for and scope of the project, but it did
not contain specific details regarding the software features, cost, and delivery
schedule. The document stated that it was not a legally binding contract and
that future revisions to the document would provide the specific details of the
project.

       At that time, the USNCB reported that it expected that the new case
management system would be deployed by December 2008. In
November 2008 we asked the USNCB to provide us with its formal planning
documents, including a description of the project, timelines, milestones, and
costs. On November 12, 2008, the USNCB CIO stated that the initial
planning document was the most current and accurate information he
possessed. In January 2009, the USNCB CIO informed us that deployment
of the new case management system had been delayed because of other IT
priorities. As a result, the USNCB reported that it anticipated its new system
to deploy by the end of February 2009. In April 2009, the USNCB stated
that it had resolved several technical difficulties that were encountered
during development, and after hiring an additional developer to help
expedite the delivery schedule, officials said they anticipate that the upgrade
will be completed by mid to late August 2009.




                                    - 71 –
      The USNCB needs to develop a case management system that
provides it with the ability to easily manage the information in its possession
and generate reliable workload statistics. The system should include
processes and procedures to monitor access to its information to prevent
loss and unnecessary access. The case management system should also
provide the USNCB with the ability to examine the international information
to assist with investigations and identify trends and patterns in crime.

       Since the initial deployment of ENVOY in 1999, the USNCB has
struggled to adequately plan and implement a case management system
that provides it with such full functionality. As a result, the USNCB has been
hampered in its ability to protect information, provide management
statistics, and provide its domestic and international law enforcement
partners with accurate, reliable, and consistent investigative case
information. We have significant concerns with implementation of the new
system, such as the USNCB’s continued lack of formal planning documents
containing a description of the project, timelines, milestones, and costs. We
believe that the USNCB should consider obtaining an independent evaluation
of the new system and whether it will meet the USNCB’s needs. We also
believe the problems experienced with this implementation underscore the
USNCB’s need for a comprehensive plan for determining the agency’s future
IT investment needs.

Conclusion

       The USNCB has not conducted searches of domestic databases to
ensure that subjects of foreign notices or diffusions have not entered the
United States. In addition, the USNCB has not developed a process for the
ongoing review of domestic databases to locate subjects of foreign notices or
diffusions subsequent to the receipt of the notice or diffusion. Further, the
USNCB has not developed processes to help domestic law enforcement
agencies determine if the subject of a foreign notice or diffusion is also a
person of interest in the domestic law enforcement agencies’ case files. As a
result, individuals that are wanted in another country may enter the United
States and evade prosecution. Moreover, we believe that these deficiencies
result in missed opportunities to investigate and solve crimes committed in
the United States by subjects of foreign notices and diffusions.

       We identified significant weaknesses with the USNCB’s processes and
controls related to its case management. These deficiencies have
diminished the USNCB’s ability to dispose of documents according to its
records schedule, generate management statistics, audit individual user
activity, and ensure that its communication with other law enforcement
agencies is consistent, accurate, and complete.


                                    - 72 –
Recommendations

We recommend that the USNCB:

  17.   Review all active notices and diffusions to ensure that appropriate
        database searches have been conducted.

  18.   Develop and implement policies and procedures, including
        technological solutions, to determine if subjects of INTERPOL
        notices and diffusions have entered the United States subsequent to
        the receipt of the notice or diffusion.

  19.   Develop a formalized process to ensure that searches of federal law
        enforcement agency databases have been conducted on subjects of
        foreign notices or diffusions to determine if they are persons of
        interest to these agencies.

  20.   Develop the capability to use INTERPOL information to identify
        trends and patterns in international criminal activities, such as
        transnational organized crime.

  21.   Develop procedures to ensure that information is added to an
        existing case only if additional information is available to confirm
        the identity of the subject, such as fingerprints and photographs.
        In the absence of this additional information, a new case on the
        subject should be opened and linked to the original case.

  22.   Ensure that its case management system provides the ability to:
        (a) adequately maintain, control, and dispose of case-related
        information, including access restrictions by user and audit trails;
        (b) compile management statistics; and (c) generate standardized
        correspondence.




                                   - 73 –
IV. USNCB MISSION AND PRIORITIES

      The Department has not provided adequate supervision and
      oversight of the USNCB. The USNCB Executive Committee,
      composed of senior DOJ officials, has not met in more than
      5 years and therefore has not evaluated or updated the USNCB’s
      strategic plan to ensure that it is consistent with current DOJ
      priorities; that its IT investments are appropriate; or that the
      USNCB is adequately staffed. Additionally, DOJ has not
      undertaken any evaluation of the USNCB to ensure that its
      executive positions are at the appropriate pay level and that
      these positions are attracting the most qualified candidates.

Strategic Needs of the USNCB

       As discussed earlier, we determined that the USNCB has missed
opportunities for sharing INTERPOL information or taking advantage of
evolving technology to improve its operations. We attribute these
weaknesses, in part, to DOJ’s and DHS’s inadequate oversight of the USNCB
and lack of assistance in developing a meaningful vision for the role and
mission of the USNCB. We identified several areas that require attention to
ensure that the organization fulfills its important mission, including
department-level support and oversight, USNCB executive leadership,
strategic planning, information technology, and resources (particularly
staffing and funding).

Department-level Support and Oversight

      In May 2003 DOJ and DHS signed an MOU establishing the USNCB as
a separate component of DOJ under the supervision of the Deputy Attorney
General. The MOU established an Executive Committee consisting of the
Deputy Attorney General, Deputy Secretary of DHS, and the USNCB
Director, which would meet semi-annually and make policy and personnel
decisions, except those delegated to the Director, relating to the USNCB.
However, according to the ODAG official responsible for USNCB matters, the
Executive Committee has not met for at least 5 years.

      The ODAG official we interviewed acknowledged that the USNCB has
not received sufficient guidance and support from the USNCB Executive
Committee. He attributed many of the deficiencies we identified in this
review, in part, to this general lack of support and supervision. This official
also stated that he believed that DOJ had failed to maintain its oversight of
the USNCB because of significant levels of turnover in the ODAG. He told us
that DOJ is working to arrange a meeting of the Executive Committee to



                                    - 74 –
begin addressing these issues. The ODAG official stated that he believed
that the “full support of the ODAG” should be sufficient to address the
weaknesses that we had identified during this audit.

      While we believe that the Executive Committee’s oversight of the
USNCB can help to improve USNCB functions, we also have concerns related
to the current USNCB leadership structure that we discuss below.

USNCB Executive Leadership

      Since the USNCB’s inception, advances in technology have provided
criminals with the ability to operate unconstrained over national borders.
Since the terrorist attacks of September 11, 2001, these advances in
technology also have provided significant opportunities for the international
law enforcement community to enhance border security by electronically
sharing terrorism and other criminal information. As a result, the role and
function of the USNCB has become more complex.

      Further complicating the USNCB’s mission is its need to comply with
the INTERPOL RPI. INTERPOL requires that NCBs ensure that international
criminal and terrorist-related information is used in compliance with its RPI,
which USNCB officials explained takes into consideration member countries’
privacy laws. For example, INTERPOL officials in Lyon, France, told us that
Germany severely limits the length of time that records on its citizens may
be retained. As a result, the USNCB should ensure that it retains and
disseminates information provided by German law enforcement in
accordance with the RPI. Moreover, INTERPOL requires that the NCBs
review any databases with which INTERPOL data is shared to verify
compliance with INTERPOL’s RPI. As a result, the USNCB must ensure that
the information it disseminates to other law enforcement agencies is
accurate, complete, and complies with the INTERPOL RPI. With
187 INTERPOL member countries and over 18,000 domestic law
enforcement agencies, the USNCB experiences unique challenges in sharing
international criminal and terrorism-related information across all levels of
government and with foreign countries.

       However, we believe that the current framework for identifying,
selecting, and hiring the Deputy and Director positions may hamper the
USNCB’s ability to attract the most qualified individuals to meet its evolving
mission. Specifically, the USNCB senior management positions rotate
between DOJ and DHS every 3 years, and the USNCB Director must be from
a different department than his or her predecessor and the Deputy




                                    - 75 –
Director. 101 When the Director’s term concludes, the Deputy Director
assumes the Director position.

       We were told by a senior FBI official that the current 6-year rotational
structure presented two issues regarding compensation and career
advancement that reduced the attractiveness of the USNCB position to well-
qualified, experienced FBI employees. Under the present format, the USNCB
Director position is a term appointment at the Senior Executive
Service (SES) level, while candidates for the Deputy Director position must
be “SES-eligible.” 102 As a result, an agent in the USNCB Deputy Director
position would spend at least 3 years at the GS-15 level before achieving a
term-SES appointment. Therefore, well-qualified agents at the FBI, as well
as those from other federal law enforcement agencies, may be unwilling to
commit to being the USNCB Deputy and then USNCB Director – for a total of
6 years – because they would then revert back to a GS-15 position at their
home agency after 6 years.

      In addition, the disparity in rank between the USNCB Director and
Deputy Director and other DOJ and agency executives with whom they
interact contributes to the perception that the role and function of the
USNCB is less important than those of other agencies. The rotational nature
of the Director and Deputy Director positions also contributes to a lack of
continuity in historical knowledge, planning, and budget formulation.

      We discussed these issues with the Secretary General of INTERPOL,
who is a former high-ranking U.S. law enforcement official. He agreed with
our assessment and stated that, in his opinion, the Director of the USNCB
should be a presidential appointee.

      When we discussed this issue with the ODAG official, he stated that
the “full support of the ODAG” should be sufficient to address any of the
weaknesses that we identified in the perceived disparity in rank for the
USNCB Director and other DOJ and agency executives. The ODAG official
noted that not all agency Directors are presidential appointees and some,
such as the Director of the Executive Office for United States Attorneys
(EOUSA), still have significant influence.

       101
          The current Director is a Supervisory Special Agent with DHS’s U.S. Immigration
and Customs Enforcement and the Deputy Director is a Chief Inspector with DOJ’s U.S.
Marshals Service.

       102
            The SES is a corps of public servants who administer programs at the top levels
of federal government. SES Positions are primarily managerial and supervisory. The
USNCB does not have a separate SES allocation from either DOJ or DHS. Directors must
bring an SES allocation from their home agency.


                                          - 76 –
      Nevertheless, we believe that the position of USNCB Director should be
of high enough rank to attract high quality candidates and provide the
Director with the ability to make effective changes in the USNCB. Moreover,
we do not believe that the current term-SES arrangement and rotational
structure provides either the necessary enticement or the needed seniority
to achieve these ends. We recommend that DOJ, in conjunction with DHS,
evaluate options to enhance the executive management structure of the
USNCB.

Strategic Planning

       The USNCB current strategic plan covers FYs 2005 through 2010.
Senior USNCB officials told us that they struggled to perform adequate
planning because they lacked sufficient resources to manage USNCB’s day-
to-day operations. As a result, the officials stated that they did not
approach the strategic planning process as seriously as they would have
liked.

      We found that the USNCB strategic plan includes some of the essential
components of a strategic plan, such as strategic objectives, but lacks a
comprehensive vision or a strategic direction for the USNCB, and it is difficult
to assess the suitability of each of the stated objectives.

      The USNCB’s present functions most closely align with DOJ’s Strategic
Goal II to “prevent crime, enforce the federal laws, and represent the rights
and interests of the American people.” However, because transnational
crime has been linked increasingly with terrorism and INTERPOL has
expanded its role in sharing terrorism-related information, we believe the
USNCB strategic plan should also address the relevant aspects of DOJ’s
Strategic Goal I to “prevent terrorism and promote the nation’s security.”

      In our opinion the USNCB strategic plan also does not adequately
address the USNCB’s role in sharing international criminal and terrorism-
related information across all levels of government, the private sector, and
the international arena in a timely, accurate, and complete manner. As
discussed above, the role and function of the USNCB have become more
complex due to improvements in technology, the need to comply with the
INTERPOL RPI, and the government’s increased emphasis on border
screening. We believe that more rigorous strategic planning efforts will
assist the USNCB in achieving its mission and identifying which
improvements are most critical.

     We recognize that the USNCB, as currently constituted, may not be
capable of initiating these planning efforts, and we attribute many of the


                                    - 77 –
deficiencies with the USNCB’s strategic planning to the lack of Department-
level oversight and support. We believe it essential that the Executive
Committee meet at least semi-annually, as prescribed in the MOU, and that
it take the lead in developing a new strategic plan that recognizes the
USNCB as the primary U.S. agency responsible for information-sharing with
foreign criminal justice agencies.

      The USNCB strategic plan should be a formal written document that
addresses all aspects of organizational and resource planning, management,
and performance measurement and does so in consideration of DOJ’s
strategic goals and the USNCB’s contributions to the achievement of those
goals. It should also provide specific strategies and timelines for
accomplishing the USNCB’s overall mission and specific methods for
measuring achievement and performance.

Information Technology

      The USNCB’s management of its information technology (IT), a critical
part of its ability to achieve its mission, has been deficient. Because the
USNCB has not had a clear vision for its current operations or how it intends
to operate in the future, its planning for IT functions has been unstructured
and performed on an ad-hoc basis.

       The USNCB CIO stated that he has struggled to adequately plan for IT
development because the USNCB’s funding for IT initiatives has been
inconsistent. According to JMD’s 2004 report, the USNCB budget requests
for IT initiatives during FYs 2000 through 2004 failed to “make the case for
how its IT enhancement request supported its own or DOJ’s program
goals.” 103 JMD acknowledged that the USNCB’s FY 2005 budget request had
improved. However, the USNCB’s most recent IT strategic plan is dated
August 12, 2005, and outlines initiatives that were to be accomplished in
FY 2005. With an IT strategic plan that we believe is outdated and a history
of poorly prepared budget submissions, it is hard for the USNCB to develop
and support an adequate budget request that sufficiently addresses needed
IT improvements. Moreover, considering the pace of technological
development and the USNCB’s need to incorporate additional technology in
its process, the USNCB must anticipate its future IT needs and plan
accordingly.

      We believe that the USNCB would benefit from establishing a formal
written document that systematically addresses IT organizational and
resource planning, management, and performance measurements. In


     103
           JMD, Management Review of INTERPOL - USNCB, 12.


                                      - 78 –
conjunction with the USNCB’s strategic plan, the IT strategic plan should
evaluate current operations and uses of data and account for the various
ways in which INTERPOL information might potentially be used and accessed
by other agencies. In addition, the USNCB should more often review the
data in its possession and determine how different pieces of data can be
combined to provide more useful information.

      This plan should also combine in one document the USNCB’s plans
regarding its current and future IT needs. The plan should address systems
interconnectivity and controls to ensure data integrity systems engineering
and architecture planning, application development, project management,
and resource planning (such as budget, staffing, and facilities).

Staffing Needs

       The USNCB has an authorized staffing level of 65 permanent, full-time
equivalent positions, and throughout its existence the USNCB has been
heavily dependent upon additional staff detailed from participating agencies.
Officials at the USNCB stated that having detailees who can apply their
investigative skills to assist law enforcement agents is important to the
mission of the USNCB. Further, the detailees serve as their home agencies’
liaisons and provide invaluable agency-specific expertise.

      Historically, the USNCB had agreements with law enforcement
agencies regarding the number of detailees that each agency would provide,
and staff was assigned to the USNCB from these agencies for terms of 1 to
2 years. However, the USNCB Director said that law enforcement agencies
have opted to discontinue the formal agreements, citing budget constraints
and a desire to have greater control over their detailees. The USNCB
Director also said that the law enforcement agencies have not been
assigning as many staff to the USNCB as they had in prior years, and
consequently the USNCB is understaffed.

      Before the creation of DHS, the former Immigration and Naturalization
Service detailed two staff with immigration expertise to the USNCB. In
addition, the former U.S. Customs Service also detailed two staff with
customs and border protection experience. However, as of July 2008 only
one person was detailed to the USNCB from CBP. 104 Further, according to
the USNCB Director, the FBI historically has maintained four staff at the
USNCB. However, as of July 30, 2008, the FBI had just one agent detailed



       104
           In July 2008, CBP assigned two additional staff on a temporary basis to assist
with the increased workload.


                                          - 79 –
to the USNCB. 105 The USNCB Director expressed frustration that despite
frequent requests the agreed-upon personnel have not been detailed to the
USNCB. As shown in Exhibit 4-1, the number of detailees assigned to the
USNCB has fluctuated from a high of 37 in 1999 to the current low of
24 staff, which is lower than the number of detailees just prior to
September 11, 2001. 106


                                  EXHIBIT 4-1
                      Number of Staff Detailed to the USNCB
                                 1992 Through 2008 107
                 40

                 35

                 30

                 25

                 20

                 15

                 10

                  5

                  0




Source: USNCB

        The rotating nature of much of the USNCB’s staff and its inability to
rely on longer-term staffing projections has had a significant impact on the
USNCB’s performance and continuity of operations. The frequent rotation of
staff reduces the USNCB historical knowledge of its own organization and
initiatives. For example, we identified an instance where a USNCB staff
member with whom we spoke was unable to provide us with the requested
background information regarding a prior initiative that had been supervised
by a former agency detailee. In addition, short temporary duty assignment
periods force the USNCB to continually train and orient new personnel.

       105
          In December 2008, one additional FBI personnel was detailed to the USNCB and
two FBI personnel are currently assigned to the USNCB.
       106
           In addition to assigning detailees to the USNCB, as of August 28, 2008, the
United States had eight individuals, separate from the USNCB, assigned to INTERPOL.
These detailees are located at the INTERPOL General Secretariat in Lyon, France, as well as
the INTERPOL office located at the United Nations.
       107
             The USNCB was unable to provide data for 2005 and 2006.


                                          - 80 –
      We discussed this issue with the ODAG official, who agreed with our
assessment. The ODAG official stated that the USNCB, with the assistance
and support of the ODAG, would work to establish formal agreements
regarding staffing commitments and length-of-duty assignments from the
various agencies.

       In September 2008, the USNCB Director told us that he had recently
met with the USMS Director, who agreed to increase the USMS’s USNCB
staffing commitment to four. In addition, the USNCB has approached CBP
regarding implementing an MOU. According to the USNCB, in August 2008
the DHS Citizenship and Immigration Services (CIS) assigned one person to
the USNCB and another to the INTERPOL General Secretariat in Lyon,
France.

Funding the USNCB

      As shown in Exhibit 4-2, in FY 2009 the USNCB’s overall budget was
approximately $24.5 million, of which $8.2 million went to pay the United
States’ membership dues to INTERPOL. In addition, we found that several
other factors have impacted the USNCB’s operational budget and the
USNCB’s ability to perform critical functions.

                          EXHIBIT 4-2
        USNCB Funding for Operations and INTERPOL Dues

                             USNCB
                         INTERPOL Dues
                           $1,773,216
                             (23%)                                  USNCB INTERPOL
                                                                         Dues
              USNCB                               USNCB Operating     $8,204,727
             Operating                                Budget             33%
              Budget                                $16,343,273
            $5,895,784                                  67%
              (77%)




                FY 2001                                   FY 2009
Source: USNCB and INTERPOL



      Specifically, as a result of a change in the formula used by INTERPOL
to calculate each member country’s dues, the U.S. commitment for
INTERPOL dues (as a percentage of its overall budget) increased by




                                         - 81 –
10 percent, from $1.7 million in FY 2001 to $8.2 million in FY 2009. 108 In
addition, INTERPOL requires that member countries pay their dues in euros.
Since 2002, the dollar has generally declined in value relative to the euro,
resulting in an effective increase in the United States’ contribution to
INTERPOL. As a result of the INTERPOL dues increases, the conversion from
dollars to euros, and the decline in value between the dollar and euro, the
USNCB’s budget for operations, as a percentage of its total budget, has
declined from 77 percent in FY 2001 to 67 percent in FY 2009.

     In its 2004 report, JMD noted that inclusion of the United States’
commitment for INTERPOL membership dues within the USNCB’s
appropriations had an adverse impact on the USNCB’s operations. 109 JMD
recommended that DOJ request approval from the Office of Management
and Budget (OMB) and Congress to move the dues appropriations into a
budget account separate from the USNCB appropriations.

      According to the USNCB Director, the decline in its operating budget
has affected the organization’s ability to address several critical functions,
including strategic planning and information technology development. The
USNCB Director stated that he lacked sufficient staff to accomplish adequate
planning in addition to the day-to-day operational tasks. Moreover, at the
same time the number of employees detailed from other agencies has
decreased, the reduced operating budget has increased the USNCB’s
dependence on these detailees.

      A USNCB official said the USNCB continues to work with the JMD
budget staff and OMB to develop the best method to pay for the United
States' membership dues to INTERPOL. However, despite the adverse
impact on its ability to perform its operation, a USNCB official stated that the
USNCB does not anticipate a solution until at least FY 2011.




       108
            INTERPOL’s operations are primarily financed by member-country annual
statutory contributions. To assess each member country’s dues contribution, INTERPOL
uses a formula based on each country’s economic well being. This formula was
renegotiated in the late 1990s and incorporated a gradual increase in the percentage share
paid by the wealthiest nations. The U.S. share of the annual INTERPOL budget increased
from 5 percent to 13.26 percent over 4 years, reaching the full negotiated dues contribution
rate of 13.26 percent in FY 2006. In June 2009 the USNCB informed us that an increase in
INTERPOL dues is expected to be passed in October 2009 at the annual General Assembly.
If passed, the United States’ contribution will be gradually increased from 13.26 percent in
2009 to 17.385 percent in 2014.
       109
             JMD, Management Review of INTERPOL - USNCB, 10.


                                          - 82 –
Conclusion

       After the terrorist attacks of September 11, 2001, the United States
enhanced its screening practices to attempt to prevent terrorists and other
criminals from obtaining visas or entering the United States illegally and
identify and apprehended criminals within the country. Despite its important
role in these efforts, we found that the USNCB has not received adequate
supervision or oversight from either DOJ or DHS. The executive committee
that was created to provide guidance to the USNCB has not met in more
than 5 years, and no evaluation of the USNCB’s management structure has
been performed to ensure that these positions are attracting the appropriate
candidates. Additionally, because of the USNCB’s rotational management
structure, its executive officials have struggled to perform essential strategic
and IT planning while managing day-to-day operations. Further, increasing
INTERPOL membership dues and the USNCB’s inability to rely on staffing
projections has had a significant impact on the amount of resources
available to the USNCB.

Recommendations

We recommend that the Office of the Deputy Attorney General:

   23.   Ensure that the Executive Committee meets as prescribed in the
         MOU and takes the lead in developing a new strategic plan for the
         USNCB.

   24.   Evaluate options to enhance the USNCB’s executive management
         structure to help ensure identification of the most qualified
         candidates for its senior executive positions. Potential
         enhancements might include adopting a higher-ranking level for the
         Director and Deputy Director positions, eliminating the practice of
         the Deputy Director succeeding the outgoing Director at the end of
         the 3-year term, and revising the term length.

   25.   Determine the best method to budget and pay for the United
         States’ membership dues to INTERPOL to help minimize the
         operational impact on the USNCB.

We recommend that the USNCB:

   26.   Develop a formal IT plan that systematically evaluates current
         operations and uses of data and accounts for the various ways in
         which INTERPOL information might potentially be used and
         accessed by other agencies. This plan should address: (a) IT



                                    - 83 –
      staffing needs, (b) controls to ensure data integrity, and (c) future
      improvements in the areas of database inter-connectivity.

27.   Work to develop formal agreements with domestic federal law
      enforcement agencies regarding staffing commitments and length-
      of-duty assignments.




                                 - 84 –
                                                                     APPENDIX I


       AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       Our objectives for this audit were to: (1) evaluate the USNCB’s efforts
to ensure participation and the sharing of INTERPOL information among
federal, state, local, and tribal law enforcement agencies; (2) review the
USNCB’s processes for the exchange of INTERPOL information to ensure that
requests for assistance and information were handled in an appropriate,
efficient, and timely manner; (3) review the USNCB’s controls over
INTERPOL case information; and (4) examine the USNCB’s organizational
role and strategic priorities to ensure that they are in line with DOJ priorities.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In general, our audit covered but was not limited to the period of fiscal
years (FYs) 2006 through 2008. Our testing included selecting judgmental
samples of various records. Our sample selection methodologies were
designed to give us broad exposure to different types of notices, diffusions,
and other activities, but were not designed with the intent of projecting our
results to the populations from which the samples were selected.

       To accomplish our objectives, we conducted work primarily at the
USNCB of INTERPOL located in Washington, D.C. We interviewed USNCB
employees, as well as contractors and representatives from various
participating agencies working within the USNCB. We met with the
representative from the Office of the Deputy Attorney General, who was the
DOJ official responsible for USNCB matters, at DOJ headquarters, also in
Washington, D.C., to obtain the Department’s perspective on the USNCB.
Additionally, we interviewed representatives from other federal law
enforcement agencies, such as the FBI and DEA, to gain their perspective on
the role and mission of the USNCB. We interviewed representatives from
two USNCB state and local liaison offices, including the New York State
Police Department and the Chicago Police Department. We also interviewed
the Secretary General of INTERPOL, as well as other officials at the
INTERPOL General Secretariat located in Lyon, France. We visited the


                                     - 85 –
German NCB in Wiesbaden, Germany, and met with the German federal law
enforcement officials who were responsible for INTERPOL-related activities.

       Additionally, we analyzed data and conducted testing to assess the
USNCB’s efforts to ensure domestic cooperation and participation, control
over the exchange of INTERPOL information, processes to coordinate
information to assist with case investigations, and ability to successfully
achieve its mission. To obtain an overall understanding of the USNCB’s role
and responsibilities, we reviewed legislative material, as well as manuals,
policies and procedures, memoranda, correspondence, and electronic
communications related to INTERPOL. We also reviewed and collected
various records and documents as needed, including financial documents,
strategic planning documents, workload data, prior audit reports, and
reports to Congress.

Cooperation and Participation

      To evaluate the level of cooperation, participation, and information
sharing between the USNCB and its partner agencies, we reviewed the
USNCB’s efforts to ensure domestic law enforcement agency access to
INTERPOL databases. In addition, we distributed a questionnaire to all
66 state and local USNCB liaison offices to assess the level of cooperation
and satisfaction among the USNCB partners.

      To assess the USNCB’s efforts to ensure domestic participation in the
INTERPOL notice program, we reviewed domestic law enforcement agency
websites and selected a sample of 32 known international, high-profile U.S.
criminal fugitives. The sample consisted of 10 names from the FBI’s most
wanted fugitives website, 14 names from the DEA’s most wanted fugitives
website, and 8 names from ICE’s most wanted fugitives website. We then
reviewed the INTERPOL website and USNCB records to determine whether a
corresponding red notice had been issued by the domestic agency for these
32 fugitives.

Exchange of INTERPOL Information

      To evaluate the USNCB’s processes and controls over the exchange
and integration of information, we reviewed the USNCB’s policies and
procedures for maintaining data within its case management system,
ENVOY. In addition, we performed various tests on a limited number of
domestic and foreign law enforcement agency notices and diffusions.

       The USNCB maintains information pertaining to INTERPOL notices and
diffusions in ENVOY. We requested from the USNCB a universe of case


                                    - 86 –
records from ENVOY that included all domestic and foreign notices and
diffusions that were active during the period October 1, 2005, through
April 30, 2008. On May 29, 2008, the USNCB provided two spreadsheets
that contained the data pertaining to all domestic and foreign notices and
diffusions that were active during the period October 1, 2005, through
May 29, 2008. As shown in the following table, our initial testing
methodology included selecting a sample of 65 each of domestic and foreign
notices and diffusions for review and analysis.

                   Distribution of Sample Selection for
               Foreign and Domestic Notices and Diffusions

                                 Sample Plan              Sample Plan
            Type             Domestic Foreign        Domestic     Foreign
                              Notices   Notices      Diffusions Diffusions
            Red                 15         15            15         15
            Blue                10         10            10         10
            Yellow              10         10            10         10
            Green               10         10            10         10
            Black               10         10            10         10
            Orange              10         10            10         10
            Totals              65        65             65         65

       In some instances, the universe of notices and diffusions provided by
the USNCB did not contain sufficient numbers of records from which to select
according to the sample plan. For example, while the OIG testing plan called
for a sample size of 10 each for black and orange domestic and foreign
notices, there were only 7 black foreign notices, 2 orange foreign notices,
and 1 domestic orange notice. As a result, in these instances we selected
the entire universe of notice and diffusion records for review.

      In addition, we identified several types of notices and diffusions of
which we were unaware prior to the USNCB’s provision of the universe of
notices and diffusions, including white, purple, and grey. 110 As a result, we
judgmentally selected some white, grey, and purple notices for review.

      During our analysis of the sample data, we identified several instances
in which it appeared that the classification of a notice or diffusion in ENVOY

      110
           We subsequently learned that white notices pertain to stolen art and were
discontinued by INTERPOL when it implemented the stolen works of art database, and
purple notices pertain to methods and procedures and were also discontinued by INTERPOL.
We discussed the grey notice with the USNCB Compliance Officer, but she could not recall
its purpose.


                                        - 87 –
was incorrect. For example, from the universe of notices identified as
domestic-issued notices provided by the USNCB, we selected a specific case
classified as a domestic red notice. During our review of the related
documents, we noted that the red notice had been issued by a foreign law
enforcement agency and, therefore should have been classified as a foreign-
issued red notice. We discussed this issue with the USNCB CIO, who
explained that this anomaly is related to the file structure of the ENVOY
system as well as the method the USNCB used to extract the necessary data
for our analysis.

       While we identified several instances in which this type of anomaly
occurred within our data extract, we performed limited testing of the data
within ENVOY to verify that the data was properly classified. However,
because of limitations within the ENVOY system, the USNCB was unable to
provide a data file that did not contain these types of anomalies, as well as
met our testing specifications. Despite the data limitations within the
sample data provided by the USNCB, when these data are viewed in context
with other available evidence, we believe the opinions, conclusions, and
recommendations in this report are valid. Because each anomaly was
slightly different, we determined, on a case-by-case basis, how we would
categorize the notice or diffusion for analysis. We verified the results of our
analysis with USNCB officials. Our analysis and subsequent re-
categorization is discussed in greater detail in the following sections.

      Domestic Notice and Diffusion Testing

       As of May 29, 2008, the universe of domestic notice and diffusion
records provided by the USNCB included 9,028 and 315 records,
respectively. As shown in the following table, from the notices and
diffusions classified as issued by a domestic law enforcement agency by the
USNCB, we initially selected a total of 103 for analysis. We excluded one
domestic red notice from our analysis because the notice was included twice
in the data sample provided by the USNCB, and we inadvertently selected it
twice. In addition, we excluded one domestic yellow notice from our
analysis because the yellow notice had been issued by a foreign law
enforcement agency. We included this yellow notice in our analysis of
foreign-issued notices and diffusions. As a result of our analysis and
reclassification, we reviewed 101 domestic-issued notices and diffusions, as
shown in the following table.




                                    - 88 –
                     Distribution of Sample Selection for
                      Domestic Notices and Diffusions
                                                  As Classified       As
    Total Number of Records Reviewed by            in Sample      Determined
                 Color and Type                     Selection       by OIG
    Red Notice                                         16             15
    Blue Notice                                        10              9
    Yellow Notice                                       9              9
    Green Notice                                       10              9
    Orange Notice                                       1              0
    FOPAC Bulletin/Grey Notice                          1              0
    U.N. Special Notice                                 1              0
    Total Domestic Notices                             48             42

                                                  As Classified       As
    Total Number of Records Reviewed by            in Sample      Determined
                 Color and Type                     Selection       by OIG
    Wanted Person (Red) Diffusion                      15             13
    Trace and Locate (Blue) Diffusion                  11             11
    Missing Person (Yellow) Diffusion                   6              5
    Criminal Activity (Green) Diffusion                10             10
    General Diffusion                                   7             15
    Humanitarian Diffusion                              6              5
    Total Domestic Diffusions                          55             59
    Total Domestic Notices and Diffusions             103            101
    Source: OIG analysis of USNCB data

       Using this sample of ENVOY case records pertaining to domestic
notices and diffusions, we performed various tests to ensure that the
information from each notice and diffusion was entered into ENVOY in an
accurate and consistent manner. Further, we reviewed case-related
information pertaining to the notices and diffusions to ensure that the
requests for assistance and information were handled in an appropriate,
efficient, and timely manner.

      The USNCB does not enter the subjects of domestic notices into any of
the U.S. agency systems, including NCIC and TECS. However, we reviewed
related records from the pertinent automated domestic data systems used to
store such things as criminal information, by DHS, the FBI, and USNCB.
From that review, we assessed the USNCB’s efforts to share all appropriate
information in its possession with its domestic law enforcement
counterparts.




                                         - 89 –
      Foreign Notice and Diffusion Testing

       As of May 29, 2008, the universe of foreign notice and diffusion
records provided by the USNCB included 40,663 and 134,589 records,
respectively. As shown in the following table, from the notices and
diffusions classified as issued by a foreign law enforcement agency by the
USNCB, we initially selected a total of 116 for analysis. As discussed in the
domestic notice and diffusion testing section, we identified one yellow notice
classified by the USNCB as a domestic-issued notice. However, the yellow
notice had been issued by a foreign law enforcement agency. As a result,
we included this yellow notice in our analysis of foreign-issued notices and
diffusions. During our review of the notices and diffusions classified as
foreign-issued, we identified a purple notice and a criminal activity (green)
diffusion that appeared misclassified. We discussed these two instances with
the USNCB Compliance Officer who stated that the purple notice and
criminal activity (green) diffusion were misclassified in ENVOY and should
not have been included in the original sample data provided by the USNCB.
As a result, we excluded these two cases from our analysis. Following our
analysis and re-classification, we reviewed 115 foreign-issued notices and
diffusions, as shown in the following table.




                                   - 90 –
                     Distribution of Sample Selection for
                       Foreign Notices and Diffusions

                                              As Classified       As
     Total Number of Records Reviewed          in Sample      Determined
               by Color and Type                Selection       by OIG
    Red Notice                                     17             18
    Blue Notice                                    10             11
    Yellow Notice                                  10             11
    Green Notice                                   10             10
    Black Notice                                    7              7
    Orange Notice                                   2              2
    Stolen Art Notice                               3              3
    Purple Notice                                   1              0
    Total Foreign Notices                          60             62

                                              As Classified       As
     Total Number of Records Reviewed          in Sample      Determined
               by Color and Type                Selection       by OIG
    Wanted Person (Red) Diffusion                  21             20
    Trace and Locate (Blue) Diffusion              10              9
    Missing Person (Yellow) Diffusion              10             11
    Criminal Activity (Green) Diffusion             4              2
    Dead Body (Black) Diffusion                     7              7
    Humanitarian Diffusion                          3              3
    Stolen Art Diffusion                            1              1
    Total Foreign Diffusions                       56             53
    Total Foreign Notices and Diffusions          116            115

      Using this sample of ENVOY case records pertaining to foreign notices
and diffusions, we performed various tests to ensure that the information
from each notice and diffusion was entered into ENVOY in an accurate and
timely manner. Further, we reviewed case-related information pertaining to
the notices and diffusions to ensure that the requests for assistance and
information were handled in an appropriate, efficient, and timely manner.

       We performed supplementary testing for the records associated with
the foreign notices and diffusions that are eligible for entry into domestic law
enforcement databases, including TECS and NCIC. Of the 115 records in our
sample, 23 pertain to foreign notices and diffusions, including black, orange,
white, and humanitarian. Because some of this information may not be
suitable for use in the majority of screening processes involving domestic
databases, we excluded it from this analysis. As a result, we tested
92 records that pertain to red, blue, yellow, and green foreign notices and
diffusions.



                                    - 91 –
       We reviewed related records from the pertinent automated domestic
data systems used to store, among other things, criminal information by
DHS, the FBI, and USNCB, to determine if the individuals were included in
the databases in a timely manner and the information was accurate,
complete, and consistent. The automated data systems were the USNCB’s
ENVOY, DHS’s TECS, and the FBI’s NCIC. Specifically, we attempted to
determine whether basic identifying information (e.g., name, gender, place
of birth, date of birth, passport number, passport country of issuance, any
additional identification information) as well as physical characteristics (e.g.,
hair and eye color, height, weight) listed on the notice or diffusion were
accurately entered into the domestic databases in a timely manner.

Controls over INTERPOL Case Information

      To assess the USNCB’s controls over INTERPOL case-related
information, we reviewed the USNCB’s internal case management policy
manual and observed USNCB analysts’ management of cases. We
performed various tests to ensure that the requests for assistance and
information were well coordinated. We also reviewed documentation
pertaining to the USNCB’s electronic case management system, ENVOY, and
assessed the USNCB’s processes for safeguarding the information contained
within ENVOY, including records retention and disposal.

USNCB Mission and Priorities

       To assess the USNCB’s organizational roles and strategic priorities, we
examined the USNCB’s mission, organizational structure, and operational
environment. We also reviewed documentation and interviewed various
officials to ensure that the USNCB’s efforts are in line with DOJ priorities and
reflect the USNCB’s role in the post-September 11, 2001, world.




                                     - 92 –
                                                                 APPENDIX II


                  STATEMENT ON COMPLIANCE
                 WITH LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected records,
procedures, and practices, to obtain reasonable assurance that the United
States National Central Bureau’s (USNCB) management complied with
federal laws and regulations, for which noncompliance, in our judgment,
could have a material effect on the results of our audit. USNCB
management is responsible for ensuring compliance with federal laws and
regulations applicable to the USNCB. In planning our audit, we identified the
following laws, regulations, and requirements that concerned the operations
of the auditee and that were significant within the context of the audit
objectives:

      •     The Freedom of Information Act 1.5 U.S.C. § 552 (2000 &
            Supp. III 2003)

      •     The Privacy Act (28 C.F.R § 16.103) (2008)

      •     ICPO-INTERPOL Constitution and General Regulations

      •     Memorandum of Understanding between the Department of
            Homeland Security and the U.S. Department of Justice
            pertaining to U.S. membership in the international criminal
            police organization (INTERPOL), and related matters (2003)

      Our audit included examining, on a test basis, the USNCB’s compliance
with the aforementioned laws, regulations, and requirements that could have
a material effect on the USNCB’s operations, through interviews of USNCB
personnel, the analysis of procedures and practices, and case file
examination.

      As noted in the body of this report, we found that the USNCB did not
comply with elements of the Privacy Act because it has not archived case-
related information as outlined in its System of Records Notice (SORN). As
part of the agreement of participating in INTERPOL, member countries agree
to abide by the established rules for the maintenance, retention, and
deletion of information. Contrary to these rules, the USNCB has not ensured
that the information it provides to other organizations is accurate, complete,
and current. Further, the USNCB has not ensured that INTERPOL
information is appropriately controlled and safeguarded.



                                    - 93 –
                                                                 APPENDIX III


              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the United States National
Central Bureau’s (USNCB) internal controls was not made for the purpose of
providing assurance on its internal control structure as a whole. USNCB
management is responsible for the establishment and maintenance of
internal controls.

       As noted in the body of this report, we identified deficiencies in the
USNCB’s internal controls that are significant within the context of the audit
objectives. Based upon the audit work performed, we believe these
deficiencies adversely affect the USNCB’s ability to properly perform its core
mission. We identified four main weaknesses in our report: (1) The USNCB
has not made critical international criminal information available to U.S. law
enforcement agencies, which has increased the potential that high-risk,
violent criminals could enter the United States undetected; (2) The USNCB
has not implemented adequate controls or processes to ensure that the
INTERPOL information it has made available to domestic agencies is
accurate, current, and timely. This has resulted in domestic law
enforcement systems that likely contain out-of-date or incomplete data,
includes information on individuals for whom no law enforcement agency has
a current investigative interest, and may violate other member countries’
privacy laws; (3) The USNCB’s internal case management information
system, ENVOY, contains deficiencies that prevent the USNCB from
adequately maintaining, controlling, and disposing of case-related
information; compiling management statistics; and generating standardized
correspondence; and (4) The USNCB has not adequately maintained the
communication channels established for interacting with its domestic law
enforcement partners. As a result, critical law enforcement information or
requests for assistance may not be reaching the intended recipients. These
issues are discussed within the body of this report.

      Because we are not expressing an opinion on the USNCB’s internal
control structure as a whole, this statement is intended solely for the
information and use of the auditee. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.



                                    - 94 –
                                                        APPENDIX IV


                INTERPOL MEMBER COUNTRIES


Afghanistan                     Costa Rica
Albania                         Côte d'Ivoire
Algeria                         Croatia
Andorra                         Cuba
Angola                          Cyprus
Antigua and Barbuda             Czech Republic
Argentina                       Denmark
Armenia                         Djibouti
Aruba                           Dominica
Australia                       Dominican Republic
Austria                         Ecuador
Azerbaijan                      Egypt
Bahamas                         El Salvador
Bahrain                         Equatorial Guinea
Bangladesh                      Eritrea
Barbados                        Estonia
Belarus                         Ethiopia
Belgium                         Fiji
Belize                          Finland
Benin                           Former Yugoslav Republic of Macedonia
Bhutan                          France
Bolivia                         Gabon
Bosnia and Herzegovina          Gambia
Botswana                        Georgia
Brazil                          Germany
Brunei Darussalam               Ghana
Bulgaria                        Greece
Burkina Faso                    Grenada
Burundi                         Guatemala
Cambodia                        Guinea
Cameroon                        Guinea-Bissau
Canada                          Guyana
Cape Verde                      Haiti
Central African Republic        Honduras
Chad                            Hungary
Chile                           Iceland
China                           India
Colombia                        Indonesia
Comoros                         Iran
Congo                           Iraq
Congo (Democratic Republic)     Ireland


                              - 95 –
Israel                 Nigeria
Italy                  Norway
Jamaica                Oman
Japan                  Pakistan
Jordan                 Panama
Kazakhstan             Papua New Guinea
Kenya                  Paraguay
Korea (Republic of)    Peru
Kuwait                 Philippines
Kyrgyzstan             Poland
Laos                   Portugal
Latvia                 Qatar
Lebanon                Romania
Lesotho                Russia
Liberia                Rwanda
Libya                  Saint Kitts and Nevis
Liechtenstein          Saint Lucia
Lithuania              Saint Vincent and the Grenadines
Luxembourg             San Marino (Republic of)
Madagascar             Sao Tome and Principe
Malawi                 Saudi Arabia
Malaysia               Senegal
Maldives               Serbia and Montenegro
Mali                   Seychelles
Malta                  Sierra Leone
Marshall Islands       Singapore
Mauritania             Slovakia
Mauritius              Slovenia
Mexico                 Somalia
Moldova                South Africa
Monaco                 Spain
Mongolia               Sri Lanka
Montenegro             Sudan
Morocco                Surinam
Mozambique             Swaziland
Myanmar                Sweden
Namibia                Switzerland
Nauru                  Syria
Nepal                  Tajikistan
Netherlands            Tanzania
Netherlands Antilles   Thailand
New Zealand            Timor-Leste
Nicaragua              Togo
Niger                  Tonga


                       - 96 –
Trinidad and Tobago
Tunisia
Turkey
Turkmenistan
Uganda
Ukraine
United Arab Emirates
United Kingdom
United States of America
Uruguay
Uzbekistan
Vatican City State
Venezuela
Vietnam
Yemen
Zambia
Zimbabwe




                           - 97 –
                                                       APPENDIX V


             USNCB STATE & LOCAL LIAISONS


Alabama                Alabama Bureau of Investigation
Alaska                 Alaska State Troopers
Arizona                Arizona Department of Public Safety
Arkansas               Arkansas State Police
California             California Department of Justice
                       Los Angeles Police Department
                       Los Angeles County Sheriff’s Department
                       San Diego Criminal Intelligence Unit
                       San Francisco Police Department
Colorado               Colorado Bureau of Investigation
Connecticut            Connecticut State Police
Delaware               Delaware State Police
District of Columbia   Washington Metropolitan Police Department
Florida                Florida Department of Law Enforcement
                       Miami-Dade Police Department
Georgia                Georgia Bureau of Investigation
Hawaii                 Department of the Attorney General
Idaho                  Criminal Investigation Bureau
Illinois               Illinois State Police
                       Chicago Police Department
Indiana                Indiana State Police
Iowa                   Iowa Department of Public Safety
Kansas                 Kansas Bureau of Investigation
Kentucky               Kentucky State Police
Louisiana              Louisiana State Police
Maine                  Maine State Police
Maryland               Maryland State Police
Massachusetts          Massachusetts State Police
                       Boston Police Department
Michigan               Michigan State Police
Minnesota              Bureau of Criminal Apprehension
Mississippi            Mississippi Department of Public Safety
Missouri               Missouri State Highway Patrol
Montana                Montana All Threat Intel Center
Nebraska               Nebraska State Patrol
Nevada                 Nevada Division of Investigation
New Hampshire          New Hampshire State Police
New Jersey             New Jersey State Police
New Mexico             New Mexico State Police



                              - 98 –
New York              New York State Police
                      New York New Jersey HIDTA
North Carolina        North Carolina State Bureau of Investigation
North Dakota          Bureau of Criminal Investigation
Ohio                  Criminal Intelligence Unit
Oklahoma              Oklahoma State Bureau of Investigation
Oregon                Oregon State Police
Pennsylvania          Pennsylvania Office of the Attorney General
Rhode Island          Rhode Island State Police Headquarters
South Carolina        South Carolina Law Enforcement Division
South Dakota          Division of Criminal Investigation
Tennessee             Tennessee Bureau of Investigation
Texas                 Texas Criminal Investigations Division
                      Houston Police Department
Utah                  Utah Criminal Intelligence Center
Vermont               Vermont Fusion Center
Virginia              Virginia State Police
Washington            Washington State Patrol
                      Seattle Police Intelligence Section
West Virginia         West Virginia State Police
Wisconsin             Wisconsin Department of Justice
Wyoming               Wyoming Division of Criminal Investigation
U.S. American         American Samoa Government
Samoa
Puerto Rico           Puerto Rico Department of Justice
U.S. Virgin Islands   Virgin Islands Police Department
Guam                  Guam Police Department
U.S. Commonwealth     Department of Public Safety
of the Northern
Mariana Islands




                             - 99 –
                                                               APPENDIX VI


           USNCB QUESTIONNAIRE AND RESPONSES

              ***Please Respond by August 22, 2008***

The United States National Central Bureau (USNCB) for Interpol is the U.S.
contact for the Interpol database. Our records indicate you are a State or
Local Liaison to the USNCB. The Department of Justice, Office of the
Inspector General is conducting a performance audit of the USNCB. Please
take a few moments to answer the questions that apply to your
organization.

Please submit your response via e-mail to a secure mailbox to which the
USNCB has no access at OIGSurvey@US.IGCS.INT or via facsimile to the
Department of Justice, Office of the Inspector General at (312) 886-0513.

Organization Name:

1.   In your opinion, how many officers in your jurisdiction are aware of the
     Interpol database? (Check (√) one that applies) [58 respondents]

          Almost all officers are aware                     5%
          Most are aware                                   21%
          Some are aware                                   50%
          Few are aware                                    22%
          None are aware (please explain why)               2%


     The OIG received the following comments:

     •     One city has sent internal documents to all officers;
     •     Another city has not publicized the Interpol database throughout
           the entire department, but relies on word of mouth; and
     •     One state has described Interpol resources in statewide
           intelligence bulletins.




                                  - 100 –
2.   In your opinion, of those officers aware of the database, how
     knowledgeable are they about the usefulness of the information in the
     Interpol database? (Check (√) one that applies) [57 respondents]

         Extremely knowledgeable
         Very knowledgeable                                5%
         Somewhat knowledgeable                           81%
         Not knowledgeable (please explain why)           14%


     The OIG received the following comments:

     Most of the respondents stated that the officers are not aware, haven’t
     had training, or that training would be helpful.



3.   Do you access the Interpol database directly?
     (Check (√) one that applies) [57 respondents]

      Yes       (51%)         No       (49%)
     
     If yes, was the Interpol database easy to use? [30 respondents]

           Yes       (73%)        No         (27%)
                                  
                                  If no, please explain why.



     The OIG received the following comments:

     •    One state said that they have had trouble doing the practice
          session, and
     •    One city said that no training has ever been done on a local
          basis.




                                  - 101 –
4.   If you access the Interpol database directly, how frequently do you
     access it? (Check (√) one that applies) [35 respondents]

         Daily                                             9%
         Weekly                                           31%
         Monthly                                          37%
         Yearly                                            3%
         Never                                            20%
          
          If never, please explain why.


     The OIG received no comments for this question.




5.   How frequently do you interact with the USNCB via telephone or
     e-mail? (Check (√) one that applies) [58 respondents]

         Daily                                             5%
         Weekly                                           45%
         Monthly                                          36%
         Yearly                                            7%
         Never                                             7%



     The OIG received no comments for this question.




                                 - 102 –
6.   If you have been a liaison to the USNCB for 2 or more years, has there
     been a change in the frequency of your communication with the
     USNCB in the past 2 years? (Check (√) one that applies)
     [56 respondents]

      Yes (39%)         No (32%)         Not applicable (29%)
     
     If ‘Yes’, how did the frequency of communication change?
     (Check (√) one that applies) [22 respondents]

      Increased       (100%)          Decreased

          Please describe any reasons for the change.



     The OIG received the following comments:

     •    Better/secure communication through RISS.net;
     •    Attendance at USNCB Liaison training improved understanding of
          responsibilities;
     •    World’s getting smaller;
     •    Police Departments are getting more pro-active in requesting
          information from other countries;
     •    More comfort in contacting USNCB with inquiries; and
     •    More personnel becoming aware of the capabilities.



7.   In your opinion, how helpful was the USNCB information when
     investigating cases? (Check (√) one that applies) [54 respondents]

         Extremely helpful                               11%
         Very Helpful                                    50%
         Somewhat helpful                                37%
         A little or not helpful                          2%


     The OIG received no comments for this question.




                                    - 103 –
8.    In general, how timely has the USNCB responded to your requests?
      (Check (√) one that applies) [52 respondents]

          Always timely                                    27%
          Often timely                                     38%
          Sometimes timely                                 27%
          Rarely timely                                     8%


      The OIG received no comments for this question.



9.    In general, how complete was the information provided to you by the
      USNCB in response to your requests? (Check (√) one that applies)
      [52 respondents]

          Complete                                         67%
          Somewhat complete                                33%
          Not complete                                      0%


      The OIG received no comments for this question.



10.   On an average, how often do the law enforcement agencies in your
      jurisdiction request Interpol information? (Check (√) one that applies)
      [56 respondents]

          Daily                                             2%
          Weekly                                            9%
          Monthly                                          46%
          Yearly                                           38%
          Never                                             5%
           
           If never, please explain why.



      From the 5% that answered never, the explanations were:

      •    No publicity about the database existence, and
      •    Unsure what type of information can be obtained.



                                   - 104 –
11.   If you have been a liaison to the USNCB for 2 or more years, has the
      number of requests from the law enforcement agencies in your
      jurisdiction (about international-related cases) changed during the
      past 2 years? [55 respondents]

       Yes (25%)         No (44%)         Not applicable (31%)
      
      If ‘Yes’, how did the frequency of communication change?
      (Check (√) one that applies) [15 respondents]

       Increased      (100%)         Decreased

           Please describe any reasons for the change.


      Comments received regarding any reasons for the change:

      •    More residents from other countries living here illegally;
      •    Local law enforcement either seems more open to request
           information and/or there has been an increase in these types of
           cases within the rural areas; and
      •    USNCB staff assisted in training unit personnel.



12.   Have the law enforcement agencies in your jurisdiction ever provided
      feedback regarding USNCB information and assistance?
      [54 respondents]

       Yes (please explain about the feedback) (17%)      No (83%)


      The OIG received the following comments:

      •    Two “thank-yous” for the assistance/information;
      •    Frustration at the slowness;
      •    Not understanding guidelines for issuing notices;
      •    The other countries are slower to respond or not respond at all;
      •    Usually positive although timeliness is always a concern;
      •    Disappointed that the requesting country didn’t have as much
           information on the subject they were investigating; and
      •    Information received was useful but it takes too long to get
           response back.



                                  - 105 –
13.   Are there any comments or concerns regarding the USNCB services?
      Please describe below.


      The OIG received the following overall comments:

      •    The Special Agents that I have the pleasure working with from
           INTERPOL have been extremely helpful. They have provided
           insight to other aspects that I may have over looked in a case
           and are always up front in advising if specific information is
           attainable from other member countries. They have been very
           good about keeping in touch with me on pending requests. And
           the response time in acknowledgement of a new request is
           outstanding. It's a pleasure working with the USNCB individuals
           and I appreciate all the assistance they have provided me.

      •    The USNCB is a valuable resource for this Unit and the state.

      •    Some of the other countries take too long to respond and
           process is labor intensive. I receive a request from my state, I
           send a request to D.C., they send a request to the country, the
           country responds to D.C., and D.C. sends a response to me and
           I send a response to the requester. There are some situations
           that are more appropriate for the officer here to e-mail and
           phone directly. This could occur after the Interpol number is
           assigned. Response would be much quicker.

      •    Every contact with USNCB has been positive. The patience of
           USNCB representatives during our transition period has been
           most appreciated.

      •    We provide a great deal more information than we request. The
           volume of requests from USNCB has increased steadily. In our
           experience, a significant percentage of the requests from USNCB
           could be handled by USNCB or other federal agencies.

      •    More training for new state liaisons.

      •    It is not a case where we do not use this data base. It is a
           matter of having too many databases to check. In the case of
           Interpol it is usually reserved for international inquiries.

      •    My experience with the USNCB has always been positive. They
           are professional courteous and bend over backwards to help!


                                  - 106 –
•   The only critique is the method of communication; the Rissnet
    secure e-mail system is slow, cumbersome and often frustrating
    to use. Because of that, I rarely use it and only when required
    to correspond with USNCB. That may be the nature of secure
    e-mail systems.

•   We greatly enjoy the spool of USNCB intelligence and open
    source information. The information is received daily and in a
    timely manner.

•   I have not received timely responses and this is very frustrating.
    It also does not encourage use when the information is not
    received for months at a time.

•   I'm very happy with the services USNCB provides. It's difficult
    to get some out of country request that flows through the
    USNCB answered quickly but that appears to me to be the fault
    of the country receiving the request.

•   Sending and receiving all requests, replies, and messages via
    e-mail works much better for me. The information sent via
    teletype sometimes gets lost, and I never see it. Fortunately,
    the majority of my communications is now being conducted via
    e-mail.

•   We are unable to access the database. It is the fault of our
    organization as far as I know! The Assistant Director of Interpol
    has tried!

•   (1) Acknowledgment of receipt of electronic communications
    (not just a "read receipt").

    (2) Allow liaisons to electronically track or check the case
    status.

    (3) Love the new database I-24/7. It's easy to use, results
    return quickly, and data is presented in a way that is easy to
    understand.

•   USNCB should do an automatic resending (second request) of a
    message to a foreign country, if that country fails to respond in
    thirty (30) days. The requesting agency should be notified and



                           - 107 –
    provided documentation that the original request and/or
    additional re-sent request are forwarded to a foreign country.

•   The main concern is when receiving a request for assistance
    from INTERPOL minimal information is provided. It would be
    helpful for INTERPOL to provide as much information as possible
    when sending a request to us. Usually, the information needed
    is an identifier or is very basic and may be information that
    INTERPOL already has or could easily find out. This would save
    valuable time being that by the time we receive the initial
    request, it is usually several months late.

•   I have had problems with getting confirmation that they have
    received reports I have sent to them using the RISS e-mail
    system.

•   We are looking forward to using the database and feel we will be
    able to obtain information that will assist in our investigations.
    While I have only been the liaison for approximately 1 year all of
    my dealings with the USNCB have been very informative and
    helpful.

•   We would like to obtain a simple manual or guide on the use of
    the I-24/7 in order to efficiently use the Interpol system.

•   There is no way of knowing if USNCB has received any e-mail
    response that may have been sent to them. Often receive a
    message stating e-mail deleted without being read. Very little
    communication from USNCB other than e-mail. E-mail often
    cumbersome to use with required headers and footers no matter
    how short the message. E-mail requests often lacking needed
    information for a case, with no phone contact information
    available. Training needed for outlying areas away from D.C.

•   Like the connectivity of Interpol liaison using the Riss.net
    system. I get notified by MOCIC when the USNCB has sent me a
    specific e-mail that requires response & that works well.

•   In this age of computers, it would be useful to have access via
    computer - possibly VPN connection to all personnel designated
    access users.

•   Superb response - extremely efficient & always helpful!



                           - 108 –
•   There have been some recent issues with INTERPOL
    communications and requests coming from the USNCB Watch
    Center that are not being directed to the appropriate INTERPOL
    liaisons with jurisdiction over the matter. This issue has
    manifested itself in two ways, primarily:

       1. Often, no distinction is made between the INTERPOL
          liaisons that represent the New York Police Department
          and the INTERPOL liaisons that represent the remaining
          law enforcement jurisdictions outside of the five boroughs
          of New York City. Sometimes the IP-USNCB sends the
          request to both entities in New York State, but often the
          request is sent to only one of them, and it is the incorrect
          agency. This leads to numerous requests made of the
          USNCB to re-direct the request to the appropriate entity,
          or in an exigent circumstance, losing valuable response
          time while the request gets sent directly between the two
          liaison offices so the appropriate agency can respond.

       2. Cases involving federal issues are not being directed to the
          appropriate federal law enforcement agency with
          jurisdiction over the matter. Instead, they are being sent
          to state-level IP liaisons that lack jurisdiction to intervene.
          In recent months, there have been several examples of
          this concern, where cases involving the location of possible
          international war criminals, child/human trafficking, and
          international Internet fraud were directed to the state
          liaisons instead of the appropriate federal law enforcement
          agency. The concern has also operated in reverse, where
          an urgent DNA databank search request relating to a
          homicide investigation was misdirected to the FBI-NY
          instead of the NYS INTERPOL liaisons, resulting in much
          confusion and delay about what entity was supposed to
          respond to the request. It was only after extensive file
          checks and communication with USNCB that is was
          revealed where the original request was sent to, and what
          happened subsequently.

•   We are looking forward to utilizing Interpol for requests.

•   It is a great law enforcement tool. Everyone should have
    access.

•   What types of information can be obtained. How will it help us?


                            - 109 –
      •     Recently assigned liaison.

      •     There seems to certain countries that send out numerous
            requests, and all of their requests are answered in a timely
            fashion. From experience, those same countries don't honor the
            same timeframe when my agency puts out the request.

      •     I would like to request training and direct access to the
            INTERPOL database.



Thank you for taking the time to complete the questionnaire. Your
participation is greatly appreciated and will help us in our audit of the
USNCB.




                                    - 110 –
                                                                  APPENDIX VII



                           INTERPOL NOTICES

       INTERPOL utilizes a system of color-coded international notices and
diffusions to share critical crime-related information with each of the
187 member countries. The information concerns individuals wanted for
serious crimes, missing persons, unidentified bodies, possible threats, and
criminals’ modus operandi. At the meeting of the INTERPOL General
Assembly in October 2008, the member countries adopted a new framework
for the issuance of notices. According to INTERPOL guidelines, the following
is the definition and purpose for each notice, as well as the criteria for
issuing them:

Red Notices

       Red notices are published in order to seek the location and arrest of a
person with a view to his or her extradition. Before a National Central
Bureau or an authorized international entity requests publication and
circulation of a red notice, it shall ensure that:

   -   the person sought is the subject of criminal proceedings or has been
       convicted of a crime and references to an enforceable arrest warrant,
       court decision, or other judicial documents are provided;

   -   assurances have been given that extradition will be sought upon arrest
       of the person, in conformity with national laws or the applicable
       bilateral and multilateral treaties; and

   -   sufficient information is provided to allow for the cooperation
       requested to be effective.

Blue Notices

       Blue notices are published in order to obtain information about, locate,
or identify a person of interest in a criminal investigation. Before a National
Central Bureau, a national authorized institution, or an authorized
international entity requests publication and circulation of a blue notice, it
shall ensure that:

   -   the person is someone of interest in a criminal investigation, such as a
       criminal, a suspect, an accomplice, an associate or a witness;
   -




                                    - 111 –
   -   additional information on the possible criminal history, status, location,
       or identity of the person or any other information relevant to the
       criminal investigation is sought; and

   -   sufficient information is provided to allow for the cooperation
       requested to be effective.

Green Notices

       Green notices are published to warn about a person's criminal
activities. Before a National Central Bureau, a national authorized
institution, or an authorized international entity requests publication and
circulation of a green notice, it shall ensure that:

   -   the person is considered to be a possible threat to public safety or
       someone likely to commit a criminal offense;

   -   the conclusion is based on an assessment by a national law
       enforcement authority or an authorized international entity;

   -   the assessment is based on the person’s previous criminal conviction
       or other reasonable grounds; and

   -   sufficient information is provided to allow for the warning to be
       relevant.

Yellow Notices

      Yellow notices are published to locate a missing person or to identify a
person unable to identify himself or herself. Before a National Central
Bureau, a national authorized institution, or an authorized international
entity requests publication and circulation of a yellow notice, it shall ensure
that:

   -   if the notice is published to locate a missing person, the person has
       been reported missing to police, his or her whereabouts are unknown
       and the person's anonymity or privacy is not protected by the
       applicable national laws.

   -   if the notice is published to identify a person unable to identify himself
       or herself, the request is being made because a person has been found
       and he or she is unable to identify himself or herself; and

   -   sufficient information is provided to allow for identification.


                                      - 112 –
Black Notices

       Black notices are published to identify dead bodies. Before a National
Central Bureau, a national authorized institution, or an authorized
international entity requests publication and circulation of a black notice, it
shall ensure that:

   -   the request is being made because a body has been found and it has
       not been identified; and

   -   sufficient information is provided to allow for identification.

Stolen Works of Art

      Stolen works of art notices are published to locate works of art or
items of cultural value that have been stolen, or to identify such objects
discovered in suspicious circumstances. Before a National Central Bureau, a
national authorized institution, or an authorized international entity requests
publication and circulation of a stolen work of art notice, it shall ensure that:

   -   the work of art or item of cultural value is of interest in a criminal
       investigation;

   -   it has some unique characteristic or is of considerable value; and

   -   sufficient information is provided to allow identification.

Purple Notices

       Purple notices are published to provide information on methods,
procedures, objects, devices and hiding places used by criminals. Before a
National Central Bureau, a national authorized institution, or an authorized
international entity requests publication and circulation of a purple notice, it
shall ensure that the circulation of the information in the form of a notice is
of specific international interest to the police and is in the interests of public
safety.

Special Notices

      Special notices are published on the basis of an agreement with
another international organization concluded pursuant to Article 41 of the
INTERPOL Constitution. Before an international authorized entity requests
publication and circulation of a special notice, it shall ensure that:


                                      - 113 –
   -   the information satisfies the conditions for publishing such notices, as
       defined in the said agreement; and

   -   sufficient information is provided to allow for the cooperation
       requested to be effective.

Orange Notices

       Orange notices are published to warn about a person, an object, an
event, or a modus operandi representing an imminent threat to public safety
and likely to cause serious damage to property or injury to persons. Before
a National Central Bureau, a national authorized institution, or an authorized
international entity requests publication and circulation of an orange notice,
it shall ensure that:

   -   in the case of a person, he or she is considered to be an imminent
       threat to public safety or someone likely to commit a criminal offense;
       this conclusion is based on an assessment by a national law
       enforcement authority;

   -   this assessment is based on the person’s previous criminal conviction
       or other reasonable grounds;

   -   in the case of an object, modus operandi, or event, it is considered an
       imminent threat to public safety; this conclusion is based on an
       assessment by a national law enforcement authority; and

   -   sufficient information is provided to allow for the warning to be
       relevant.

Orange Notices constitute alerts and it is up to each country to take
appropriate measures, in conformity with its national laws.




                                     - 114 –
                                                              APPENDIX VIII


       DATABASES USED IN DOMESTIC INTERNATIONAL
            CRIMINAL INFORMATION SHARING

      To ensure that domestic law enforcement personnel have access to
criminal and terrorist-related information on international criminals, the
USNCB assists domestic law enforcement agencies with obtaining direct
access to the INTERPOL databases. In addition, the USNCB exports or sends
international criminal data to other domestic systems. Following are
descriptions of the U.S. databases that receive INTERPOL information.

CLASS

      The Consular Lookout and Support System (CLASS) is maintained by
the Department of State (State Department). CLASS, divided into
CLASS/Visa and CLASS/Passport, is used by State Department
representatives when processing visa and passport applications,
respectively.

NCIC

       The National Crime Information Center (NCIC) is maintained by the
FBI and is a nationwide information system dedicated to serving and
supporting criminal justice agencies – federal, state, local, and tribal – in
their mission to uphold the law and protect the public. NCIC serves criminal
justice agencies in all 50 states, the District of Columbia, the Commonwealth
of Puerto Rico, the United States Virgin Islands, American Samoa, Guam,
and Canada, as well as federal agencies with law enforcement missions.
NCIC can be accessed at the lowest level by an officer on the street.

TECS

      The Department of Homeland Security’s (DHS) TECS is an overarching
law enforcement information collection, analysis, and sharing environment.
This environment is comprised of several modules designed to collect,
maintain, and screen data; conduct analysis, and share information.

TIDE

       The Terrorist Identities Datamart Environment (TIDE) is the U.S.
government’s central repository of information on international terrorist
identities. TIDE supports the U.S. government’s various terrorist screening
systems, or “watchlists,” and the U.S. intelligence community’s overall
counterterrorism mission. The TIDE database includes, to the extent
permitted by law, all information the U.S. government possesses related to


                                  - 115 –
the identities of individuals known or appropriately suspected to be or have
been involved in activities constituting, in preparation for, in aid of, or
related to terrorism, with the exception of purely domestic terrorism
information.

US-VISIT

       Overseen by DHS, US-VISIT is the automated system that records
travelers’ entry and exit to and from the United States at over 300 ports of
entry around the country, verifies their identity, and determines their
compliance with the terms of their admission and stay. The system also
collects, maintains, and shares information, including biometric identifiers, to
determine whether travelers should be prohibited from entering the United
States or if they have overstayed their visas.




                                    - 116 –
                                                                                                 APPENDIX IX



UNITED STATES NATIONAL CENTRAL BUREAU RESPONSE


                                                           u.s. Department ~,r Justice
                                                                   ,
                                               \           INTERPOL - U.S. Nalional Cenlral Bureau



                                                           Wtti hl"1:'OIl, D,C;. 2()5J()

                                                           August 3, 2009.



     MEMORANDUM FOR MR. RAYMOND J. BEAUDET
                                        ENERAL

     FROM :



     SUBJECT:                "DRAFT AUDIT REPORT - THE UNITED STATES NATIONAL CENTRAL
                             BUREAU OF INTERPOL"



              We have reviewed your Draft Audit Report dated ·duly 13,2009, and appreciate the
     opportunity to comment on the recommendations laid out in the report.

              I am pleased to inform you that, since the audit began in March 2008, the INTERPOL­
     U.S. National Central Bureau (USNCB) has taken a number of actions in response to your
     findings. We are also evaluating how best to implement several of the recommendations in
     light of ongoing USNCB information sharing initiatives. I am confident that your report will
     serve to strengthen the effectiveness of our operations and enhance the value of our
     contribution to the Department's mission.

            Recommendations 1 and 23 to 25 were directed to the Office of the Deputy
     Attorney General, which will respond separately to those recommendations. I have :
     attached the USNCB's responses to recommendations 2-22, 26 and 27 with supporting
     documentation.

            We have submitted our sensitivity review to Ms. Carol S. Taraszka, Regional Audit
     Manager, as instructed by your cover memorandum dated July 13, 2009. Should you have
     any questions regarding our response, please contact me on (202) 616-9700 or Warren
     Lewis, Executive Officer, on (202) 616-8810.



     Attachments

     cc:      Deputy Attorney General
              Deputy Secretary, Department of Homeland Security
              Richard P. TheiS, Assistant Director, Audit Liaison Group
               Justice Management Division



  [The USNCB’s response included two attachments. We have not included these
            attachments in our report due to their technical nature.]




                                                   - 117 –

Recommendation 2. Work with domestic law enforcement partners to ensure that the
agencies issue INTERPOL notices for appropriate international fugitives, particularly those
already publicly identified on the agencies’ websites or elsewhere.

USNCB Response: Agree. The USNCB has implemented policy and procedures to regularly
monitor U.S. ‘Most Wanted’ programs to identify subjects for inclusion in INTERPOL’s notice
program. In order to facilitate this goal, the USNCB will contact the appropriate United States
Law Enforcement Agencies (USLEAs) to ensure that they are advised of INTERPOL's Notice
Program, and provide assistance with the issuance of INTERPOL Notices for those fugitives
where international leads have or may be identified. Assistant Directors (ADs) for USNCB
investigative divisions will report the publication of INTERPOL notices for subjects who are also
publicized on agency ‘Most Wanted’ lists, websites, or other media, in USNCB monthly
significant activity reports. The USNCB will document those cases where an agency has
declined to pursue the publication of an INTERPOL notice on the basis of agency investigative
considerations. The USNCB will verify adherence to this policy through its Compliance Review
Program.

Recommendation 3. Encourage federal law enforcement agencies to provide USNCB and
INTERPOL-related training to their employees.

USNCB Response: Agree. The USNCB is in the process of formalizing a training outreach plan
for this purpose. Earlier this year, the USNCB Director met with the Federal Law Enforcement
Training Center (FLETC) in Glynco, Georgia, to formalize the development of an INTERPOL-
USNCB training course for all FLETC law enforcement personnel and analytical trainees. (The
FLETC serves as an interagency law enforcement training organization for more than 80 Federal
agencies.) The USNCB has provided FLETC with informational materials for the 2009-2010
classes, and is exploring a process to provide FLETC staff with instructional media and
scheduled updates as needed. Once established, the USNCB will consider use of the media
program for annual “in-service” training mandates, as well as training given to the Federal
Bureau of Investigation (FBI) and the Drug Enforcement Administration (DEA) students at their
academies in Quantico, Virginia.

To date, the USNCB has initiated specialized INTERPOL database training (to include general
information about the structure, mission, and activities of the INTERPOL organization) for
various components of the Departments of Justice and Homeland Security. Important targets
for this type of training are existing law enforcement fusion centers, task forces, call centers,
and information sharing networks. The USNCB has also provided refresher training to the DHS
Law Enforcement Support Center (LESC) on use of the INTERPOL database access already
enabled at the LESC.

The USNCB will continue to work with its law enforcement partners and the INTERPOL General
Secretariat in Lyon, France, to enhance INTERPOL training opportunities for the U.S. law
enforcement community.



                                            - 118 –
Recommendation 4. Develop a method for domestic law enforcement agencies to submit a
notice application electronically.

USNCB Response: Agree. With the assistance of a contractor, the USNCB will develop a plan to
implement a web portal that will allow domestic law enforcement agencies to submit
electronically notice applications in a format compatible with the USNCB case management
system development. Once deployed, the web portal (“IPOLNET”) will encourage greater use of
INTERPOL’s notices by USLEAs, and increase efficiencies in the USNCB’s notice processing. The
system will not, however, alleviate the need for the USNCB to carefully review incoming notice
applications from U.S. agencies for sufficiency, legal compliance, and to supplement the
information received from USLEAs with other relevant data available to the USNCB before final
publication by INTERPOL. The USNCB anticipates completion of IPOLNET by end of FY2010. The
USNCB will develop training methods to accompany the electronic notice application form. The
USNCB will also evaluate the impact resulting from the electronic submission of notices on the
USNCB’s workload, in anticipation of additional human resource needs. In the future, IPOLNET
will provide a common architecture for the delivery of INTERPOL-USNCB services, including
notice submissions. In the interim, the USNCB will continue to facilitate the submission of
notice applications by domestic law enforcement agencies via existing infrastructure (e.g.,
secure email, Regional Information Sharing System, and Law Enforcement Online).

Recommendation 5. Implement information technology solutions to more broadly share U.S.
stolen motor vehicle information with INTERPOL members.

USNCB Response: Agree. Currently the Federal Bureau of Investigation’s Criminal Justice
Information System (FBI/CJIS) allows limited foreign country access to US stolen motor vehicle
data through a USNCB-CJIS interface. To date, the FBI has not supported the uploading of US
data into the INTERPOL database in Lyon, France, due to the volume of these data transactions.
CJIS has also reported that it does not possess the required approval from the National Crime
Information Center (NCIC) Advisory Policy Board (APB), which provides policy oversight for
access to NCIC files, to authorize broad-scale INTERPOL access through the interface. The
USNCB will re-engage FBI/CJIS and INTERPOL’s General Secretariat in Lyon, France, to explore
whether these agencies will support making the necessary legal and policy changes (and
subsequent technical and procedural changes) to both US and INTERPOL systems, to allow
more INTERPOL countries access to these files through a proposed NCIC-INTERPOL interface.

Recommendation 6. Ensure that a reliable communications network is maintained with all
state and local liaison offices.

USNCB Response: Agree. Presently, the USNCB communicates with its State Liaison Offices
(SLOs) using existing secure networks, and the Regional Information Sharing System Networks
(RISS) as a backbone. The USNCB will improve monitoring of these extranet email connections
by polling each State Liaison email server every two hours. Alerts will be generated to the
USNCB when email delivery notifications are not received for these messages or round-trip
email communication is not validated. This step will allow the USNCB to proactively identify


                                          - 119 –
any email connectivity issues with our SLOs. The USNCB State and Local Liaison Division (SLLD)
will undertake a monthly poll of individual offices for any personnel changes in the user
directory to avoid communication errors. In the future, the USNCB’s planned “IPOLNET” web
portal will support expanded networking capability for its SLOs.

Recommendation 7. Develop a formal outreach plan that identifies and prioritizes law
enforcement organizations that would benefit from a better understanding of the USNCB and
INTERPOL.

USNCB Response: Agree. The USNCB will formalize a comprehensive outreach plan and
continue to explore areas to enhance INTERPOL training and raise awareness within the U.S.
law enforcement community. The plan will address communication, information sharing, and
training. The USNCB will improve its statistical reporting capability to better identify and
prioritize those law enforcement agencies that would most benefit from USNCB outreach
programs.

Recommendation 8. Review current and incoming green notices and determine if they are
appropriate for inclusion in NCIC.

USNCB Response: Agree. The USNCB has received approval from FBI/CJIS to enter foreign-
issued INTERPOL green notices on gang-related offenders into the Violent Gang and Terrorist
Offender File (VGTOF). The USNCB will begin making these entries once USNCB and CJIS have
implemented coding modifications to account for the specific purpose of these green notices.
However, the entry of INTERPOL foreign-issued green notice information on sexual offenders
into the NCIC Sexual Offender File requires the approval of the Advisory Policy Board (APB).
The USNCB submitted a topic request to the NCIC APB Federal Working Group representative to
propose the inclusion of this item at the NCIC APB’s spring 2010 meeting, and we are awaiting
confirmation. In the meantime, the USNCB will identify all active foreign green notice cases to
determine those eligible for inclusion into the appropriate NCIC files; update the offense codes
in the USNCB ENVOY database; and issue revised handling procedures to ensure that newly
published green notices are appropriately reviewed for inclusion into the NCIC VGTOF or Sexual
Offender Files.

Recommendation 9. Modify its policies and procedures regarding notice and diffusion
information to ensure that the appropriate data is shared with U.S. agency databases and is
made available to domestic law enforcement personnel in a timely manner.

USNCB Response: Agree. The USNCB is responsible for sharing information about domestic
fugitives and subjects of interest with police in its 186 counterpart INTERPOL member
countries; as well as informing domestic law enforcement about subjects of interest to foreign
counterparts. Although the recommendation does not make the distinction, we note that the
USNCB’s procedures for handling notice and diffusion information must differentiate between
foreign and domestic-issued notices and diffusions because USLEAs are responsible for placing
entries on their fugitives and subjects of interest into national lookout systems. The USNCB is


                                           - 120 –
responsible for placing entries on subjects of INTERPOL notifications into U.S. lookout systems.
USNCB presently enters subjects of foreign notices and diffusions into TECS, and notice subjects
into NCIC when criteria for that system are met. We agree there is great value in also making
information on subjects of foreign diffusions available to state and local law enforcement via
NCIC entries. To that end, beginning on 01 August 2009, USNCB staff began making NCIC entries
on subjects of foreign diffusions, when NCIC criteria are met. In addition, the USNCB will make
entries on foreign-issued notices and diffusions in either NCIC or TECS, but not both. TECS
queries are federated with NCIC, enabling TECS users access to USNCB entries in NCIC.

We note that the USNCB is not responsible for entering subjects of domestic notices and
diffusions (i.e., subjects wanted by U.S. law enforcement agencies) into NCIC and/or TECS as
appropriate. For the USNCB to place entries in domestic indices for fugitives or persons of
interest to domestic agencies would be duplicative, an infringement on the role and authority
of the primary investigating agencies, and a burden on USNCB resources. The USNCB is working
with the Department of State to enhance the exchange of INTERPOL data for purposes of
passport and visa adjudication. We have determined that the State Department Consular
Lookout and Support System (CLASS) receives wanted person records in a daily push from NCIC
to include USNCB entries on wanted persons.

As for timeliness, this is a high priority for the USNCB and we have made several changes to
improve efficiency in this area. In August 2008, following the USNCB’s NCIC Audit, we
implemented a procedural change requiring the USNCB Command Center to make the NCIC
entries on notices received during weekend hours. This ensures that the USNCB meets the
NCIC’s 24-hour entry requirement for federal agencies. More recently, the USNCB began
entering into IAFIS fingerprints associated with foreign diffusions. Finally, as stated above, the
USNCB will modify its policy to allow for the entry of foreign diffusions into NCIC so that this
information will be available to the domestic law enforcement community.

Long-term, the USNCB is exploring the establishment of a 24/7 Notice Section that will allow for
the uninterrupted processing of incoming foreign notices, and will improve the timeliness of
related entries into U.S. lookout systems. We will continue to streamline and improve our
processes in this area.

Recommendation 10. Develop procedures to ensure that any additional information the USNCB
obtains that augments previously provided domestic law enforcement agency data is made
available to all relevant agencies.

USNCB response: Agree. The USNCB has issued a policy directive and new case management
procedures instructing caseworkers to query relevant databases to obtain additional data, such
as identification and lead information, which may add value to the notices requested or
diffusions sent by the USNCB on behalf of domestic agencies. In addition, this policy directs
caseworkers to review all subsequent information obtained by the USNCB from other countries
or other agencies that relates to an existing case, and ensure that it is provided to the domestic
agency initiating the request on the subject and included in the USNCB’s case file. Finally, the


                                             - 121 –
directive requires that when any subsequent information relating to the subject of a notice is
received, the USNCB will ensure the information is submitted to the INTERPOL General
Secretariat (IPSG) as a request for addenda or corrigenda to the original notice, and to foreign
counterparts and requestors as appropriate. The USNCB will include this policy in its new
employee and refresher training programs. We consider this recommendation closed. (See
Attachment A).

Recommendation 11. Provide domestic law enforcement agencies with access to INTERPOL
information on stolen and lost travel documents.

USNCB response: Agree. Over the past several years, in an attempt to make stolen/lost travel
document (SLTD) data more readily available to domestic state and local law enforcement, the
USNCB enabled access to the SLTD database through an interface with the National Law
Enforcement Telecommunications System (NLETS). In order to activate the query, NLETS state
administrators must make technical modifications to local system configurations. To date, 21
states have made the necessary changes. The USNCB continues to encourage additional states
to implement these modifications as their resources and policies permit. We note that
INTERPOL policy does not allow for the wholesale downloading of INTERPOL SLTD data to
national databases, therefore USNCB is unable to enter these records directly into TECS or
NCIC.

Since the audit was performed in March 2008, the USNCB and FBI/CJIS agreed to test a direct
connection between the NCIC system and INTERPOL for query purposes. The results of this
pilot, currently ongoing for subject record queries, will determine if this interface can also
deliver SLTD data to state and local law enforcement in a timely manner. We anticipate the
completion of a preliminary assessment of the INTERPOL-NCIC interface pilot for subject
records by the end of the calendar year.

Recommendation 12. Work with the FBI to assess the feasibility of developing and
implementing a direct connection between the INTERPOL databases and NCIC.

USNCB Response: Agree. The USNCB is presently exploring with the FBI and the INTERPOL
General Secretariat (IPSG) in Lyon, France, the possibility of integrating queries of INTERPOL
databases into queries of NCIC by U.S. domestic authorities. In Spring 2009, the USNCB began a
pilot project with the ultimate goal of federating NCIC wanted subject queries with queries of
INTERPOL’s Automated Search Facility/Nominal Database. The pilot project simulates the
millions of subject record queries made each day to NCIC and runs these queries against
INTERPOL databases to test the ability and capacity of INTERPOL systems to provide timely and
accurate responses to the huge volume of queries by NCIC users. We anticipate the pilot to be
completed and results assessed by the end of this calendar year. We will then address the
technical, policy, legal, and resource requirements for integrating queries of INTERPOL
databases by foreign counterparts to NCIC queries. The ability to check INTERPOL databases
through a single NCIC query will provide U.S. law enforcement authorities the widest possible
access to critical international information in real-time.


                                            - 122 –
In the long term, the USNCB will also explore the feasibility of a business-to-business (B2B)
solution for sharing investigative data between INTERPOL and U.S. database systems. (B2B
involves the integration of database systems for high-volume search and response functions).
It should be noted that a B2B model requires direct coordination with multiple domestic and
international stakeholders, and would be a fundamental shift in INTERPOL’s current philosophy
of centralized storage of law enforcement data. Implementing this new approach, would
require a clear and well defined IT sharing and security model, and has far-reaching resource
implications. We believe that the USNCB is ideally positioned to provide a level of demarcation
between INTERPOL and national systems in the United States, to allow for the proper control
and validation of information flows between the two systems, in accordance with DOJ and
INTERPOL security policies. The USNCB advocates the B2B concept through its representation in
the INTERPOL Law Enforcement Advisory Group (ILETAG), the INTERPOL technical user group
which is tasked with examining INTERPOL’s current IT architecture to identify strategies for
expanding information sharing regimes. The ILETAG will meet again in early FY2010.

Recommendation 13. Review existing USNCB-generated lookout records to ensure that the
notice and diffusion information is accurate and consistent, including those identified by the
OIG in this review as being inaccurate or inconsistent.

USNCB Response: Agree. The USNCB will review the OIG identified cases and make appropriate
updates and corrections. Further, the USNCB will review all current TECS entries for accuracy.
NCIC entries are reviewed annually through the NCIC validation process. The USNCB has issued
a directive reminding Supervisors that they are required to review all TECS and NCIC entries
made by subordinate caseworkers within 48 hours to ensure the accuracy and completeness of
the information. All discrepancies are to be corrected immediately. Adherence to this policy is
reviewed annually as part of the USNCB’s Compliance Review Program.

Recommendation 14. Ensure that the notice and diffusion information retained in DHS’s IDENT
system and the FBI’s IAFIS is compliant with the INTERPOL Rules for Processing Information.
The USNCB should also coordinate with DHS and the FBI to implement an agreement regarding
the inclusion of fingerprints and photographs in their internal databases. This agreement
should describe the type of information to be shared, appropriate uses, retention period,
removal requirements, and written confirmation of removal.

USNCB Response: Agree. Over the past two years, the USNCB has facilitated the download of
INTERPOL fingerprint files to both the FBI and DHS for inclusion in the IAFIS and IDENT systems
respectively. (IDENT makes INTERPOL fingerprint files available for use by the United States
Visitor and Immigrant Status Indicator Technology (US-VISIT) system.) This interim approach
allowed us to ensure fingerprint files associated with known international criminals and
terrorists would be readily available to U.S. law enforcement and border security agencies in
real-time, until the IAFIS and IDENT systems were made compatible. Since the OIG audit was
conducted in Spring 2008, USNCB has performed a review of files in DHS’ IDENT and
recommended the deletion of 250 fingerprint files, in accordance with the INTERPOL Rules for


                                            - 123 –
the Processing of Information (RPI). While we have received email confirmation, we are
requesting formal written confirmation of the deletion of these files by the DHS/US-VISIT
Program Office. Further, FBI/CJIS has provided the USNCB with a list of all deletions completed
since June 2008 and now provides the USNCB with confirmation on each IAFIS deletion request
at the time the deletion is made.

Our ultimate goal is to use the FBI/CJIS IAFIS database as the central repository for INTERPOL
fingerprint data in the United States, simplifying the updates/cancellations of the data by the
USNCB and allowing FBI/CJIS to share the data with DHS/IDENT. Last year, the USNCB
concluded an informal agreement with FBI/CJIS and the US-VISIT Program Office to include
INTERPOL fingerprint records stored in IAFIS in the interim Data Sharing Model (iDSM). iDSM is
an interagency initiative permitting NCIC information to be available to DHS personnel at ports
of entry. Under the arrangement, the USNCB will continue to be responsible for creating and
updating INTERPOL records in IAFIS. FBI/CJIS will ensure that users of IAFIS, including DHS
personnel, have the most current information in conformity with the INTERPOL RPI. Full
implementation of the iDSM will also allow DHS to discontinue the storage of any INTERPOL
information, and to remove all INTERPOL information previously stored in the IDENT database.
FBI/CJIS is presently conducting a Privacy Impact Assessment for the inclusion of INTERPOL-
USNCB data into the iDSM. As the process moves forward the USNCB will seek to formalize the
agreement. DHS and CJIS anticipate that iDSM will be fully implemented by end of FY2010. Until
that time, the USNCB has implemented procedural changes to ensure that modifications to and
deletions of INTERPOL records are communicated to US-VISIT for timely updates to the IDENT
database.

Recommendation 15. Develop and implement automated processes to transmit INTERPOL
information to U.S. agency systems.

USNCB Response: Agree. The USNCB will coordinate with stakeholders from NCIC, relevant
domestic systems, and INTERPOL’s General Secretariat (IPSG), to explore technological
solutions for pushing INTERPOL updates/changes directly to NCIC. Such a system will require
that IPSG develop push technology, as present systems allow only for pulling of INTERPOL
subject records. Ultimately, the USNCB will pursue full system integration as a more efficient
data sharing model, one that addresses data storage and maintenance concerns more
effectively than the current central repository model.

Recommendation 16. Eliminate the backlog of notices and diffusions and develop procedures
to regularly monitor the timeliness of workflow processes.

USNCB Response: Agree. As a stopgap measure, the USNCB utilized existing resources to
address the current backlog. We anticipate that the backlog identified in the report will be
eliminated by the end of this calendar year. We also have begun preliminary plans to conduct a
“clean sweep” that will have agents, analysts, and supervisors work together to conduct a
thorough review of all open and suspended cases. Evaluations of workflow processes and



                                            - 124 –
workforce utilization will be elements of the USNCB’s IT Strategic Plan, discussed in
Recommendation 26, and its Human Capital Strategic Plan, discussed in Recommendation 20.
In the long-term, several planned initiatives should greatly improve the USNCB ability to
monitor the timeliness of workflow processes. These include deployment of USNCB’s new
management system, Customer Relationship Management Software (CRM), and related
workflow processes designed to provide a supervisory notification of inactivity for all assigned
tasks. In the interim, USNCB will monitor the timely handling of notices/diffusions through a
weekly report of those cases with no activity.

Recommendation 17. Review all active notices and diffusions to ensure that appropriate
database searches have been conducted.

USNCB Response: Agree. Over the last several months, the USNCB has utilized existing
resources to address a backlog of 1,537 cases requiring additional database searches. As of 24
July 2009, 1173 cases had been completed, and we will continue to work on the backlog until it
is eliminated. Consequently, the USNCB submitted funding requests for FY2011 for additional
resources to fully staff our Command Center and ensure our Notices Section can operate 24/7.
In the meantime, as part of the USNCB Human Capital Strategic Planning process, we will look
to additional workforce utilization techniques to prevent future backlogs.

 The USNCB Compliance Officer will provide a weekly report to USNCB Assistant Directors (ADs)
and Supervisory Analysts identifying all open and suspended diffusion and notice cases where
no query has been performed. ADs and Supervisors will be responsible for ensuring that
searches are conducted in a timely manner. The previously mentioned "clean sweep" project
(Recommendation 16) will help the USNCB catch any and all previously unidentified cases.

Recommendation 18. Develop and implement policies and procedures, including
technological solutions, to determine if subjects of INTERPOL notices and diffusions have
entered the United States subsequent to the receipt of the notice or diffusion.

USNCB Response: Agree. The USNCB maintains approximately 40,000 subject lookouts in the
TECS system for the primary purpose of being alerted by U.S. Customs and Border Protection
(CBP) if an INTERPOL wanted subject enters the country. In order to more accurately track
movements of INTERPOL fugitives and wanted persons and share that information with
appropriate domestic and international counterparts, the USNCB has asked DHS to provide
supplemental data concerning secondary inspection results and disposition of cases involving
passengers who were referred to CBP secondary inspection based on INTERPOL lookouts (i.e.,
TECS IO-95 query results). CBP has advised the USNCB that they are reviewing our request for
expanded access to TECS and disposition of cases. The USNCB has directed caseworkers to re-
query TECS crossing data each time a suspended case reaches its review date. USNCB will
explore, with DHS/CBP, the feasibility of routine batch load comparisons of INTERPOL wanted
person data against TECS crossing data.




                                            - 125 –
Recommendation 19. Develop a formalized process to ensure that searches of federal law
enforcement agency databases have been conducted on subjects of foreign notices or
diffusions to determine if they are persons of interest to these agencies.

USNCB Response: Agree. Presently, the USNCB checks INTERPOL notices and diffusions against
TECS, NCIC, and NADDIS (Narcotics and Dangerous Drugs Information System) to determine if
subjects of international interest are wanted or have a criminal history in the United States. In
addition, agents assigned to the USNCB from approximately 23 federal agencies have access to
their agencies’ databases. The USNCB will seek to increase staffing from its participating
agencies to ensure routine checking of agency internal databases to identify common targets.
In order to facilitate this effort, the USNCB will examine the technical feasibility of pushing
weekly lists of INTERPOL notices and diffusions to its participating law enforcement agencies.

The USNCB will work with its participating agencies, the ODAG and the DOJ Office of the Chief
Information Officer (OCIO) to explore technical mechanisms that would enable routine searches
of INTERPOL data against US agency databases.

Recommendation 20. Develop the capability to use INTERPOL information to identify trends
and patterns in international criminal activities, such as transnational organized crime.

USNCB Response: Agree. The USNCB recognizes the potential for using the wealth of criminal
data that is available at USNCB and is obtainable through INTERPOL channels to perform
criminal intelligence analysis. Our unique access to 18,000 domestic law enforcement agencies
and 186 INTERPOL counterparts positions the USNCB to develop and disseminate substantive
law enforcement analytical products. We recognize that this objective will require integrating
both human and technology systems.

Working within the confines of current resource limitations, the USNCB’s efforts have included
developing and recruiting personnel for key occupational specialties such as analysts
specializing in gangs and child exploitation. The USNCB will seek to train these personnel, both
in-house and externally, in analytical techniques associated with their specialties. In April 2008,
the USNCB arranged for a 2-week Federal Law Enforcement Analysts Training (FLEAT) course
developed in cooperation with the Drug Enforcement Administration, specifically for INTERPOL
Analysts. We have provided in-house training on analytics through commercial vendors. While
our ad-hoc efforts have made small advances in capability, the USNCB management team
recognized that a more concerted and focused effort was needed. Consequently, the USNCB
Training Committee was established in February 2009 to begin to identify specific gaps in
current capabilities and make recommendations for training and development that would
bridge those gaps. To bolster the Training Committee’s efforts, the USNCB is in the process of
entering into a reimbursable agreement with the Office of Personnel Management‘s Training
and Management Assistance Program to assist us in analyzing, designing, developing,
implementing, and evaluating customized training, learning, knowledge management, and
human resource management. With this tool in place, the USNCB will both establish curricula



                                            - 126 –
to ensure analytical capabilities are developed and build a Human Capital Strategic Plan to carry
this organization forward.

The USNCB will develop a formal IT Strategic Plan as recommended in the OIG report. Our plan
will not only address the items proposed in Recommendation 26, but will include identifying
tools that will strengthen the analytical capabilities of USNCB personnel. The USNCB has
already begun to procure certain off-the-shelf IT tools, such as i2 Analyst’s Notebook, and we
are incorporating them into our IT systems (i2 Analyst’s Notebook is an off-the-shelf, state of
the art visual investigative analysis software program).

Recommendation 21. Develop procedures to ensure that information is added to an existing
case only if additional information is available to confirm the identity of the subject, such as
fingerprints and photographs. In the absence of this additional information, a new case on the
subject should be opened and linked to the original case.

USNCB Response: Agree. The USNCB has implemented new procedures to ensure that
dispatchers confirm the following data before saving a new request to an existing case: name,
date of birth, place of birth, parents’ names, and requesting country. We will also use photo
and fingerprints whenever possible. The new policy instructs caseworkers to create a new case
file when they are unable to confirm, with confidence, that a new subject matches the identity
of an existing record. If a new request about a subject for whom the USNCB maintains an
existing record is received from a different country than the country identified in the existing
case, a new case will be opened and cross-referenced. We consider this recommendation
closed. (See Attachment B).

Recommendation 22. Ensure that its case management system provides the ability to:
(a) adequately maintain, control, and dispose of case-related information, including access
restrictions by user and audit trails; (b) compile management statistics; and (c) generate
standardized correspondence.

USNCB Response: Agree. The USNCB is currently developing a case management system using
Customer Relationship Management (CRM) software. The next phase of the CRM project will
address integration with the current case management system; define user roles and access
rights; and build in tools to appropriately archive and dispose of case-related data. The USNCB
is developing improved reports for compiling management statistics.

Additionally, USNCB will provide managers and supervisors with access to a ‘dashboard’ where
they can view statistics for their respective divisions’ and subordinates’ work performance.
Statistics will include messages sent, cases opened, and items in queue. The dashboard will
contain links to a user portal where ad hoc reports can be generated and exported to Excel
spreadsheet software. This capability will allow USNCB managers to effectively administer
resources and to identify productivity problems. Further, the evaluation of additional audit and
statistical requirements will be incorporated into current and future development projects.



                                            - 127 –
CRM will provide standard message templates for use by the USNCB’s investigative divisions.
Finally, as discussed in Recommendation 26, the USNCB will initiate a comprehensive IT
strategic planning process to assess legacy systems and current IT plans, to chart a roadmap
toward future IT objectives.

Recommendation 26. Develop a formal IT plan that systematically evaluates current
operations and uses of data and accounts for the various ways in which INTERPOL information
might potentially be used and accessed by other agencies. This plan should address: (a) IT
staffing needs, (b) controls to ensure data integrity, and (c) future
improvements in the areas of database inter-connectivity.

USNCB Response: Agree. The USNCB will work with DOJ OCIO, DHS OCIO, IPSG and the USNCB
Executive Committee, to formalize an IT Strategic Plan. A critical first step will be to identify an
IT Strategic Planning consultant to assist us in conducting an IT assessment that addresses
visioning, strengths, weaknesses, opportunities, threats, and constraints. This external
assessment will lead to identifying immediate solutions and help to chart the path forward. The
USNCB’s IT staff has begun preliminary discussions with both the OCIO’s office and IPSG to
review and develop the current approach to delivering INTERPOL services throughout the
United States. These discussions will be critical to ensuring that USNCB’s plan and IT
architecture are congruent and compatible with INTERPOL and the Department of Justice.

Recommendation 27. Work to develop formal agreements with domestic and federal law
enforcement agencies regarding staffing commitments and length-of-duty assignments.

USNCB Response: Agree. The USNCB has developed a model MOU for use with outside
agencies for the purpose of securing commitments for staffing and funding of the USNCB. The
USNCB hopes to expand a staffing initiative for our domestic state and local law enforcement
agencies to the federal law enforcement agencies within the Departments of Justice and
Homeland Security. Successful implementation of Recommendation 1 as well as the Human
Capital Strategic Plan referenced in Recommendation 20 should provide the support and legal
framework for long-term staffing arrangements between USNCB and its federal participating
agencies. The support of the ODAG and DHS Deputy Secretary in concluding such
arrangements will be critical, as agencies may be reluctant to commit scarce resources to
another agency in a time of shrinking budgets. USNCB will examine its staffing needs with a
view to prioritizing a list of agencies with which to engage in an MOU.




                                             - 128 –
                                                                                               APPENDIX X



          DEPARTMENT OF JUSTICE RESPONSE



                                                   U.S. Department of Justice

                                                   Office of the Deputy Attorney General




                                                    WashinglOlt. D.C. 20510


                                                   August 3, 2009


Mr. Raymond J. Beaudet
Assistant Inspector General
Office of the Inspector General
U.S. Department of Justice
1425 New York Avenue
Suite 5000
Washington, D.C. 20005

Subject: Draft Audit Report - The United States National Central Bureau (USNCB)

Dear Mr. Beaudet:

       Thank you for providing your Draft Audit Report dated July 13, 2009, to the Office of
the Deputy Attorney General for our review and comment. We appreciate the
thoroughness of your report, your thoughtful recommendations, as well as the opportunity
to comment on those recommendations.

        Under the new leadership of Deputy Attorney General David Ogden, this office is
committed to working closely with the Department of Homeland Security and taking a more
active role in the management ofthe U5NCB. Your report is a very helpful tool in making
that transition efficiently and effectively.

       Attached, please find our responses to Recommendations 1, and 23 to 25, which
were directed at this office.

       Should you have any questions regarding our response, please do not hesitate to
contact me at (202) 616-1621 or Candace.Kelly2@usdoj .gov.

                                            Very Truly Yours,


                                            C-JLL~
                                            Candace Kelly
                                            Senior Counsel to the Deputy Attorney General

Attachment




                                             - 129 –

Recommendation 1. Work with DHS, the USNCB, and the USNCB Executive Committee to
establish formal agreements between federal law enforcement agencies that describe the type
of case information these agencies should share with foreign counterparts through the
INTERPOL network.

Response: Agree in part. We agree that it is critical that law enforcement information about
international criminals be communicated to our foreign partners efficiently and effectively.
INTERPOL is one of a number of options for sharing investigative information with the
international law enforcement community, but it is not the exclusive method to accomplish this
goal. Each agency and each investigation has unique characteristics and sensitivities.
Accordingly, each agency must choose the option for information sharing that best suits the
needs of the investigation. To make an informed choice, the agencies must be well versed in
the capabilities of each of the communication methods – including INTERPOL. We recognize
that some U.S. law enforcement agencies may not be well informed on the capabilities and
usefulness of INTERPOL and that is a situation that must be rectified. As an initial step, the
Office of the Deputy Attorney General (“ODAG”) will support the USNCB in its outreach efforts
to educate U.S. law enforcement agencies on the merits of using INTERPOL tools and
information network.

ODAG will also work with the USNCB and the USNCB Executive Committee to explore whether
formal agreements with U.S. law enforcement agencies can be drafted in a way that that allows
for sufficient flexibility to meet the unique needs of each agency and each investigation. We
are concerned that formal agreements may not lend themselves to the necessary level of
flexibility, so we will also consider the option of accomplishing the same goal through policy
directives and guidance to U.S. law enforcement agencies.

Recommendation 23. Ensure that the Executive Committee meets as prescribed in the MOU
and takes the lead in developing a new strategic plan for the USNCB.

Response: Agree. The Deputy Attorney General will hold a meeting of the USNCB Executive
Committee within 60 days to address issues related to the management of the agency and the
development of a new strategic plan. This meeting will be followed by additional meetings to
be held as necessary, but at a minimum, every quarter. Additionally, ODAG has instituted
monthly component meetings with USNCB’s Director and Deputy Director to establish and
maintain a close working relationship between the two offices.

Recommendation 24. Evaluate options to enhance the USNCB’s executive management
structure to help ensure identification of the most qualified candidates for its senior executive
positions. Potential enhancements might include adopting a higher-ranking level for the
Director and Deputy Director positions, eliminating the practice of the Deputy Director
succeeding the outgoing Director at the end of the 3-year term, and revising the term length.
Response: Agree. ODAG will work with the Office of the Deputy Secretary to review the
current executive management structure of the USNCB and explore options for improvement.


                                            - 130 –
Additionally, ODAG has already begun to work with the USNCB and its Executive Committee to
begin the selection process for the USNCB’s Deputy Director, which will become vacant in early
FY10.

Recommendation 25. Determine the best method to budget and pay for the United States’
membership dues to INTERPOL to help minimize the operational impact on the USNCB.

Response: Agree. ODAG will work with Department’s Controller and the Justice Management
Division to determine the best mechanism for payment of U.S. financial obligations to
INTERPOL and to ensure that future increases to U.S. INTERPOL dues do not negatively impact
USNCB’s operating budget.




                                          - 131 –
                                                                      APPENDIX XI


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

        The OIG provided the USNCB and the ODAG a draft of this audit report
for review and comment. We also provided a draft of this audit report to the
FBI and DEA for their review of those portions of our report pertaining to
their agencies. Our report did not include any recommendations addressed
to the FBI or DEA, and the DEA provided no comments on our report. The
FBI provided technical clarifications on a small number of items in the report
and, where appropriate, we adjusted language in the report to reflect these
clarifications. The USNCB stated that it agreed with the
23 recommendations we made to the USNCB, and the ODAG stated that it
agreed with the 4 recommendations we directed to the ODAG. The
comments that we received from the USNCB and ODAG, which detail the
actions taken or plans for implementing our recommendations, have been
incorporated in Appendices IX and X, respectively. 111 Our analysis of these
responses and a summary of the actions necessary to close each
recommendation is presented below.

Recommendation Number:

1.    Resolved. The ODAG agreed in part with our recommendation to
      work with DHS, the USNCB, and the USNCB Executive Committee to
      establish formal agreements between federal law enforcement
      agencies that describe the type of case information these agencies
      should share with foreign counterparts through the INTERPOL network.
      According to the ODAG, it agrees that critical law enforcement
      information about international criminals should be communicated to
      foreign partners efficiently and effectively, but that INTERPOL is only
      one of a number of options to accomplish this task. The ODAG further
      stated that each agency and investigation is unique, and therefore
      each agency must select its best option for sharing the information
      according to the needs of the investigation. The ODAG also
      acknowledged that some U.S. law enforcement agencies might not
      know of INTERPOL’s capabilities and that this must be corrected.

      The ODAG stated that it will support the USNCB in the USNCB’s efforts
      to reach out and educate U.S. law enforcement agencies on
      INTERPOL’s services. The ODAG also stated that it will work with the
      USNCB and USNCB Executive Committee to determine whether formal
      agreements can be developed with U.S. law enforcement agencies that

      111
         The USNCB’s response included two attachments. We have not included these
attachments in our report due to their technical nature.


                                      - 132 –
     can provide enough flexibility to meet the unique needs of each
     agency and investigation. The ODAG further stated that it will
     consider accomplishing this goal through policy directives and
     guidance to U.S. law enforcement agencies.

     We believe that the ODAG’s statements are responsive to our
     recommendation and underlying finding that increased participation
     and cooperation between the USNCB and its domestic partners should
     be encouraged and supported.

     This recommendation can be closed when the ODAG provides evidence
     of its support of the USNCB’s outreach efforts. Additionally, the ODAG
     should provide copies of the formal agreements with federal law
     enforcement agencies or policies and guidance that describe the type
     of case information these agencies should share with foreign
     counterparts through the INTERPOL network.

2.   Resolved. The USNCB agreed with our recommendation to work with
     domestic law enforcement partners to ensure that the agencies issue
     INTERPOL notices for appropriate international fugitives, particularly
     those already publicly identified on the agencies’ websites or
     elsewhere. The USNCB stated that it has implemented policy and
     procedures to regularly monitor U.S. ‘Most Wanted’ programs to
     identify subjects for inclusion in INTERPOL’s notice program. The
     USNCB stated that it will contact the appropriate U.S. law enforcement
     agencies to ensure that they are advised on INTERPOL’s notice
     program and will provide assistance to issue INTERPOL notices for
     those fugitives where international leads have been or may be
     identified. Additionally, the USNCB stated that the Assistant Directors
     of its investigative divisions will report in monthly significant activity
     reports the publication of notices for these types of subjects. Further,
     the USNCB stated that it will document cases where an agency has
     declined to pursue a notice publication on the basis of investigative
     considerations.

     In addition, the FBI advised that its Office of International Operations
     has mandated that the FBI seek the issuance of red notices for all Top
     Ten Fugitives and Most Wanted Terrorists.

     This recommendation can be closed when the USNCB provides
     evidence of its efforts to advise U.S. law enforcement agencies on
     INTERPOL’s notice program. Additionally, the USNCB should provide a
     copy of its policy requiring regular monitoring of “most wanted”



                                   - 133 –
     programs and examples of monthly significant activity reports that
     contain mention of this monitoring.

3.   Resolved. The USNCB agreed with our recommendation to encourage
     federal law enforcement agencies to provide USNCB and INTERPOL-
     related training to their employees. The USNCB stated that it is in the
     process of formalizing a training outreach plan and developing an
     INTERPOL-USNCB training course for all Federal Law Enforcement
     Training Center (FLETC) law enforcement and analytical trainees.
     Once established, the USNCB will consider using the training program
     at the FBI and DEA academies in Quantico, Virginia.

     The USNCB also said that it has initiated specialized INTERPOL
     database training for various components of DOJ and DHS and has
     provided refresher training to the DHS Law Enforcement Support
     Center (LESC). Moreover, the USNCB said that it will continue to work
     with its law enforcement partners and the INTERPOL General
     Secretariat to enhance INTERPOL training opportunities for the U.S.
     law enforcement community.

     This recommendation can be closed when we receive a copy of the
     USNCB’s formalized training outreach plan and additional information
     regarding the FLETC INTERPOL-USNCB training course, including
     evidence that the course has been scheduled as a regular part of the
     curriculum for FLETC trainees. Please also submit an update on
     progress made in developing a media program for training and
     whether it is being used at the FBI and DEA. Additionally, the USNCB
     should provide documentation of the INTERPOL database training and
     evidence of the USNCB’s efforts to work with the INTERPOL General
     Secretariat to augment training opportunities for the U.S. law
     enforcement community.

4.   Resolved. The USNCB agreed with our recommendation to develop a
     method for domestic law enforcement agencies to submit a notice
     application electronically. The USNCB stated that it will utilize a
     contractor and develop a plan to implement a web portal called
     “IPOLNET” that will allow domestic law enforcement agencies to submit
     electronic notice applications in a format compatible with the USNCB
     case management system. The USNCB stated that it anticipates
     completion of IPOLNET by the end of FY 2010 and that it will develop
     training methods to accompany the electronic notice application form.
     The USNCB also said that in the interim it will continue to facilitate the
     electronic submission of notice applications by domestic law



                                   - 134 –
     enforcement agencies via existing infrastructure (e.g., secure e-mail,
     Regional Information Sharing System, and Law Enforcement Online).

     This recommendation can be closed when the USNCB provides us with
     evidence that IPOLNET has been implemented and that it provides a
     method for domestic agencies to submit notice applications
     electronically. Additionally, while IPOLNET is in development the
     USNCB should provide evidence of its efforts to facilitate electronic
     notice submissions using existing infrastructure.

5.   Resolved. The USNCB agreed with our recommendation to
     implement information technology solutions to more broadly share
     U.S. stolen motor vehicle information with INTERPOL members.
     According to the USNCB, the FBI’s Criminal Justice Information
     Services (CJIS) component allows limited foreign country access to
     U.S. stolen motor vehicle data through a USNCB-CJIS interface.
     However, the FBI has not supported the uploading of U.S. data into
     the INTERPOL database due to the volume of these data transactions.
     The USNCB further stated that CJIS has reported that it does not
     possess the required approval from the NCIC Advisory Policy Board
     (APB) to authorize full INTERPOL access through the interface. The
     USNCB said that it will re-engage the FBI and the INTERPOL General
     Secretariat to explore whether these agencies will support making the
     necessary legal and policy changes (and subsequent technical and
     procedural changes) to U.S. and INTERPOL systems to allow more
     INTERPOL countries access to U.S. stolen motor vehicle files through a
     proposed NCIC-INTERPOL interface.

     This recommendation can be closed when we receive evidence of the
     USNCB’s efforts to re-engage the FBI and the INTERPOL General
     Secretariat on this matter, as well as the final result of this interaction.

6.   Resolved. The USNCB agreed with our recommendation to ensure
     that a reliable communications network is maintained with all state
     and local liaison offices. The USNCB stated that currently it
     communicates with its State Liaison Offices using existing secure
     networks and the Regional Information Sharing System Networks
     (RISS) as a backbone. The USNCB stated that it will improve
     monitoring of these connections by polling each State Liaison e-mail
     server. Additionally, the USNCB State and Local Liaison Division will
     undertake a monthly poll of individual offices for any personnel
     changes in the user directory to avoid communication errors. The
     USNCB stated that in the future its “IPOLNET” web portal will support
     expanded networking capability for its State Liaison Offices.


                                    - 135 –
     This recommendation can be closed when the USNCB provides
     evidence of its polling of state liaison e-mail servers and individual
     offices, as well as the results of these polls. Also, the USNCB should
     provide evidence of how the IPOLNET web portal supports expanded
     networking capability for the state liaison offices.

7.   Resolved. The USNCB agreed with our recommendation to develop a
     formal outreach plan that identifies and prioritizes law enforcement
     organizations that would benefit from a better understanding of the
     USNCB and INTERPOL. In addition, the USNCB stated that it will
     continue to explore areas to enhance INTERPOL training and raise
     awareness within the U.S. law enforcement community. The USNCB
     also said that it will improve its statistical reporting capability to better
     identify and prioritize those law enforcement agencies that would most
     benefit from USNCB outreach programs.

     This recommendation can be closed when we receive the USNCB’s
     formal outreach plan, as well as evidence of how its improved
     statistical reporting capability better identifies and prioritizes those
     agencies that would most benefit from USNCB outreach.

8.   Resolved. The USNCB agreed with our recommendation to review
     current and incoming green notices and determine if they are
     appropriate for inclusion in NCIC. The USNCB stated that it has
     received approval from the FBI’s CJIS to enter foreign-issued
     INTERPOL green notices on gang-related offenders into the Violent
     Gang and Terrorist Offender File (VGTOF), and the USNCB will begin
     making these entries once the USNCB and CJIS have implemented
     necessary system modifications. The USNCB also stated that it
     submitted a request to the NCIC Advisory Policy Board (APB) to
     propose the inclusion of INTERPOL foreign-issued green notice
     information on sexual offenders into the NCIC Sexual Offender File.
     The USNCB stated that in the interim it will identify all active foreign
     green notice cases to determine those eligible for inclusion into the
     appropriate NCIC files, update the offense codes in the USNCB case
     management database, and issue revised handling procedures to
     ensure that newly published green notices are appropriately reviewed
     for inclusion into the NCIC VGTOF or Sexual Offender Files.

     This recommendation can be closed when USNCB provides evidence
     that it is entering foreign-issued INTERPOL green notices on gang-
     related offenders into VGTOF. Further, the USNCB should provide
     evidence of its efforts to: (1) identify all active foreign green notice


                                    - 136 –
     cases to determine those eligible for inclusion into the appropriate
     NCIC files, (2) update the offense codes in the USNCB case
     management database, and (3) issue revised handling procedures to
     ensure that newly published green notices are appropriately reviewed
     for inclusion in the NCIC VGTOF or Sexual Offender Files.

9.   Resolved. The USNCB agreed with our recommendation to modify its
     policies and procedures regarding notice and diffusion information to
     ensure that the appropriate data is shared with U.S. agency databases
     and is made available to domestic law enforcement personnel in a
     timely manner. The USNCB noted that its procedures for handling
     notice and diffusion information must differentiate between foreign and
     domestic-issued notices and diffusions because U.S. law enforcement
     agencies are responsible for placing entries on their fugitives and
     subjects of interest into national lookout systems while the USNCB is
     responsible for placing entries on subjects of foreign INTERPOL
     notifications into U.S. lookout systems. The USNCB stated that on
     August 1, 2009, USNCB staff began making NCIC entries on subjects
     of foreign diffusions when NCIC criteria are met. In addition, the
     USNCB stated that it will make entries on foreign-issued notices and
     diffusions in either NCIC or TECS, but not both because TECS queries
     are incorporated into NCIC queries, which enables TECS users access
     to USNCB entries in NCIC.

     The USNCB further stated that it is working with the Department of
     State to enhance the exchange of INTERPOL data for purposes of
     passport and visa application reviews and that it has determined that
     the State Department Consular Lookout and Support System (CLASS)
     receives wanted person records daily from NCIC and this includes
     USNCB wanted persons entries.

     The USNCB stated that it has made several changes to improve its
     timeliness. According to the USNCB, it is exploring the establishment
     of a 24/7 Notice Section that will allow for the uninterrupted
     processing of incoming foreign notices and will improve the timeliness
     of related entries into U.S. lookout systems. The USNCB also stated
     that it will continue to streamline and improve its processes in this
     area.

     We agree with the USNCB that its procedures for handling notice and
     diffusion information will differ between foreign and domestic-issued
     notices and diffusions. However, because representatives from many
     law enforcement agencies are stationed at the USNCB, we believe that
     the USNCB is in a unique position to help consolidate and streamline


                                  - 137 –
      the sharing of international criminal information. We do not believe
      that the USNCB should be responsible for entering information into all
      of the various databases. Nonetheless, the USNCB can help ensure
      that the information is shared.

      This recommendation can be closed when we receive evidence that the
      USNCB has modified its policies and procedures regarding notice and
      diffusion information to ensure that the appropriate data is shared with
      U.S. agency databases, including both foreign and domestic-issued
      notices and diffusions. In addition, the USNCB should provide us with
      more information regarding the establishment of a 24/7 Notice
      Section.

10.   Closed. The USNCB agreed with our recommendation to develop
      procedures to ensure that any additional information the USNCB
      obtains that augments previously provided domestic law enforcement
      agency data is made available to all relevant agencies. The USNCB
      provided a copy of a memorandum containing a policy directive and
      new case management procedures designed to ensure continuous
      information sharing. The USNCB also stated that it will include this
      policy in its new employee and refresher training programs. We
      consider this action sufficient to close this recommendation.

11.   Resolved. The USNCB agreed with our recommendation to provide
      domestic law enforcement agencies with access to INTERPOL
      information on stolen and lost travel documents. According to the
      USNCB, over the past several years, in an attempt to make
      information from the Stolen and Lost Travel Document (SLTD)
      database more readily available to U.S. state and local law
      enforcement, the USNCB enabled access to the SLTD database
      through an interface with the International Justice and Public Safety
      Information Sharing Network (Nlets). However, to activate the access
      Nlets state administrators must make technical modifications to local
      system configurations. The USNCB stated that as of August 3, 2009,
      21 states had made the necessary changes, and the USNCB continues
      to encourage additional states to implement these modifications as
      their resources and policies permit. The USNCB noted that because
      INTERPOL policy does not allow for the wholesale downloading of
      INTERPOL SLTD data to national databases, the USNCB is unable to
      enter these records directly into TECS or NCIC.

      The USNCB also stated that the USNCB and FBI’s CJIS have agreed to
      test a direct connection between the NCIC system and INTERPOL for
      query purposes. The results of this initiative will determine if this


                                   - 138 –
      interface can also deliver SLTD data to state and local law enforcement
      in a timely manner. The USNCB stated that it anticipates a preliminary
      assessment of the initiative by the end of 2009.

      This recommendation can be closed when we receive evidence that the
      21 states have access to SLTD data and that the USNCB is
      encouraging the remaining states to make the necessary changes
      needed to activate similar access. In addition, the USNCB should
      provide us with the results of the preliminary assessment of the
      INTERPOL-NCIC interface initiative for the subject records.

12.   Resolved. The USNCB agreed with our recommendation to work with
      the FBI to assess the feasibility of establishing a direct connection
      between the INTERPOL databases and NCIC. The USNCB stated that it
      has initiated a pilot project to assess the feasibility of integrating NCIC
      and INTERPOL queries and that it anticipates the pilot to be completed
      and results assessed by the end of this calendar year. The USNCB
      stated that it will then address the technical, policy, legal, and
      resource requirements for similar integration for foreign counterparts
      conducting INTERPOL queries.

      The USNCB stated that in the long term it will explore other solutions
      for sharing investigative data between INTERPOL and U.S. database
      systems. These solutions involve the integration of database systems
      for high-volume search and response functions. However, the USNCB
      anticipates that implementing the new processes will require direct
      coordination with multiple domestic and international stakeholders,
      which would be a fundamental shift in INTERPOL’s current philosophy
      of centralized storage of law enforcement data.

      This recommendation can be closed when we receive the USNCB’s
      assessment of the results of the pilot project aimed at integrating
      NCIC wanted subject queries with queries of INTERPOL data. In
      addition, the USNCB should provide us with the results of its efforts to
      address technical, policy, legal, and resource requirements for similar
      integration of INTERPOL queries by foreign counterparts. Lastly, the
      USNCB should provide information on its progress to develop a more
      far-reaching information technology solution.

13.   Resolved. The USNCB agreed with our recommendation to review
      existing USNCB-generated lookout records to ensure that the notice
      and diffusion information is accurate and consistent, including those
      identified by the OIG in this review.



                                    - 139 –
      The USNCB stated that it has issued a directive reminding supervisors
      that they are required to review all TECS and NCIC entries made by
      subordinate caseworkers within 48 hours to ensure the accuracy and
      completeness of the information, and that all discrepancies are to be
      corrected immediately.

      This recommendation can be closed when the USNCB provides
      evidence that it has reviewed the OIG-identified cases and made
      appropriate updates and corrections. Additionally, the USNCB should
      provide a copy of the directive reminding supervisors that they are
      required to review all TECS and NCIC entries made by subordinate
      caseworkers within 48 hours and that all discrepancies are to be
      corrected immediately.

14.   Resolved. The USNCB agreed with our recommendation to ensure
      that the notice and diffusion information retained in the FBI’s IAFIS
      and DHS’s IDENT system is compliant with the INTERPOL Rules for
      Processing Information. The USNCB stated that it ultimately intends
      to use the FBI’s IAFIS database as the central repository for INTERPOL
      fingerprint data in the United States. The USNCB said that in 2008 it
      concluded an informal agreement with the FBI and DHS to include
      INTERPOL fingerprint records stored in IAFIS in the interim Data
      Sharing Model (iDSM), an interagency initiative permitting NCIC
      information to be available to DHS personnel at ports of entry. Under
      the arrangement, the USNCB stated that it will continue to be
      responsible for creating and updating INTERPOL records in IAFIS,
      while the FBI’s CJIS will ensure that users of IAFIS, including DHS
      personnel, have the most current information. The USNCB also stated
      that full implementation of the iDSM will allow DHS to discontinue the
      storage of any INTERPOL information and to remove all INTERPOL
      information previously stored in the IDENT database. The USNCB
      stated that DHS and CJIS anticipate that iDSM will be fully
      implemented by end of FY 2010, and until that time the USNCB has
      implemented procedural changes to ensure that modifications to and
      deletions of INTERPOL records are communicated to DHS for timely
      updates to the IDENT database.

      Further, the USNCB stated that it has performed a review of files in
      IDENT for compliance with the INTERPOL rules and recommended the
      deletion of 250 fingerprint files. The USNCB is currently awaiting
      formal written confirmation of the deletion of these files.

      This recommendation can be closed when we receive documentation
      supporting the USNCB’s policies and procedures regarding inclusion of


                                  - 140 –
      INTERPOL fingerprints in IAFIS and IDENT, including the agreement
      with the FBI regarding inclusion of fingerprints in IAFIS. In addition,
      pending implementation of the iDSM, the USNCB should provide copies
      of agreements between the USNCB, FBI, and DHS regarding the
      inclusion, use, and deletion of INTERPOL fingerprint records. Once the
      iDSM has been fully implemented, the USNCB should provide a copy of
      the formal agreements between the USNCB, FBI, and DHS regarding
      the storage and use of INTERPOL fingerprints, as well as
      documentation that the 250 INTERPOL fingerprints contained within
      IDENT have been deleted.

15.   Resolved. The USNCB agreed with our recommendation to develop
      and implement automated processes to transmit INTERPOL
      information to U.S. agency systems. The USNCB stated that it will
      coordinate with personnel from NCIC, relevant domestic agencies, and
      INTERPOL’s General Secretariat to explore technological solutions for
      pushing INTERPOL data directly to NCIC. The USNCB stated that
      ultimately it will pursue full system integration as a more efficient data
      sharing model.

      This recommendation can be closed when the USNCB provides
      evidence that it has developed automated processes to transmit
      INTERPOL information to U.S. agency systems. In the interim, the
      USNCB should provide evidence of its coordination with various
      stakeholders to develop a technological solution for accomplishing this
      task.

16.   Resolved. The USNCB agreed with our recommendation to eliminate
      the backlog of unissued or unprocessed notices and diffusions and
      develop procedures to regularly monitor the timeliness of workflow
      processes. The USNCB stated that it has utilized existing resources to
      address the current backlog and anticipates that the backlog identified
      in our report will be eliminated by the end of 2009. The USNCB also
      stated that it has begun planning for a “clean sweep” that will have
      agents, analysts, and supervisors work together to conduct a thorough
      review of all open and suspended cases.

      The USNCB stated that it believes that in the long term several
      planned initiatives should greatly improve its ability to monitor the
      timeliness of workflow processes. In the interim, the USNCB stated
      that it will monitor the timely handling of notices and diffusions
      through a weekly report of those cases with no activity.




                                    - 141 –
      This recommendation can be closed when the USNCB provides
      evidence that the notice and diffusion backlog identified in the report
      has been eliminated. Additionally, the USNCB should provide the
      results of its “clean sweep” review of all open and suspended cases
      and evidence of weekly reports with no activity.

17.   Resolved. The USNCB agreed with our recommendation to review all
      active notices and diffusions to ensure that appropriate database
      searches have been conducted. The USNCB stated that over the last
      several months it has utilized existing resources to address a backlog
      of 1,537 cases requiring additional database searches, and as of
      July 24, 2009, 1,173 cases had been completed. The USNCB stated
      that it has submitted funding requests for FY 2011 for additional
      resources to fully staff its Command Center and ensure its Notices
      Section can operate around the clock. In the meantime, as part of the
      USNCB Human Capital Strategic Planning process, the USNCB stated
      that it will look to additional workforce utilization techniques to prevent
      future backlogs. The USNCB Compliance Officer will provide a weekly
      report to USNCB Assistant Directors and Supervisory Analysts
      identifying all open and suspended diffusion and notice cases where no
      query has been performed and Assistant Directors and Supervisors will
      be responsible for ensuring that searches are conducted in a timely
      manner.

      This recommendation can be closed when the USNCB provides
      evidence that it has completed the review of cases requiring additional
      database searches. Additionally, the USNCB should provide evidence
      of its Compliance Officer’s weekly report and the subsequent action
      taken on those cases identified in the report as having had no query
      performed.

18.   Resolved. The USNCB agreed with our recommendation to develop
      and implement policies and procedures, including technological
      solutions, to determine if subjects of INTERPOL notices and diffusions
      have entered the United States subsequent to the receipt of the notice
      or diffusion. The USNCB noted that it maintains approximately
      40,000 subject lookouts in the TECS system so that the USNCB will be
      alerted by U.S. Customs and Border Protection (CBP) if the subject of
      an INTERPOL red notice enters the country. The USNCB also stated
      that to more accurately track movements of INTERPOL fugitives and
      wanted persons and share that information with appropriate domestic
      and international counterparts, it has asked DHS to provide
      supplemental data concerning secondary inspection results and the
      disposition of cases involving passengers who were referred to CBP


                                    - 142 –
      secondary inspection based on INTERPOL lookouts. According to the
      USNCB, CBP has advised that it is reviewing the USNCB’s request. The
      USNCB stated that it has directed caseworkers to re-query TECS each
      time a suspended case reaches its review date and that the USNCB will
      explore with CBP the feasibility of routine high-volume batch
      comparisons of INTERPOL wanted-persons data against TECS data.

      This recommendation can be closed when we receive evidence of the
      direction given to USNCB caseworkers to re-query TECS each time a
      suspended case reaches its review date. The USNCB should also
      provide updated information on its request for expanded access to
      TECS and disposition of cases and its discussions with CBP regarding
      the possibility of routine high-volume batch comparisons of INTERPOL
      wanted-persons data against TECS data.

19.   Resolved. The USNCB agreed with our recommendation to develop a
      formalized process to ensure that searches of federal law enforcement
      agency databases have been conducted on subjects of foreign notices
      and diffusions to determine if they are persons of interest to these
      agencies. According to the USNCB, it checks INTERPOL notices and
      diffusions against TECS, NCIC, and NADDIS (Narcotics and Dangerous
      Drugs Information System) to determine if subjects of international
      interest are wanted or have a criminal history in the United States.
      The USNCB added that agents assigned to the USNCB from
      approximately 23 federal agencies also have access to their agencies’
      databases. The USNCB stated that it will seek to increase staffing
      from its participating agencies to ensure routine checking of agency
      internal databases to identify common targets, and to facilitate this
      effort the USNCB will examine the technical feasibility of pushing
      weekly lists of INTERPOL notices and diffusions to its participating law
      enforcement agencies. The USNCB also stated that it will work with its
      participating agencies, the ODAG, and the DOJ Office of the Chief
      Information Officer to explore technical solutions that would enable
      routine searches of INTERPOL data against U.S. agency databases.

      This recommendation can be closed when we receive evidence of the
      USNCB’s efforts to increase staffing from its participating agencies to
      ensure routine checking of agency internal databases to identify
      common targets. Additionally, the USNCB should provide the results
      of its efforts to send weekly lists of INTERPOL notices and diffusions to
      participating law enforcement agencies, as well as its efforts to explore
      technical solutions that would enable routine searches of INTERPOL
      data against U.S. agency databases.



                                   - 143 –
20.   Resolved. The USNCB agreed with our recommendation to develop
      the capability to use INTERPOL information to identify trends and
      patterns in international criminal activities, such as transnational
      organized crime. The USNCB stated that its current efforts have
      included developing and recruiting personnel for key occupational
      specialties, such as analysts specializing in gangs and child
      exploitation. The USNCB stated that it will seek to train these
      personnel, both in-house and externally, in analytical techniques
      associated with their specialties.

      The USNCB stated that it has provided in-house training on analytics
      through commercial vendors, and while its ad-hoc efforts have made
      small advances in capability, the USNCB management team recognized
      that a more concerted and focused effort was needed. Consequently,
      the USNCB Training Committee was established in February 2009 to
      begin to identify specific gaps in current capabilities and make
      recommendations for training and development that would bridge
      those gaps. According to the USNCB, to bolster the Training
      Committee’s efforts the USNCB is in the process of entering into a
      reimbursable agreement with the Office of Personnel Management‘s
      Training and Management Assistance Program to assist it in analyzing,
      designing, developing, implementing, and evaluating customized
      training, learning, knowledge management, and human resource
      management. The USNCB also stated that it intends to strengthen its
      IT environment and that through this effort the USNCB hopes to
      develop automated tools that will strengthen the analytical capabilities
      of USNCB personnel.

      This recommendation can be closed when we receive documentation of
      the USNCB’s efforts to improve the analytical capabilities of its staff
      and evidence that the USNCB has developed the capability to identify
      trends and patterns in international criminal activities and that such
      trend analysis activities are underway.

21.   Closed. The USNCB agreed with our recommendation to develop
      procedures to ensure that information is added to an existing case only
      if information is available to confirm the identity of the subject, such
      as fingerprints and photographs. The USNCB provided a policy
      memorandum that requires dispatchers to confirm subject identities
      before saving a new request to an existing case. The policy instructs
      dispatchers to create a new case file if they determine the subject is
      not the same or if they determine the subject is the same, but that the
      new request does not relate to an existing case. The policy also states
      that in the latter instance, the new case will be cross-referenced to the


                                   - 144 –
      original case. We consider this action sufficient to close this
      recommendation.

22.   Resolved. The USNCB agreed with our recommendation to ensure
      that its case management system provides the ability to:
      (1) adequately maintain, control, and dispose of case-related
      information, including access restrictions by user and audit trails;
      (2) compile management statistics; and (3) generate standardized
      correspondence. The USNCB stated that it is currently developing a
      case management system using Customer Relationship Management
      software. The next phase of the Customer Relationship Management
      project will define user roles and access rights, and will build in tools
      to appropriately archive and dispose of case-related data. The USNCB
      also stated that it is developing improved reports for compiling
      management statistics. Further, the USNCB stated that the evaluation
      of additional audit and statistical requirements will be incorporated into
      current and future development projects and that Customer
      Relationship Management will provide standard message templates for
      use by the USNCB’s investigative divisions.

      This recommendation can be closed when the USNCB provides
      evidence that the Customer Relationship Management software has
      been successfully implemented and that the software provides the
      USNCB with the ability to: (1) adequately maintain, control, and
      dispose of case-related information, including access restrictions by
      user and audit trails; (2) compile management statistics; and
      (3) generate standardized correspondence. Also, the USNCB should
      provide evidence that it can view workload statistics and generate ad-
      hoc reports.

23.   Resolved. The ODAG agreed with our recommendation to ensure that
      the Executive Committee meets as prescribed in the MOU and takes
      the lead in developing a new strategic plan for the USNCB. The ODAG
      stated that the Deputy Attorney General will hold a meeting of the
      USNCB Executive Committee within 60 days to address issues related
      to the management of the agency and the development of a new
      strategic plan, and that this meeting will be followed by additional
      meetings to be held at least quarterly. Additionally, the ODAG stated
      that it has instituted monthly component meetings with the USNCB’s
      Director and Deputy Director to establish and maintain a close working
      relationship between the two offices.

      This recommendation can be closed when the ODAG provides evidence
      that the Executive Committee has been convened and continues to


                                    - 145 –
      meet throughout FY 2010 to discuss issues related to the management
      of the USNCB and the development of a new strategic plan. In
      addition, the ODAG should provide evidence that monthly component
      meetings between the ODAG and USNCB Director and Deputy Director
      are taking place. Further, when completed the USNCB should provide
      us with a copy of its new strategic plan.

24.   Resolved. The ODAG agreed with our recommendation to evaluate
      options to enhance the USNCB’s executive management structure to
      help ensure identification of the most qualified candidates for its senior
      executive positions. The ODAG stated that it will work with DHS to
      review the current executive management structure of the USNCB and
      explore options for improvement. Additionally, the ODAG stated that it
      has already begun to work with the USNCB and its Executive
      Committee to begin the selection process for the USNCB’s Deputy
      Director position, which will become vacant in early FY 2010.

      This recommendation can be closed when we receive the results of the
      ODAG’s evaluation of options to enhance the USNCB’s executive
      management structure to help ensure identification of the most
      qualified candidates for its senior executive positions.

25.   Resolved. The ODAG agreed with our recommendation to determine
      the best method to budget and pay for the United States’ membership
      dues to INTERPOL to help minimize the operational impact on the
      USNCB. The ODAG stated that it will work with the Department’s
      Controller and the Justice Management Division and ensure that future
      increases to U.S. INTERPOL dues do not negatively impact the
      USNCB’s operating budget.

      This recommendation can be closed when the ODAG provides us with
      the results of its efforts to determine the best method to pay for U.S.
      financial obligations to INTERPOL without negatively impacting the
      USNCB’s operating budget.

26.   Resolved. The USNCB agreed with our recommendation to develop a
      formal IT plan that systematically evaluates current operations and
      uses of data and accounts for the various ways in which INTERPOL
      information might potentially be used and accessed by other agencies.
      The USNCB stated that it will work with the DOJ and DHS Chief
      Information Officers, the USNCB Executive Committee, and INTERPOL
      to formalize an IT Strategic Plan. According to the USNCB, a critical
      first step will be to identify an IT Strategic Planning consultant to



                                    - 146 –
      assist in conducting an IT assessment that addresses visioning,
      strengths, weaknesses, opportunities, threats, and constraints.

      This recommendation can be closed when we receive a copy of the
      USNCB formal IT plan. In the interim, the USNCB should keep us
      informed of progress made on this recommendation.

27.   Resolved. The USNCB agreed with our recommendation to work to
      develop formal agreements with domestic and federal law enforcement
      agencies regarding staffing commitments and length-of-duty
      assignments. The USNCB stated that it has developed a model MOU
      for use with outside agencies for the purpose of securing commitments
      for staffing and funding of the USNCB. The USNCB added that
      successful implementation of Recommendations 1 and 20 should
      provide the support and legal framework for long-term staffing
      arrangements between the USNCB and its federal participating
      agencies. Additionally, the USNCB stated that it will examine its
      staffing needs with a view to prioritizing a list of agencies with which
      to engage in an MOU.

      This recommendation can be closed when the USNCB provides us a
      copy of the model MOU developed for use with outside agencies.
      Finally, the USNCB should provide us with its prioritized list of agencies
      with which it will attempt to engage in an MOU.




                                    - 147 –
